<html>
<title> - INTERAGENCY COOPERATION IN WILDLAND FIRE FIGHTING</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
           INTERAGENCY COOPERATION IN WILDLAND FIRE FIGHTING
=======================================================================


                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                September 28, 2002 in Show Low, Arizona

                               __________

                           Serial No. 107-155

                               __________

           Printed for the use of the Committee on Resources








 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                  _________

                       U. S. GOVERNMENT PRINTING OFFICE
81-932                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 28, 2002...............................     1

Statement of Members:
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona.................................................     3
        Prepared statement of....................................     4
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Kolbe, Hon. Jim, a Representative in Congress from the State 
      of Arizona, Prepared statement of..........................     5

Statement of Witnesses:
    Behrens, David, Fire Management Officer, Arizona State Land 
      Department Fire Management Division........................    29
        Prepared statement of....................................    31
    Covington, Wally, Ph.D., School of Forestry, Northern Arizona 
      University.................................................    56
        Prepared statement of....................................    62
    Epps, Fire Chief Mell, Heber-Overgaard Fire Department.......    36
        Prepared statement of....................................    44
    Leaverton, Bob, Southwest Regional Fire Plan Coordinator, 
      Forest Service, U.S. Department of Agriculture.............     6
        Prepared statement of....................................     9
    Nordwall, Wayne, Director, Western Region, Bureau of Indian 
      Affairs, U.S. Department of the Interior...................    13
        Prepared statement of....................................    16
    Philbin, John, Regional Forester, Western Region, Bureau of 
      Indian Affairs.............................................    20
    Porter, Lon, Owner, Precision Pine and Timber, Inc...........    53
        Prepared statement of....................................    55
    Shumway, Pete, County Supervisor, District 4, Vice Chairman 
      of the Board, Navajo County................................    33
        Prepared statement of....................................    35

Additional Comments:
    Applegate, Bob, Arizona......................................    85
    Breen, Rob, Show Low and White River, Arizona................    79
    Farmer, Jean, Heber and Phoenix, Arizona.....................    83
    Flake, Sanford, Snowflake, Arizona...........................    76
    Gibson, Janet, Heber, Arizona................................    77
    Gibson-Boatman, Kathy, Pinetop Lakeside, Arizona.............    74
    Handorf, Hon.Ginny, Mayor, Pine Top, Arizona.................    73
    Kelly, Hon. Gene, Mayor, Show Low, Arizona...................    81
    McConnell, John, Scottsdale, Arizona.........................    80
    Moore, Dr. Martin, St. Johns, Arizona........................    76
    Nunnally, C.D., Timberland Acres, Arizona....................    74
    Peterson, Marvin, Pinedale, Arizona..........................    86
    Smith, Jerry, Snowflake, Arizona.............................    82
    Stockton, Vicky, Timberland Acres, Arizona...................    71
    Weidner, Susan, Mesa, Arizona................................    78
    Zoellner, Al, Timberland Acres, Arizona......................    75















   FIELD HEARING ON INTERAGENCY COOPERATION IN WILDLAND FIRE FIGHTING

                              ----------                              


                      Saturday, September 28, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                           Show Low, Arizona

                              ----------                              

    The Subcommittee met, pursuant to call, at 1:04 p.m., in 
the Show Low High School Auditorium, 500 W. Old Linden Road, 
Show Low, Arizona, Hon. J.D. Hayworth, presiding.
    Mr. Hayworth. The Subcommittee on Forests and Forest Health 
will now come to order.
    We thank so many of you for taking time out to join us 
today and as you find seats, a couple of housekeeping notes are 
in order.
    We have an agenda that is posted on either side and copies 
of which you can pick up. We also know that many people have 
their own perspectives of what has transpired and why I would 
encourage those who join us today from the public to pick up 
one of the agendas is because on the back page, there is a 
provision made for you to mail, fax or e-mail your own 
testimony, your own perspective, to us as we continue to deal 
with the challenges that confront us with reference to western 
wildfires. So I would have you make note of that as we conduct 
this field hearing today.

 OPENING STATEMENT OF THE HON. J.D. HAYWORTH, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Hayworth. Our Subcommittee today will hear testimony on 
interagency cooperation in wildland fire fighting.
    In the eyes of many, Arizona has just experienced its worst 
wildfire season ever. Many communities right in this area 
sustained tremendous damage from the Rodeo-Chediski fire, 
ranging from burned homes and businesses to destroyed wildlife 
habitat and environmental devastation. The hearts of our nation 
go out to the victims of this fire and honor those who assisted 
in the catastrophe management and cleanup efforts.
    But Arizona is not alone. Much of the west has also endured 
catastrophic fires. So it is understandable and necessary that 
the U.S. Congress closely examine the Federal actions taken 
while combating this fire. It is our hope that this testimony 
presented today will help us determine the effectiveness of 
Federal wildfire management policies. What we learn today has 
the potential to save homes, businesses, wildlife and possibly 
the lives of firefighters and of those that live on or near our 
forest land.
    Therefore, we are here today bringing Washington to the 
White Mountains to make an after-action review of the 
coordination of efforts of Federal, state and local fire 
fighting authorities during the Rodeo-Chediski fire. 
Specifically, the Committee hopes to hear testimony that will 
answer the following questions:
    1. In what ways were local officials consulted and relied 
upon for vital information by Federal agencies?
    2. What bureaucratic restrictions exist that hinder or 
prevent effective fire fighting or fire prevention?
    3. Were local fire department personnel and equipment 
utilized in the most efficient manner?
    4. Do regional fire plans contain conflicting rules that 
could possibly generate confusion and wasted time during an 
emergency situation.
    5. Are regional fire plans coordinated with local and 
neighboring authorities?
    6. What needs to change to prevent future devastation by 
uncontrollable wildfires?
    I look forward to the testimony presented today by the 
Forest Service, the Bureau of Indian Affairs, the incident 
commander of the Rodeo-Chediski fire, nationally recognized 
forest health experts and the many local citizens affected by 
this catastrophe.
    Indeed in the eyes of many, what is called catastrophic 
fire became cataclysmic. And while we are thankful that there 
was no loss of human life, the loss to families, to businesses, 
to our environment, was nothing short of a cataclysm.
    Today we will listen and learn from the panels and from 
many of you who have joined us.
    I am honored to be joined on the dias by another good 
friend who serves with me on the Resources Committee, the 
gentleman from the First Congressional District, the Honorable 
Jeff Flake.
    Congressman Flake, we recognize you for any opening 
statement you might want to make.
    [The prepared statement of Mr. Hayworth follows:]

Statement of Hon. J.D. Hayworth, a Representative in Congress form the 
                            State of Arizona

    Arizona, like much of the West, has sustained some of the most 
catastrophic fire seasons ever. Many communities here in Arizona 
sustained tremendous damage from the Rodeo-Chediski Fire, ranging from 
burned homes and businesses to destroyed wildlife habitat and 
environmental devastation. The hearts of the nation go out to the 
victims of this fire, and honor those who assisted in the catastrophe 
management and clean-up efforts.
    Nevertheless, it is expedient for the United States Congress to 
closely examine the federal actions taken while combating this fire. It 
is our hope that the testimony presented today will help us determine 
the effectiveness of federal wildfire management policies. What we 
learn today has the potential to save homes, businesses, wildlife, and 
possibly the lives of firefighters and those that live on or near 
forestland. Therefore, we are here today in the beautiful White 
Mountains to make an after-action review of the coordination efforts of 
federal, state, and local fire fighting authorities during the Rodeo-
Chediski fire.
    Specifically, the Committee hopes to hear testimony that will 
answer the following questions:
    1) LIn what ways were local officials consulted and relied upon for 
vital information by federal agencies?
    2) LWhat bureaucratic restrictions exist that hinder or prevent 
effective fire fighting or fire prevention?
    3) LWere local fire department personnel and equipment utilized in 
the most efficient manner?
    4) LDo regional fire plans contain conflicting rules that could 
possibly generate confusion and wasted time during an emergency 
situation?
    5) LAre regional fire plans coordinated with local and neighboring 
authorities?
    6) LWhat needs to change to prevent future devastation by 
uncontrollable wildfires?
    I look forward to the testimony presented today by the Forest 
Service, the Bureau of Indian Affairs, the incident commander of the 
Rodeo-Chediski fire, nationally-recognized forest health experts, and 
the many local citizens affected by this catastrophe.
                                 ______
                                 

 OPENING STATEMENT OF THE HON. JEFF FLAKE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Flake. Thank you, Congressman Hayworth, I appreciate 
you pushing to have this hearing held, appreciate the Resources 
Committee and this Subcommittee for doing this.
    I grew up in this area, in Snowflake, not far away and when 
I look out in the audience, I see a lot of friends and 
neighbors and others that I grew up with and that suffered 
greatly because of this fire. It really had a personal touch 
for me. I was able to be here on Saturday and Sunday when Show 
Low was evacuated and when things were I think at their peak 
here and it was not known if Show Low would be saved at all, 
and when the fire was raging very close to Heber-Overgaard, 
actually taking some of those homes.
    It struck me as we drove in initially here to see the fire 
and smoke in the background that the Sonic, where you turned 
onto Old Linden Road there, was advertising their new milkshake 
line I believe and the sign out there said ``Everything's 
peachy.'' I thought that was, in the backdrop of a completely 
deserted town, waiting for a fire that might come, everything 
is not peachy with our forest policy and with the regulations 
that we have in place that sometimes prevent organizations and 
levels and agencies within the Federal Government from working 
with each other, and that is why this hearing is so important, 
that we hear what actually happened, what could have been done 
differently, what do we need to do in the future to ensure that 
it does not happen again like this.
    I was here for 2 days and received many calls from friends 
in the Heber-Overgaard area, quite frantic, quite upset at the 
lack of coordination, the lack of information that they were 
receiving. We need to do better. And I am very anxious to hear 
what went into that, what recommendations come from our 
witnesses here and, as Congressman Hayworth already mentioned, 
that we can take back with us and actually apply in legislation 
we introduce as we move forward on this.
    I picked up the paper yesterday and read a great article 
that I would like to submit as part of the record.
    Mr. Hayworth. Without objection, so ordered.
    Mr. Flake. It was written by Kathy Gibson-Boatman, a person 
that I went to school with in Snowflake. She wrote a great 
piece about the problems that we had with this fire and what we 
ought to do moving forward. She just mentioned in the closing 
line, ``The Forest Service is forced to over-document every 
step they take in order to protect themselves from litigation. 
This contributes to unnecessary delays that have devastating 
results. The Chediski fire and the Rodeo fire as well is a 
prime example of delays that were occurring at the time when 
lives were at risk.'' This is just one of the problems that we 
had and I am anxious to hear about the others.
    I appreciate again the opportunity to be here and thank Mr. 
Hayworth and the others for scheduling this hearing.
    Mr. Hayworth. Congressman Flake, we thank you for your 
opening statement. And of course Kathy's column and her 
perspective will be included in the record without objection.
    [The article has been retained in the Committee's official 
files.]
    [The prepared statement of Mr. Flake follows:]

Statement Hon. Jeff Flake, a Representative in Congress from the State 
                               of Arizona

    Thank you to those who are here as witnesses, to Congressman 
Hayworth for requesting this hearing and to the Forests and Forest 
Health Subcommittee who saw the importance of taking time to organize 
and provide the necessary support for this field hearing.
    I grew up in this area and know very well the lives of those who 
have been affected by the fires that burned out of control this summer. 
As I look around the room, I see the faces of families I know 
personally and faces of those who have had to overcome the obstacles 
this enormous fire created for them.
    The Rodeo-Chedeski Fire burned about 500,000 acres, destroyed over 
400 homes and touched the lives of many more families. The goal of this 
hearing is to hear from those intimately involved in the local forest, 
and to hear how the current system could be improved upon to provide 
more effective fire management.
    The Committee has already discussed, in a hearing earlier this 
year, the process gridlock on the nations forests. The Government 
Accounting Office took that opportunity to qualify and expand the 
results of their focus on the appeals and litigation on National 
Forests. A portion of the burned area was to be cut as part of the 
Bacca Timber Sale but was stalled for almost two years.
    In answer to the cries of gridlock, we have heard from extremists 
proposing to allow thinning on the nation's forests; but thinning only 
in the interface--the area immediately around human homes - and 
thinning done only with solar powered chainsaws. I know my way around a 
hardware store; I've never seen the solar powered chainsaw section -
this is not an attempt at a realistic solution.
    Commercial industry, however, working in partnership with the 
National Forests has the ability to greatly reduce the amount of fuel 
the forests are currently supporting. At the same time this effort will 
support the local economy and reduce taxpayer expense for maintaining 
the forest.
    Just as the Committee has looked at the gridlock, it now turns to 
look at other issues surrounding the causes of these powerful infernos 
that have gotten out of control. Already, many have introduced 
legislation to address areas that have been concerns. Beetle 
infestation, the ability to bring in management level firefighters from 
other countries, and making military aircraft available to fight 
wildfires were all developed as solutions to address forest fire 
concerns. I've also introduced a bill, the Disaster Declaration 
Exemption Act. It specifically addresses the aftermath of disasters 
such as this by expediting the cleanup process and exempting the 
appeals and litigation from stalling debris removal and cleanup.
    There is good cause for us to be concerned about this fire and the 
increased number of larger fires seen throughout the west. The 
inability to contain them was aggravated by a multiplicity of issues, 
some of which I expect to hear about today. Given the nature of this 
year's fire season, the Forest Service and the Committee need to think 
long-term, plan for the future, and rethink how current policy should 
be changed to prevent future harm.
                                 ______
                                 
    Mr. Hayworth. We should also note that we have a statement 
from our colleague, Jim Kolbe, that we will include in the 
record today.
    [The prepared statement of Mr. Kolbe follows:]

 Statement Hon. Jim Kolbe, a Representative in Congress from the State 
                               of Arizona

    I would like to commend the Committee for holding this field 
hearing today to assess the performance of local, state, tribal, and 
federal agencies in battling wildland fire.
    Arizona has been devastated by wildland fires this year, and the 
rest of the country can learn a lot about fighting fires from the 
people here in the White Mountains. In Arizona, all levels of 
government (city, county, state, tribal and federal) have demonstrated 
a willingness to work together to prevent fires from destroying our 
communities and our forests, and most important, to prevent the loss of 
human life.
    By September 17, 2002, Arizona had had its worst fire season in 
modern history--2,741 wildland fires that burned 650,000 acres. This 
includes the Rodeo-Chediski fire, as well as fires in Southern Arizona 
and along the border. The border fires are particularly challenging 
because warming and cooking fires built and abandoned by illegal 
immigrants likely have caused wildfires that have destroyed more than 
40,000 acres.
    Another challenge is that fires are spreading more quickly than 
before. The Rodeo fire grew from 800 acres to 46,000 acres in one day. 
This resulted from crowded and unhealthy forests, aggravated by severe 
drought. We must restore our forests to an ecologically healthy 
condition. This benefits the ecosystems and the people that visit and 
live near the lands.
    Congress appropriated $2.27 billion last year for the National Fire 
Plan, which coordinates federal and state efforts to fight wildfires 
and reduce the underlying causes of hard to control forest fires. One 
example of a federally funded program is the Volunteer Fire Assistance 
program to help rural volunteer fire departments obtain protective 
clothing, self-contained breathing apparatus, radio equipment, and 
adequate water supplies. Half of all volunteer fire departments around 
the country lack these essential items. Another federal program 
provides many small town fire departments with old military trucks that 
can be rebuilt and used as fire trucks.
    These rural fire departments typically are the first responders to 
most wildland/urban interface fires. We need to support these local 
firefighters.
    We also need to restore the 650,000 acres of land that has been 
torched during this tragic year of wildland fires in Arizona and ensure 
that other forest areas such as Mt. Graham are properly managed so they 
are not tinder boxes waiting to be ignited.
    These are complex matters that require seamless cooperation through 
all levels of government and across all government agencies. But, 
failing to address wildland fire fighting is failing the people who 
live in the West.
    I am hopeful that this hearing will highlight some of the 
deficiencies and some of the strengths in our Arizona forest fire 
fighting strategy, and will suggest new, innovative ways to manage our 
forests.
                                 ______
                                 
    Mr. Hayworth. And again, if you are just joining us, coming 
into the auditorium here at Show Low High School, we welcome 
you, we thank you and we will reiterate from time to time 
during the course of the hearings that we welcome written 
testimony from all of you for your perspectives.
    But we come to our panel discussions now and testimony and 
on panel one, the Subcommittee is pleased to welcome Bob 
Leaverton, the Southwest Regional Coordinator for the National 
Fire Plan from the United States Forest Service and Wayne 
Nordwall, the Western Regional Forester from the U.S. Bureau of 
Indian Affairs. Wayne is accompanied by John Philbin, to 
discuss the BIA's perspective on dealing with the fire and its 
aftermath.
    Gentlemen, welcome. And for panel one and for those who 
offer subsequent testimony, the Chair would note that we will 
try to limit your statements to 5 minutes. We know that you 
have full written testimony for the record, which will be 
included without objection, and if we can try to limit 
summation of the testimony to 5 minutes that is fine. There is 
no hard and fast rule there, the Chair will offer discretion. 
But we look forward to your testimony and Mr. Leaverton, we 
begin with your thoughts.

 STATEMENT OF BOB LEAVERTON, SOUTHWEST REGION COORDINATOR FOR 
          THE NATIONAL FIRE PLAN, U.S. FOREST SERVICE

    Mr. Leaverton. Mr. Chairman and members of the 
Subcommittee, thank you for the opportunity to talk with you 
today about interagency cooperation in wildland fire fighting. 
I am Bob Leaverton, National Fire Plan Coordinator for the 
Southwestern Region of the U.S.D.A. Forest Service, 
headquartered in Albuquerque, New Mexico.
    And because of the time, I think I know what is important 
and what you want to hear today, so I will paraphrase some of 
the statement.
    As the Subcommittee and everyone is well aware, the 
southwest began the 2002 fire season in its fourth year of 
drought with no moisture relief in sight. Records from the 
National Climatic Data Center in Asheville, North Carolina show 
that May 2002 was the second driest May on record in Arizona 
and New Mexico in 108 years of recordkeeping.
    Even though we had a lot of fires this year, we were 
successful in putting out over 99 percent of all fires during 
the initial attack. Over 920,000 acres burned in the southwest 
this year. This is well above the 10-year average of 390,000 
acres and is reflective of the drought, weather and the buildup 
of litter, underbrush and other fuels.
    I think in answer to some of your questions, Mr. Hayworth, 
we need to talk a little bit about the incident command system. 
Federal agencies, states and rural fire departments operate 
under the incident command system when fighting fires on 
Federal lands. The incident command system uses standard 
organizational structures, training and position qualifications 
in order for us to integrate fire fighting resources easily 
into an effective, rapid response team.
    The southwest was the first area of the country to adapt a 
multi-agency fire suppression organization back in 1983. The 
multi-agency Southwest Coordination Center in Albuquerque 
locates and dispatches equipment and people when one of the 11 
zone dispatch centers in the southwest needs assistance meeting 
the needs of local units in their zone. The Southwest 
Coordination Center reports to the multi-agency Southwest Fire 
Management Board, and the current chairman is Kurt Rowdabaugh 
with the Arizona State Land Department.
    Major fires like the Rodeo-Chediski fire come under the 
direction of multi-agency national incident command teams 
called Type I teams, of which there are 16 in the United 
States. Incident command teams are organized, trained and 
qualified, using the incident command system. Each team trains 
and works together throughout the fire season. The team has 
specific lines of delegated authority and formal reporting 
relationships at the local agencies and they are responsible 
for operations, planning, logistics and finance of the 
incident. The incident commander and staff, in concert with 
local units, work with administrative and resource advisers to 
determine fire fighting objectives and potential strategies and 
set immediate priorities.
    At an incident, local agencies first brief the national 
team about the local situation and continue to do so throughout 
the incident. Safety is always the incident command team's 
highest priority.
    I think it is interesting to understand that when 
responding to a fire, coordination operates at several levels. 
At the beginning of a fire, called initial attack, the local 
zone center, the White Mountain Zone in Springerville, for 
example, is responsible for coordination and dispatch of local 
resources and equipment. Once it is apparent the incident will 
not be contained at initial attack or if a unit is facing 
multiple ignitions with people or equipment shortages, then 
orders are placed with the Geographic Area Coordination Center 
in Albuquerque. If shortages continue at the regional level, 
the geographic coordination area places orders at the national 
level.
    The factors that determine the number of fire fighters 
dispatched to a fire include the severity and location of the 
fire and the current demand from the other fire locations. A 
wild fire in a wildland/urban area draws more fire fighting 
resources than a fire in a more remote area. Years of 
experience have shown us that it is unwise to tap all nearby 
resources to fight a fire. Given the fire danger in an area and 
fire behavior, fire fighters, engines and other equipment are 
needed at their home bases to deal with the possibility of new 
fire starts. Parts of the country without severe fire 
conditions can often more easily and safely provide additional 
firefighters and equipment.
    In my testimony, I can't over state safety. Fire fighting 
is a high risk, high consequence activity and firefighters and 
public safety are our highest priorities.
    When the Rodeo fire started on June 18, 2002, the southwest 
was in the midst of a severe drought. Weather, fuels and 
drought conditions all contribute to the number, size and 
behavior of wildfires. The overall fire behavior exhibited at 
the Rodeo-Chediski fire would be rated as extreme in most 
senses. Historically in the southwest, most fire events on the 
Mogollon Rim are driven by frontal passage winds in spring and 
early summer that tend to push the fires in a southwest to 
northeast direction. They are usually long and narrow. Fires 
tend to be long and narrow in this dimension because of the 
winds. Traditionally, the fires are contained with an 
anticipated drop in wind speed occurring near sunset or they 
are contained after pushing through the Ponderosa pine into 
other vegetation types such as Pinyon juniper. The Rodeo-
Chediski fire departed from this model and was a plume, fuel 
and topography driven fire. I think these gentlemen are going 
to talk more about that, so I will move on.
    Saving homes. You know, no forest can be made fireproof and 
as homes and communities are built in a wildland/urban 
interface, they face the additional risk of fire. Efforts to 
reduce hazardous fuels on Federal land must be coupled with 
efforts to assist private landowners to take preventive action 
in their own communities. During dry years or other adverse 
weather conditions like the southwest experienced this summer, 
wildland/urban interface areas that have high-risk fuels may 
experience fires that quickly exceed firefighters' capabilities 
with initial attack forces.
    Type I incident teams have members who are structural 
firefighting specialists. These structural specialists provide 
advice to the operations chief and incident commander on 
capabilities and needs in relation to structures threatened. 
Approximately 125 structural engines and water tenders were 
ordered for the Rodeo-Chediski fire. Numerous structures were 
saved by aggressive structural protection from the local fire 
departments and agency-owned engines.
    It is common practice to anchor the fire and then proceed 
along the flanks of the fire to pinch it off as conditions 
allow. On the Rodeo-Chediski fire, due to the immediate need to 
protect as many structures as possible, the head of the fire 
became the primary place for suppression. This called for a 
different style of tactics in fighting the fire. Lack of 
resources and time dictated that little triage was possible 
before the fire entered several communities. Clearing out a 
path and burning to remove fuels and provide a safe area was 
attempted, however the fire advanced too quickly for these 
efforts to work. Firefighters, dozers and structural engines 
were forced to leave housing areas due to extreme spotting and 
control problems. The best and safest route was to allow the 
flaming front to pass through the subdivisions, then get behind 
the front and save the structures which did not burn with the 
initial flames. Flame lengths were in excess of 150 feet and 
this tactic was the only one that could be done safely.
    Over 400 homes and structures were destroyed by the Rodeo-
Chediski fire after about 30,000 people were evacuated, but 
thousands of homes were saved. More importantly, there was no 
loss of human life.
    Now going to what we can do in the future, I think that has 
to do with the National Fire Plan and community assistance.
    As both of you know, the National Fire Plan was born out of 
the 2000 fire season. It emphasizes five key points:
    Preparedness--that is to strengthen and enhance Federal 
firefighting capability
    Restoration and rehab--the rehabilitation of fire damaged 
wildlands and restore high risk ecosystems
    Hazardous fuel reduction, which is to reduce the risk of 
catastrophic wildfire, mitigate hazards and restore fire 
adapted ecosystems with an emphasis on the wildland/urban 
interface
    Community assistance--work with communities to reduce the 
risks of catastrophic fire
    And the fifth was accountability--doing what we said we 
would do.
    I think what is important here is community assistance, 
because as a part of the community assistance item in the 
National Fire Plan, we have volunteer fire department funds 
that are funneled through the state and go to volunteer fire 
departments and rural fire departments for the training and 
qualifications and equipment needed by the rural fire 
departments to participate with their Federal firefighting 
forces on wildland fire.
    So I think the goal of the Federal agencies is in fact to 
coordinate better and communicate with the rural fire 
departments. That is one of the goals of the national fire 
plan, to not only do that, but provide funds to these rural 
fire departments so that they can get trained in the ICS system 
and meet the qualifications of everybody else, so that they can 
get the proper safety equipment particularly, so that they can 
participate with the Federal agencies and state agencies in 
wildland fire.
    So I think we are going in the right direction. It is going 
to take some time, it is not going to happen overnight. I think 
last year, we touched about 15,000 rural fire departments 
nationwide. I know there were some within the Rim fire group 
that received funds last year and there are funds available 
again this year. So I encourage all rural fire departments to 
join hands with their neighbors and the Federal agencies and 
take advantage of the opportunity.
    In summary, as predicted, 2002 has been a severe and 
prolonged fire season. We have in place a long used and tested 
national model in the incident command system. When responding 
to a fire, coordination operates on several levels from the 
local to the national. Firefighting is a high risk, high 
consequence activity and firefighter and public safety are our 
highest priority. The extreme fire behavior of the Rodeo-
Chediski fire made conditions exceedingly dangerous and 
difficult to fight. While we were not able to save every home, 
thousands of homes were saved and more importantly, there was 
no loss of human life.
    Finally, the National Fire Plan has given us the resources 
to increase our firefighting capabilities, reduce hazardous 
fuels and provide community assistance, and we appreciate the 
support of Congress for that.
    This concludes my statement, Mr. Chairman, and I would be 
happy to answer any questions.
    Mr. Hayworth. And we thank you for your testimony. There 
will be questions that will follow the testimony of Wayne 
Nordwall.
    [The prepared statement of Mr. Leaverton follows:]

    Statement of Bob Leaverton, Southwest Region National Fire Plan 
                    Coordinator, USDA Forest Service

    Thank you for the opportunity to talk with you today about 
interagency cooperation in wildland fire fighting. I am Bob Leaverton, 
National Fire Plan Coordinator for the Southwestern Region of the USDA 
Forest Service headquartered in Albuquerque, New Mexico.
    In my testimony today, I will give an overview of the 2002 wildland 
fire season, and key aspects of our cooperative wildland firefighting 
operations, especially safety. I want to emphasize that safety is 
reflected in our operational guidelines because of the many years of 
experience and evaluation of those experiences by the federal land 
management agencies and our state, local, and Tribal partners.
2002 Fire Season
    As the Subcommittee and everyone here is well aware, the Southwest 
began the 2002 fire season in its fourth year of drought with no 
moisture relief in sight. Records from the National Climatic Data 
Center in Asheville, North Carolina show that May 2002 was the second 
driest May on record in Arizona and New Mexico in 108 years of record 
keeping.
    Early in 2002, the Southwest Coordination Center meteorologist and 
fire behavior analyst prepared an assessment of the potential fire 
situation for the Nation and the Southwest in particular. The 
cumulative effects of the drought and the long term buildup of 
hazardous fuels made for a dire fire season prediction and resulted in 
pre-positioning firefighting resources and the acquisition of a 
regional prevention team to get fire prevention messages and community 
action plans in place.
    As predicted, it has been a severe and prolonged fire season 
throughout much of the Nation. As of September 16, 2002, nearly 6.5 
million acres have burned nationwide, 21 lives have been tragically 
lost in the overall effort, and over 2,900 homes and structures have 
been lost. Thanks to the National Fire Plan, over 17,000 fire employees 
were in place in the federal agencies to prevent and suppress wildland 
fires, which kept these statistics from being worse.
    Even though we have successfully put out over 99 percent of all 
fires during initial attack, over 920,000 acres have burned in the 
Southwest. This is well above the 10-year average of 390,000 acres and 
is reflective of the drought, weather and the buildup of litter, 
underbrush, and other fuels.
    After visiting several of the catastrophic wildfires that have 
occurred this fire season, President Bush announced his Healthy Forest 
Initiative in August. This initiative is meant to respond to the 
hazardous fuels buildups in our nation's forests and grasslands. The 
President stated that the need for a plan to restore our forests and 
rangelands has never been greater. When coupled with seasonal drought, 
unhealthy forests, overloaded with fuels are vulnerable to unnaturally 
severe wildfires. The Administration's legislative proposal, which was 
submitted recently to Congress, aims to reduce hazardous fuels as well 
as catastrophic wildfire threats to communities and the environment. 
The proposal would allow for the timely treatment of forests at the 
greatest risk and would give first priority to wildland urban interface 
areas, municipal watersheds, areas affected by disease, insect 
activity, wind throw, and areas susceptible to catastrophic reburn.
The Incident Command System
    I would now like to turn to the Incident Command System. Federal 
agencies, states and rural fire departments operate under the Incident 
Command System (ICS) when fighting fires on federal lands. The ICS uses 
standard organizational structures, training, and position 
qualifications in order to for us to integrate firefighting resources 
easily into an effective, rapid response team.
    The National Interagency Fire Center (NIFC) in Boise, Idaho serves 
as the national coordination, dispatch, and communications center for 
all wildland fire agencies. Co-located at NIFC are: Forest Service, 
Bureau of Land Management, Fish and Wildlife Service, National Park 
Service, Bureau of Indian Affairs, the National Weather Service, Office 
of Aircraft Services and the National Association of State Foresters. 
Federal and state agencies work with Tribal and local agencies and 
share firefighting supplies, equipment, and personnel to facilitate 
efficient and cost-effective firefighting. Partnerships with state, 
local, and rural agencies enhance these efforts.
    The Southwest was the first area of the country to adopt a multi-
agency fire suppression organization back in 1983. The multi-agency 
Southwest Coordination Center in Albuquerque locates and dispatches 
equipment and people when one of the 11 zone dispatch centers in the 
Southwest needs assistance meeting the needs of local units in their 
zone. The Southwest West Coordination Center reports to the multi-
agency Southwest Fire Management Board and the current Chairman is Kurt 
Rowdabaugh with the Arizona State Land Department.
    Major fires come under the direction of multi-agency national 
incident command teams, called Type I teams, of which there are 16 in 
the United States. Incident command teams are organized, trained, and 
qualified using the ICS system. Each team trains and works together 
throughout the fire season. The team has specific lines of delegated 
authority and formal reporting relationships with the local agency and 
they are responsible for operations, planning, logistics, and finance. 
The incident commander and staff, in concert with local units, work 
with administrative and resource advisors to determine firefighting 
objectives and potential strategies, and set immediate priorities. At 
an incident, local agencies first brief the national team about the 
local situation and continue to do so throughout the incident. Safety 
is always the incident command team's highest priority.
    Immediately after a fire has been declared out, there is a review 
of the fire fighting efforts. For major fires, there are additional 
reviews for safety (a review that is ongoing during the fire), cost, 
equipment use, strategies, and agreements with local firefighting 
agencies. These reviews allow us to evaluate the efforts and make 
adjustments for the future.
Responding To A Fire
    When responding to a fire, coordination operates on several levels. 
At the very beginning of a fire (called initial attack), the local zone 
center (White Mountain Zone for example) is responsible for 
coordination and dispatch of local resources and equipment. Once it is 
apparent the incident will not be contained at initial attack or if a 
unit is facing multiple ignitions with people or equipment shortages, 
then orders are placed with the geographic area coordination center 
(Southwest Coordination Center, for example). If shortages continue, 
the Geographic Coordination Area places orders at NIFC. The 
coordination center at NIFC will then go to adjoining Geographic 
Coordination Areas to acquire the assets that are needed.
    In major fire suppression response efforts, NIFC establishes 
priorities for the Nation when multiple geographic areas are involved. 
In the Southwest, when there are several major incidents occurring at 
the same time with competing demand for resources, the Geographic Area 
Multi-agency Coordination Group in Albuquerque establishes priorities 
for the Southwest based on the potential to harm people and 
communities. When it is reasonable to expect a fire can be contained 
within first operational period, dispatch centers at the local level 
may coordinate directly if the resources are used for initial attack on 
adjacent jurisdictions.
    The factors that determine the number of firefighters dispatched to 
a fire include the severity and location of the fire and the current 
demand from other fire locations. A wildfire in a wildland-urban area 
draws more firefighting resources than a fire in a more remote area.
    Years of experience have shown us that it is unwise to tap ALL 
nearby resources to fight a fire. Given the fire danger in an area and 
fire behavior, firefighters, engines and other equipment are needed at 
their home bases to deal with the possibility of new fire starts. Parts 
of the country without severe fire conditions can often more easily and 
safely provide additional firefighters and equipment.
Safety
    Firefighting is a high risk, high consequence activity, and 
firefighter and public safety are our highest priority. The Forest 
Service and Interior agencies have strong firefighter safety and 
training programs. Following the 30 Mile tragedy in July, 2001, where 
four firefighters lost their lives, we reexamined our safety programs 
and identified areas that needed improvement. The areas identified 
include managing firefighter fatigue, reinforcing the use of the 10 
Standard Fire Orders, the 18 Watch Out Situations, and reinforcing 
training to avoid entrapment by fire. All of these improvements are in 
place this year and have been important during this year of severe fire 
activity.
    In the initial stages of a large fire, we are often approached by 
volunteers who want to help but are not familiar with the Incident 
Command System or do not have adequate training or equipment to fight 
wildland fires. Without the proper training, equipment, and 
understanding, volunteers can put themselves and others into 
unnecessary danger.
    When there is extreme fire behavior such as occurred on the Rodeo-
Chedeski Fire, then even the most experienced firefighters are kept out 
of harm's way until it is safe for them to attack the fire.
Rodeo-Chedeski Fire
    When the Rodeo fire started on June 18, 2002, the Southwest was in 
the midst of a severe drought with several large fires burning and no 
weather relief in sight. By June 20, 2002, the Rodeo fire had grown to 
85,000 acres and was about 10 miles south of Show Low Arizona, and had 
a 6-mile flame front.
    Weather, fuels, and drought conditions all contribute to the 
number, size, and behavior of wildfires. The overall fire behavior 
exhibited at the Rodeo-Chediski fire would be rated as extreme in most 
senses. Historically, large fire events on the Mogollon Rim are driven 
by frontal passage winds in spring and early summer that tend to push 
the fires in a southwest to northeast direction. Fires tend to be long 
and narrow in dimension. Traditionally the fires are contained with an 
anticipated drop in wind speed occurring near sunset, or they are 
contained after pushing through the Ponderosa Pine into the Pinyon 
Juniper. The Rodeo-Chediski Fire departed from this model and was a 
plume, fuel, and topographically driven fire.
    The initial fire spread was influenced by the prevailing southwest 
winds and the southerly aspects of the Mogollon Rim. During the days of 
extreme fire growth, the fire was driven by the wind, fuels, and the 
terrain. The availability of fuel due to low live fuel moistures became 
an influence and assisted in the creation of towering plumes--building 
columns of smoke that act as a chimney. A rapid increase in fire 
movement occurred on all flanks once the plume collapsed, spreading 
superheated winds, and brands at ground level. Ignitions caused by 
spotting were numerous and quickly gained size. Spotting occurred up to 
1 mile ahead of the flaming front on all sides of the falling columns 
of air. Towering smoke plume development was evident up to 5 times per 
day on various parts of the fire throughout the duration of the active 
fire advance. In addition, independent crown fire was occurring when 
plumes collapsed. These events are extremely rare in the Southwest and 
represent extremely dangerous conditions.
Saving Homes
    No forest can be made fire proof. As homes and communities are 
built in the wildland-urban interface, they face the additional risk of 
fire. Efforts to reduce hazardous fuels on federal land must be coupled 
with efforts to assist private landowners to take preventive action in 
their own communities. During dry years or under adverse weather 
conditions like the Southwest has experienced during 2002, wildland-
urban interface areas that have high-risk fuels may experience fires 
that quickly exceed firefighters'' capabilities with initial attack 
forces.
    Over the last decade, several tragedies occurred as firefighters 
tried to control wildland fires threatening human developments. For 
example, in 1991, six firefighters lost their lives on the Dude fire 
near Payson, Arizona while attempting to protect a rural subdivision.
    Type I incident command teams have members who are structural 
firefighting specialists. These structural specialists provide advice 
to the Operations Chiefs and Incident Commander on capabilities and 
needs in relation to structures threatened. Approximately 125 
structural engines and water tenders were ordered for the Rodeo-
Chediski fire. Numerous structures were saved by aggressive structural 
protection from the local fire departments and agency-owned engines.
    It is common practice to anchor the fire and then proceed along the 
flanks of the fire to pinch it off as conditions allow. On the Rodeo-
Chediski Fire, due to the immediate need to protect as many structures 
as possible, the head of the fire became the primary place for 
suppression. This called for a different style of tactics in fighting 
the fire. Lack of resources and time dictated that little triage was 
possible before the fire entered several communities. Clearing out a 
path and burning to remove fuels and provide a safe area was attempted, 
however the fire advanced too quickly for these efforts to work. 
Firefighters, dozers, and structural engines were forced to leave 
housing areas due to extreme spotting and control problems. The best 
and safest route was to allow the flaming front to pass through the 
subdivisions, then get behind the front and save the structures which 
did not burn with the initial flames. Flame lengths were in excess of 
150 feet and this tactic was the only one that could be done safely.
    Over 400 homes and structures were destroyed by the Rodeo-Chediski 
fire after about 30,000 people were evacuated, but thousands more homes 
were saved. Most importantly, there was no loss of human life.
    In many areas, heavy equipment such as bulldozers and excavators 
are effective firefighting tools (generally in areas of less than 35 
percent slopes in Arizona and New Mexico). Fire fighting plans usually 
specify what types and where the equipment can or cannot be used 
because of significant environmental or other concerns.
Use of The Military
    We are often asked about using the military to fight fire. Under 
the 1975 Agreement with the Department of the Defense and the Economy 
Act of 1932 (as amended), civilian firefighting agencies may not call 
upon the military for help until all civilian resources are in use, 
including contractors. The military can provide a variety of assets to 
the firefighting endeavor. These include heavy and medium lift 
helicopters as well as eight C-130 E and H models modular airborne 
firefighting systems (MAFFS) that are used for dropping fire retardant. 
Battalions are broken into 25, 20-person crews led by crew bosses and 
strike team leaders from agencies that provide fire skills and 
experience. With one week of classroom and on-the-job fire specific 
training, these crews are operational in 8 to 10 days. The National 
Multi-agency Coordination Group at NIFC makes the decision to activate 
the military when all other resources are committed.
National Fire Plan and Community Assistance
    The National Fire Plan was born out of the 2000 fire season. The 
plan emphasizes five key points:
    <bullet> Preparedness--strengthen and enhance federal firefighting 
capability
    <bullet> Restoration and Rehabilitation--rehabilitate fire damaged 
wildlands and restore high risk ecosystems
    <bullet> Hazardous Fuels Reduction--reduce the risk of 
catastrophic wildfire, mitigate hazards, and restore fire adapted 
ecosystems with an emphasis on the wildland-urban interface
    <bullet> Community Assistance--work with communities to reduce the 
risks of catastrophic fire
    <bullet> Accountability--ensure efforts achieve the desired goals 
of the National Fire Plan
    I would like to emphasize the community assistance part of the 
National Fire Plan. It helped prepare local volunteer fire departments 
in this area for this fire season and it will continue to help us 
improve our cooperation. Each year, assistance monies are made 
available through the state forester to volunteer fire departments. 
These grants assist in paying for training in the incident command 
system and for equipment needed for cooperative wildland firefighting 
in a safe and effective manner. The Forest Service and the Department 
of the Interior trained thousands of local and volunteer firefighters 
in wildland firefighting technology in fiscal year 01 and those efforts 
have continued. In addition, the Forest Service and the Department of 
the Interior agencies work with the National Association of State 
Foresters and the National Fire Protection Association in programs such 
as FIREWISE, a cooperative community program that helps homeowners 
protect their homes from wildfire. The National Fire Plan and community 
assistance are essential parts of improving our skills and 
preparedness.
Summary
    As predicted, 2002 has been a severe and prolonged fire season. We 
have in place a long used and tested national model in the Incident 
Command System. When responding to a fire, coordination operates on 
several levels from the local to the national. Firefighting is a high 
risk, high consequence activity and firefighter and public safety are 
our highest priority. The extreme fire behavior of the Rodeo-Chedeski 
fire made conditions exceedingly dangerous and difficult to fight. 
While we were not able to save every home, thousands of homes were 
saved and more importantly, there was no loss of human life. The 
National Fire Plan has given us the resources to increase our 
firefighting capabilities, reduce hazardous fuels, and provide 
community assistance and we appreciate the support of Congress for the 
National Fire Plan.
    This concludes my statement, Mr. Chairman. I would be happy to 
answer questions.
                                 ______
                                 
    Mr. Hayworth. Wayne, welcome, and we know that you at BIA 
also have a PowerPoint presentation for us. You may begin.

 STATEMENT OF WAYNE NORDWALL, DIRECTOR, WESTERN REGION, BUREAU 
         OF INDIAN AFFAIRS, U.S. DEPARTMENT OF INTERIOR

    Mr. Nordwall. Thank you, Congressman Hayworth, Congressman 
Flake. I thank you the Committee for inviting the Bureau to 
attend this meeting. My name is Wayne Nordwall and I am the 
Bureau of Indian Affairs Western Regional Director. This is 
John Philbin, he is our Regional Forester. The BIA Western 
Region takes care of approximately 42 tribes, located primarily 
in Arizona, Nevada and Utah. We have approximately 13 million 
acres that we manage on behalf of the tribes. That is roughly 
25 percent of all the Indian land in the country. If you add 
Navajo, which is under a different region, Arizona probably has 
almost 50 percent of all the Indian land in the country in this 
one state.
    So the BIA is a very active partner in the National Fire 
Plan. We are very proud of the fact that we work with the 
Forest Service, state and local agencies and citizenry groups. 
We think it is very interesting to note that over 20 percent of 
the Federal firefighters are either BIA employees or tribal 
employees.
    Now I noticed in this morning's newspaper, it said fire 
experts to testify at Show Low. I am decidedly not such an 
expert. I will turn this over in a couple of minutes to John, 
Bob, Dr. Covington and others who are truly experts. The reason 
I am here is because the Department of the Interior wanted to 
take the opportunity to emphasize how critical it is that we do 
collectively a better job of managing our forest resources. I 
will, therefore, just turn in my statement to the Committee and 
then try to summarize and take as little time as possible.
    As we are all familiar now, the Rodeo fire was first 
reported to the Bureau of Indian Affairs at approximately 4:11 
p.m. on June 18, and as we know in retrospect, there was an 
earlier arson fire earlier in that day, the Pinyon fire. The 
Bureau had employees out there dealing with that fire and they 
were actually on their way back to White River when the second 
fire was reported. So within a matter of 12 minutes, the first 
air tanker was putting retardant on the fire, within a matter 
of an hour, there were over 60 people onsite. We had helicopter 
crews, four fire engines, two of what are known as SEATs, 
single engine air tankers.
    Part of the problem that we had at the time was that 
because various people were calling into the agency and calling 
into the Forest Service reporting seeing smoke, it appeared 
that there were multiple fires, and it turns out in retrospect 
there was only one and there were a lot of false alarms, but 
that did initially take away the resources that were necessary 
to address the Rodeo fire at an early stage.
    The fire, as noted by Bob, did not react in a normal 
fashion. It moved very rapidly. Within a matter of minutes, the 
flames were in excess of 70 feet in height. Within a matter of 
an hour, the Bureau began calling the White Mountain zone 
inter-agency office at Springerville in order to get additional 
resources on the fire.
    Normally, since it was late in the afternoon when this fire 
started, it would have been expected that when the sun went 
down, the fire would have slowed. It did not. It increased in 
speed and by 7:30 that night, the fire had exceeded 700 acres 
and there were more than 200 personnel onsite with an 
additional 200 en route. By midnight, there were over 300 
people onsite and the fire continued to grow and grow at an 
uncontrolled pace.
    Finally, about 10 the next morning, on June 19, the fire 
made an unexpected, again--you normally expect fire to go up 
hill, it went down hill--went down hill from Cibecue ridge, it 
jumped Carrizo Creek, and at that point, the fire was 
essentially out of control.
    By 5:30 that afternoon, the fire crossed the Rim Road and 
started onto the Apache Sitgreaves National Forest, and at that 
point, the fire was over six miles wide. During this period 
between 10 in the morning and 5:30, there was a 15 minute span 
when over 10,000 acres burned. That is a square mile per 
minute. At that point, the fire was moving so rapidly, nobody 
could have gotten in front of it and did anything effectively 
by a frontal assault. During a protracted 9 hour period, the 
fire consumed over 100 acres per minute. Again, these are 
unprecedented activities on a fire that occurs here in the 
southwest.
    The next morning at approximately 8:35, the Tonto National 
Forest received a call that there was a fire burning and the 
location was not precise, the reports we have is that initially 
they believed it to be near a fish hatchery in Canyon Creek. 
They responded by dispatching several fire engines even though 
they did not know the precise location. Finally about 8:35, the 
Tonto Lookout Station at Colcord reported smoke and 2 minutes 
later, at 8:37, the Bureau Lookout Station at Chediski reported 
smoke. At that point, we had a better indication of where the 
fire was physically located. The Forest Service fire engines 
had to go back, backtrack a few miles, because the road they 
were on did not go to the site and they had to approach from a 
different area.
    The Bureau, within an hour, had air tankers onsite, 
helicopters, fire engines and crews, but again, because of the 
wind conditions, it was very difficult to respond. And we also 
had the other fire going at Rodeo. So it was a matter of trying 
to get resources to address the Chediski fire as well as 
continuing trying to address the fire over on the Rodeo side. 
In fact, while we had several of these SEATs attack the fire at 
Chediski, the first drop with the large air tanker did not 
occur until approximately noon. At any rate, by 2 in the 
afternoon, the Chediski fire was again essentially out of 
control and as we all know, on June 23rd, it merged and 
resulted in the largest fire in southwest history with 468,000 
acres having been burned, 730 square miles.
    Of that 730 square miles or 468,000 acres, 276,000 were on 
the White Mountain Apache reservation. It destroyed 
approximately 60 percent of that 276,000 acres and since then, 
our primary objective has been to work with the tribe in order 
to salvage that timber. We are running as much timber as we can 
into the tribe's timber mills. They have one at Cibecue and one 
at White River, it is called the Fort Apache Timber Company, 
FATCO. But unfortunately those two mills do not have enough 
capacity to process all the salvage timber just on the Indian 
land. I am not sure what the Forest Service is doing with their 
timber that they are going to salvage.
    So we have had to go out on the open market in order to try 
to solicit additional mills to process the salvage, and again, 
because the timber industry in Arizona is in decline right now, 
the bids that we have been getting are from out of state and 
this is causing an additional impact on the tribe, because in 
addition to the loss that they incurred from the damaged 
timber, they are now going to have to pay transportation cost 
to these out-of-state mills.
    In addition to the salvage operation, the Bureau is 
actively working with the tribe in order to begin 
rehabilitation of the site. Thus far, we have dropped over five 
million pounds of grass seed and we have got over 200,000 
seedlings growing in greenhouses right now on the reservation, 
and by the fall of 2003, there will be over a million seedling 
trees to be replanted.
    Despite this rehabilitation effort, the impacts on the 
White Mountain Apache Tribe continue to be profound. They have 
lost a significant portion of their commercial timber, the 
ground cover has been destroyed and has not succeeded in some 
places in being re-established. The natural ecology has been 
permanently altered or altered for several years into the 
future. Habitat for wildlife has been lost and there has been a 
significant loss of cultural resources. I guess as a non-member 
of the tribe, I really cannot speak about those, only tribal 
members can really tell you how significant an impact the loss 
of these cultural resources has had on the tribe.
    One of the things that the Bureau believes is absolutely 
essential is that we maintain a regimen of fuel reduction, 
controlled burns and other things to control the fuel's 
accumulation in the forest. And we note in that respect that 
not all of the timber in the fire area was in fact destroyed. 
There are several green islands out there and when we look at 
those things, a lot of those were attributable to earlier 
efforts that the Bureau and the tribe had made in fuel 
reduction. Where some of these sites were located, the fire ran 
up to the boundary, it did destroy some of the trees on the 
edge, but the trees in the center of these areas that had been 
treated, survived and are still commercially viable trees.
    The BIA has been engaged in prescribed burning on the Fort 
Apache Reservation for over 50 years. At various times, as in 
the private sector and every place else, people become 
concerned--I think this entire notion that fire in the forest 
is bad has caused some reluctance occasionally to engage in 
prescribed burns, but the Bureau has nevertheless tried to work 
with the tribe to do this. There was a large fire in 1971, the 
Carrizo fire, that burned 60,000 acres. As a result of that 
fire, the Bureau began planning on burning approximately 
100,000 acres a year, but in the middle 1970's, we began having 
other issues. For example, the EPA began imposing stricter 
requirements on particulates in the Phoenix area, and whenever 
we burn up here, sometimes, depending on which way the wind is 
blowing, those particulates wind up in Phoenix. So we have had 
to work very closely with state and local governments on these 
burn plans, when the burning would take place. And in all 
candor, because of the very high particulate standards of EPA, 
there has been some occasions we have had to cancel altogether 
certain burns. So that is one of the things, I think again, we 
need to address, is the conflicting interests between clean air 
and safe forests. Those are things that ultimately need to be 
worked out.
    Again, the Department wants to emphasize that the only way 
that this is going to work is that we have strong relationships 
between the private sector, the Federal agencies, the state and 
local governments, local citizenries and other citizens with 
concern for the health and welfare of our forests. But 
something does need to be done, we have simply got to take 
steps now in order to prevent additional disasters like this 
one from recurring.
    And I think one thing that was very stunning yesterday, I 
had been up here quite frequently during the fire, but I had 
not actually driven. We came up yesterday and on the road 
between Payson and Christopher Creek, you can look out and you 
can see stands of brown timber that is dead, not because of the 
fire, it is dead because of the drought. You can look right 
next to this school and there is a whole row of trees right 
down the side that are brown, that are dead because of the 
drought. If we do not get significant rainfall this winter and 
we do not begin a fuel reduction program, next summer could be 
far worse than the one we had this summer.
    So at this point, I will turn it over to John. Like I said, 
he is the real expert. He has a presentation and will be glad 
to answer any questions the Committee may have.
    [The prepared statement of Mr. Nordwall follows:]

Statement of Wayne Nordwall, Director, Western Region, Bureau of Indian 
                Affairs, U.S. Department of the Interior

Introduction
    Good morning, Mr. Chairman and Members of the Subcommittee. My name 
is Wayne Nordwall and I am the Director for the Bureau of Indian 
Affairs (BIA) Western Regional Office which includes the federally 
recognized tribes of the states of Nevada, Utah and Arizona. I am 
accompanied by John Philbin, the BIA's Western Regional Forester. My 
testimony today will discuss the Bureau of Indian Affair's (BIA) 
response to the Rodeo-Chediski Fire, the effects the fire had on the 
Fort Apache Indian Reservation, and land management practices regarding 
fire treatment.
Background
    The BIA is a major partner in wildland firefighting. We partner 
with federal and State agencies through National, State, and local 
agreements. More than 20 percent of all federal wildland firefighters 
are BIA or tribal employees hired under contracts or cooperative 
agreements. The fact that so many people can be available on short 
notice for extended periods of time for this difficult and dangerous 
work speaks for itself.
    Our preparedness funding is based on a planning process that 
recognizes the high fire occurrence is due to the flammable fuel types 
that exist here in the Southwest. Most of the funding is directed at 
initial attack resources such as, engines, helicopters and the staffing 
that goes along with that. Funding is available for national resources 
(hotshot crews), interagency cooperation (staffing at local, regional 
and national coordination centers) and emergency crews.
    Local managers make decisions on a daily basis about which of their 
firefighting resources are available to help on fires outside of their 
immediate area. In almost all cases, firefighting resources are 
available to assist immediate neighbors on initial attack, with the 
provision that they be returned at the end of the shift.
    In addition to the resources provided through the planning process, 
severity funding may be requested when it becomes apparent that the 
conditions contributing to fire danger will be substantially above 
normal. That was obviously the case this year and we requested an 
additional $1,500,000 for the Western region. This resulted in the 
availability of additional helicopters and single engine air tankers 
(SEATS) at the San Carlos and Fort Apache Agencies.
Responses to the Rodeo-Chediski Fire
    The Rodeo Fire was first reported to the BIA Fort Apache Agency in 
Whiteriver, Arizona at 1611 hours on June 18, 2002. Since we still had 
resources on an earlier fire (Pina) nearby and two SEATS were on duty 
at the Cibecue airport, the response was rapid. The first SEAT drop was 
within twelve minutes and shortly followed by three engines and two 
crews. Within one hour of the first report we had two crews (40 
personnel), two helitack crews (6 personnel), four engines (8 
personnel), two SEATS and three dozers working the fire with additional 
crews, overhead, and air tankers on order. At the same time we were 
responding to five false alarms. Because of the nature of the smoke 
column, people were reporting the Rodeo fire at different locations. 
This required initial attack responses until the reports could be 
checked out.
    By the end of the first hour the fire was estimated to be over 100 
acres and growing. The fire intensity, from early on, exceeded the 
capabilities of the control resources. Seventy foot flame lengths 
fueled by overabundant fuels rendered retardants ineffective. Rates of 
spread were such that retardant lines could not be connected. It should 
be noted that within the first hour, orders for fire resources were 
being placed with the White Mountain Zone (WMZ) interagency office in 
Springerville, AZ.
    After the sun went down the normal reduction in fire behavior did 
not occur. The fire continued to burn through the night and into some 
very difficult terrain. By 1930 hours the fire exceeded 700 acres and 
had more than 200 people working on it with 200 more on order. At 2236 
hours the Eastern Arizona Fire Management team was ordered. This team 
consisted of thirty people from federal and state agencies in Eastern 
Arizona. Many of the team members are BIA employees and were already 
assigned to the fire. Before midnight there were 300 people on the 
fire. Crews did not pursue the fire downhill in the dark for two 
reasons: (1) building line downhill is as dangerous as attacking a 
running fire head-on, and (2) the steep slopes were interspersed with 
forty foot cliffs. The first opportunity to actually stop the head of 
the fire appeared to be Carrizo Creek, which is a broad gravelly 
drainage area with numerous interruptions in the vegetation. This was 
not to be.
    At roughly 1000 hours on June 19, 2002, the fire made a crowning 
downhill run from Cibecue ridge and crossed Carrizo Creek with a wall 
of flame. At about 1015 hours an evacuation was recommended for the 
communities located in the path of this fire. By 1108 hours all 
personnel were ordered off the fire due to the extreme fire behavior 
and a ``Type I'' Incident Management team was ordered, which consisted 
of a team of seventy-two people from various agencies in Arizona and 
New Mexico, including BIA employees from the Fort Apache Agency.
    By 1730 hours the fire crossed the Rim Road into the Apache 
Sitgreaves National Forest along a six mile front. It is estimated that 
the fire consumed more than 10,000 acres in a fifteen minute period at 
about this time, or about one square mile a minute. During a nine hour 
period on June 19th, the fire averaged 100 acres per minute, an 
unprecedented incident in the Southwest.
    Meanwhile, on the morning of June 20, at 0837 hours, the Chediski 
fire was reported to the BIA at the Whiteriver fire dispatch office on 
June 20 at 0837 hours. The Tonto National Forest had received a report 
earlier in the morning that there was a fire in the vicinity of the 
fish hatchery in Canyon Creek They responded with engines to the 
incident before an exact location was determined. While our lookout at 
Chediski was aware of action that the Tonto National Forest crew was 
taking, the Chediski lookout was unable to see any smoke at the time. 
The Tonto lookout at Colcord finally reported smoke at about 0835 and 
our BIA lookout at Chediski reported the smoke 6 minutes later. This is 
when jurisdiction of the fire was determined. There was a short period 
of time when those engines were turned around because the fire was 
inaccessible by road, but they were asked to continue to get as close 
as possible to the incident, which they did.
    Once again, the BIA responded within the hour with air tankers, 
helicopters, engines, and crews, but was still unsuccessful, as the 
fire weather conditions worsened from the previous day. Before 1000 
hours the wind was reported to be at twenty-five miles per hour and 
growing. The first heavy air tankers did not arrive until around noon. 
The SEATs had to switch to Whiteriver from Cibecue because of the 
difficult winds. This made for a longer turn-around time. The fire 
already exceeded one hundred twenty acres. By 1400 hours, the 
possibility of needing to evacuate the town of Heber was reported. 
Within two hours the fire spread rapidly to more than 2,000 acres, the 
Chediski look-out was evacuated, the Eastern Arizona fire team was 
ordered, and a recommendation to evacuate Heber and the Canyon Creek 
fish hatchery was relayed to the White Mountain interagency office.
    By June 23, the Rodeo fire joined the Chediski fire to create the 
largest fire in the history of the Southwest--ultimately burning over 
468,000 acres, or 730 square miles.
PowerPoint Presentation
    We would like to take this opportunity to provide a PowerPoint 
presentation which shows the fire during the first few days and 
provides visual information of the difference between treated and 
untreated areas. The presentation runs about twenty minutes.
Fire Effects on the Fort Apache Indian Reservation
    Of the 468,000 acres burned during the Rodeo-Chediski fire, 276,000 
acres were on tribal-trust land. We estimate that more than 60 percent 
of the standing timber was destroyed by the fire. To date, we have made 
two modifications to an existing timber salvage contract that would 
allow the Tribe's own enterprise, Fort Apache Timber Company (FATCO) to 
log the burnt timber for both the Cibecue and Whiteriver sawmills. But 
the White Mountain Apache Tribe has requested that we prepare some 
salvage timber sales for the open market because FATCO does not have 
the capacity to handle all the sawmill work that needs to be done. 
Unfortunately, the interest in open market sales has all come from 
outside of Arizona, since local sawmill capacity has diminished in 
recent years. Selling to sawmills out of state will cause increased 
transportation costs for the salvage timber that will have a negative 
impact on the price the Tribe receives. Furthermore, there is no 
guarantee that the timber will sell or how much it will sell for, but 
we know that time is against us as the dead trees have already begun to 
deteriorate.
    Intensive and extensive rehabilitation work has also begun, with 
over five million pounds of grass seed applied to reduce the soil 
losses. Almost 200,000 seedlings are growing and we expect to have 
nearly one million containerized seedlings ready for planting next 
fall.
    While rehabilitation is moving forward, the impacts of the 
destroyed forests on the White Mountain Apache people will be profound. 
A large amount of their commercially producible timber has been 
destroyed and vast areas have been left with no living ground cover to 
protect the soil from devastating erosion. The natural ecology has been 
nearly extinguished and with it all of the wildlife habitat that used 
to dominate the area. In addition, there have been significant cultural 
losses to the White Mountain Apache people that I will not attempt to 
describe here today. Besides specific locations with special meaning, 
the land itself is sacred to the people and they are the only ones who 
could begin to express that loss. I raise these issues with the 
Committee to point out the long-term harm to the ecosystem, the 
wildlife and the people that will arise from this catastrophic fire. A 
fire management regime that includes a strong hazardous fuels reduction 
component could really improve our ability to protect remaining forests 
in the area from a similar fate.
Land management practices and fire effects
    It is important to note that not all of the fire area suffered 
severe damage. There are several reasons for this, including most 
notably, the thinning of forests and prescribed burning. Three large 
units within the fire area were either commercially harvested and 
burned, or precommercially thinned and burned, all within the last five 
years. During the fire run, these units were in the direct path of 
high-intensity crown fires. However, major tree mortality occurred only 
on the perimeter of these units. The fire proceeded to drop out of the 
crowns and continue through these areas as a low to moderate intensity 
surface fire. Without the thinning and burning treatments, these areas 
would have sustained a very high mortality rate and could have incurred 
the same severe ecological damage that destroyed the natural 
environment in many other parts of the burned area.
    Currently, we thin smaller diameter trees under three different 
programs: (1) fire crews may thin limited areas to create fuel breaks 
for the fire suppression, (2) forest development crews conduct 
precommercial thinning, and (3) BIA treats certain areas for mistletoe 
control under a U.S. Department of Agriculture program. Lately we have 
begun implementing the Hazardous Fuels Reduction (HFR) program, 
including the Wildland Urban Interface (WUI) program, which are part of 
the National Fire Plan that began in 2001. These will supplement and 
improve the strategic direction of our small diameter thinning 
programs.
    Once many areas are thinned, it becomes safe to begin a prescribed 
fire regimen. The BIA has been performing prescribed burning for over 
50 years on the Fort Apache Reservation. Harold Weaver, the Area 
Forester, introduced prescribed burning to the Forest Manager, Harry 
Kallender, in the late 1940's. During the 1950's Mr. Kallender 
instituted an extensive prescribed burning program on Fort Apache. This 
program continued under the next Forest Manager, Bud Mast. In 1971, a 
lightning storm ignited 80 separate fires which joined to become the 
Carrizo fire. This 60,000 acre fire had been the largest timber fire in 
Arizona and it prompted an aggressive program to treat 111,000 acres 
with prescribed burning in 1975 alone. That year, however, the amount 
of smoke, coupled with inversions, had impacts as far as the city of 
Phoenix and since that date we have modified and improved our practices 
to better account for weather conditions, moisture levels, air quality 
concerns, and to take account of specific tribal government concerns. 
In the areas where we have conducted prescribed burning and thinning 
(including logging) in a regular and managed regime, we have been very 
successful in controlling the intensity of fires and have generally 
improved the health of the forest stands on public and on tribal-trust 
lands.
    One important point that I want to emphasize is our strong belief 
that solutions to the problem of overabundant forest and rangeland 
fuels must include the private sector and local governments, including 
tribal governments. It is critical that they are fully involved in any 
opportunities to engage in forest health management and to receive the 
benefits of economic development.
Conclusion
    Thank you for the opportunity to appear before you today. I will be 
happy to answer any questions you may have.
                                 ______
                                 
    [An attachment to Mr. Nordwall's statement follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
 STATEMENT OF JOHN PHILBIN, REGIONAL FORESTER, WESTERN REGION, 
                    BUREAU OF INDIAN AFFAIRS

    Mr. Philbin. Thank you, Mr. Chairman and Committee members 
for inviting me. My name is John Philbin, I am the Regional 
Forester for the Western Region of the BIA. Could we have the 
lights turned down just a little bit for the screen in the 
back?
    This is just a recap on the amount of resources we had on 
that fire. The Rodeo fire, when it first started, it was 
actually right next to town, the Cibecue Airport is about three 
miles away from the location and we sent quite a few folks over 
to it and there is a list of what we had on there. Also note 
that the fire was now 15 acres in just 13 minutes after it was 
reported.
    This is a picture taken near Cedar Creek, less than 30 
minutes after the fire was reported. This is probably about 15 
miles away and you can see the kind of column that is already 
involved. And this also led to some of the problems we had of 
reports of fire down the street. You will see the next picture 
is from Pine Top, 25 miles away at about 6:30. I think we had 
half a dozen calls in our office in White River reporting fires 
at different locations all over the reservation, just from that 
one smoke and I understand the 911 lines on the mountain kind 
of burned up about that time, everybody was calling to report a 
fire that they had down the street and it was 25 miles away.
    We had rates of spread that were fairly high to start with, 
an acre and a quarter a minute, and with some flame lengths 
over 50 feet.
    This is by 7:30 in the evening, the fire was over 700 acres 
and we had 200 people working on the fire and, as Wayne said, 
200 more on order.
    This just shows you the kind of fire behavior we were 
getting still at 2 in the morning, the stands were very hot, 
torching out, crowning out. We do not know what the acreage was 
by 2 in the morning.
    This is a picture of the ignition point, which is that 
circle in the middle of the screen up there near the top of the 
screen. You can see it is a little canyon and it actually is 
pointed in the direction of the northeast, so the lower end of 
the canyon is the southwest where the wind was coming from, so 
it was an ideal place for a fire to get started. There is 
really not any place to get any vehicles in, it has to get up a 
little bit higher before you can actually get to it with 
vehicles.
    The other thing is you can see the retardant on the lower 
side, going from the circle on down. Let me point at it here. 
There is the retardant line, there is another retardant line, 
and there is another one and another one there. And also on 
this other side here. And the fire was just continually hooking 
around the retardant or spotting across it. They had very quick 
turnarounds, I understand they got over 20 loads of retardant 
from the SEATs on there before the sun went down.
    There is no smoke. It is 9 the next morning, it was so dry, 
everything burned up completely.
    This is the next morning at 9:30 on Cibecue Ridge. By that 
time, we did have the large air tankers. There is a big demand 
for those air tankers, there are only about 30 of them in the 
nation. I think everybody is familiar with the story of the air 
tankers and the ones we lost this summer.
    This is just before 10:00, the fire is now going down 
Cibecue Ridge, crowning as it goes. There was no place on those 
slopes to stop the fire, a lot of cliffs, heavily timbered. So 
they selected Carrizo Creek out in front of it.
    Here is another shot 5 minutes later. That is ash that the 
flash is reflecting off of, from the helicopter picture.
    This is 10 minutes after 10 and it is now across Carrizo 
and it is running up the other side 5 minutes later and at 
10:30.
    The other thing I want to point out is these plumes. We 
were talking about plume-driven fires. This one has an ice cap 
on top. That is what that fuzzy stuff is. It has gone up so 
high, it is so cold up there that it is actually forming ice on 
it, like a cumulus cloud, like a thunderstorm. And when it gets 
there, the weight of the air, the cold air and all the material 
that it has carried up into it, causes it to collapse and at 
that point, when it collapses, it acts like a thunderstorm, 
with rushing winds out on the bottom of the cloud. And so we 
get winds in all directions and the fire spreads in all 
directions while that plume collapses. And then as those things 
ignite, new plumes develop and the process starts over again. 
We observed as many as six plumes collapsing and redeveloping 
within 30 minutes at one time.
    This is the fire crossing CC Canyon, seven miles in just 3 
hours.
    This is two plumes that are actually several miles apart. 
There is one there and this one is probably two or three miles 
away from the other one. This angle makes them look like they 
are right together. And they also would collapse on a regular 
basis and spread fire.
    This was one of the points in time we guessed at the 
acreage the best we could from the air attack, it was about 
25,000 acres just before 4 in the afternoon.
    And at 5:30 in the evening, it crossed the rim and this is 
what it looked like when it was crossing the rim on the six-
mile front.
    And again, another shot.
    And then this is referencing what Wayne talked about. This 
is absolutely unprecedented fire behavior--640 acres a minute 
for 15 minutes. You think of some of the subdivisions that 
might be out there, a lot of times they might be 40 acres or 
160 acres. A 160-acre subdivision would be covered with fire in 
15 seconds.
    This is much later, several days later down on Highway 60, 
the crew is watching for spot fires across the road. They 
burned out there near Cottonwood Canyon. And this is one of the 
success stories. Because of prescribed burning that had 
happened in particularly Cottonwood Canyon, the incident 
management teams and the firefighters were able to stop, hold 
the fire, keep it from expanding into Show Low and Pine Top, 
Lakeside and even over to McNary and points east.
    Now there was another fire, on June 20, the Chediski fire 
started. I do not have any pictures earlier than 1400 on that 
particular day, but this is where the two smoke columns are 
joining, looking north about Arrow Pine.
    This is another shot with the column at 4 in the afternoon, 
the Chediski, and the smoke on the lower right is actually the 
Rodeo fire, the south end of the Rodeo.
    This is 2 days later, Chediski crossing Salt Creek, the 
major column.
    This is the Chediski fire in a treated area and there are 
actually some flames in there and the fire is backing down hill 
right through here. This is all burned already, but it has not 
affected the trees at all. I think the next picture might show 
it a little better.
    Here is the treated area, this was logged, there was some 
thinning, mistletoe treatments. You cannot even hardly find a 
place that burned in there at all.
    Here is another treated area. That fire is actually 
occurring, that same wildfire is going on back in the stand 
right here, there is a little smoke and a little bit of flame 
right in through here. That is the difference between the 
treated areas and the untreated areas.
    And here again is Chuckbox treated area where the fire had 
gone through, burned a few needles on the ground and continued. 
Most of those were actually spot fires from the main columns.
    Here is what an untreated area looks like and here's what 
it looks like after the fire goes through the untreated area.
    Here are the things that have already been outlined, the 
drought conditions, low fuel moistures, hot temperatures, 
humidity down to 3 percent, winds 5 to 40, plume-dominated 
fires with wind. The pine needles were so dry that we actually 
could not measure any moisture in them, we just did not even 
try. The 10-hour fuels, which are pencil fuels, were about 1 
percent. If you had 2 percent fuel moisture, then that was 
really wet stuff under these conditions. And then the other 
thing is the drought conditions themselves are leading to a lot 
of mortality right now all across the state. We have observed 
quite a bit of it. We think a lot of the trees that were in 
that fire were already dead, they just had not turned brown 
yet, because of the drought. And the drought impacts those 
trees that are more crowded together. The ones that are thinned 
out have a better chance of withstanding the drought and the 
beetles.
    And this is a chart of the energy release component and the 
top blue line is 2002, the red line is the 25-year average 
measured at Heber. You can see the blue line just went--new 
territory, we had never seen it up there in the last 25 years.
    This one is not so good, but this shows pretty well the 
Limestone area, there is the lookout tower there and this area 
in the foreground was all treated and all this black beyond is 
untreated. All areas were in the fire and you can see that from 
the fire effects map, if you look at it, you will see that 
difference.
    This is showing the area that I just showed you, the 
treated area here. The fire made runs at that treated area, but 
it took it 2 days to get through it. So this was actually 
protecting this area for a couple of days, the Show Low area, 
and bought a little more time. So there were some things that 
went well with that. It may not have seemed like it at the 
time.
    This is Chuckbox on the west end near Chediski. The green 
area in the distance is treated and the canyon steep ground 
here was untreated, it is all burned. The next slide shows it 
even better and more dramatic. Gatewood Canyon untreated, total 
mortality here. And this is the Chuckbox area, the fire just 
laid down or spotted through and held for quite awhile before 
it went out the other side, or went around it.
    In Limestone, we can see the same thing, in the treated 
area, you can see on the ground an occasionally torched out 
little tree here or there, a little spot there, but for the 
most part did not do any damage.
    This is the progression map of the two fires as they burned 
together. It is interesting, the area in the middle where they 
finally--when they finally came together, that last little bit 
was the Carrizo fire of 1971, a lot of that had not fully 
recovered yet.
    There are the two smoke columns. This column from the 
Chediski fire is being pulled over to the Rodeo fire in this 
NASA shot. There is Missionary Ridge up by Durango. If it was a 
wider shot, you could see the fire, the Hayman fire just 
outside of Denver, which were all going on about the same time 
and demanding resources.
    Any questions, Mr. Chairman, I would be glad to answer.
    Mr. Hayworth. We thank you, John, and believe me there are 
probably more questions that we have than we can get to in our 
limited time this afternoon.
    But inherent in reviewing this fire and the dramatic scenes 
you show us here in this PowerPoint presentation, it begs the 
question, do you at the BIA through Interior have an easier 
time of forest management than our friends at the Forest 
Service under Ag and specifically does the fact that you are on 
sovereign Indian land give you the latitude to get things done 
easier than what we have seen, especially over the course of 
the last decade when so many lawsuits were filed, to circumvent 
or stop altogether prescribed burns in other areas?
    Mr. Philbin. I think it is easier for us because our 
constituency is the tribe and the tribal governments directly. 
We see less folks outside the reservation interested in what 
happens there and trying to change what goes on there. And so 
in that respect, yes. But we are still subject to the same NEPA 
as everyone else, and we are doing environmental assessments on 
our salvage sales and our prescribed burns and will continue to 
do so.
    Mr. Hayworth. In terms of the salvage--and Wayne, you 
touched on that earlier--your salvage is going on right now. 
John, you may go ahead.
    Mr. Philbin. The reason we were able to do that is we had 
an existing reservation-wide salvage contract, so that the 
tribe can go out on very short notice and pick up these pockets 
of bug-killed trees or fire. Because of the size of this, we 
were able to make some modifications to that existing contract 
and allow the tribal mills to get started on harvesting.
    But we have not done the entire sale area yet, but we had 
enough for them to get working and that is why we were able to 
do that.
    Mr. Hayworth. I know that the title is Inter-Agency 
Cooperation, but at this juncture, Bob, I would almost have to 
say there is a type of inter-agency contrast. Because on the 
non-reservation land, Bob, how would you evaluate what is going 
on with possible salvage? Obviously that has been an initiative 
that the White House through Executive Order has tried to 
implement and yet we read this morning of lawsuits, not here 
but in Reno, to stop salvage there. What is your assessment of 
the ability to in fact conduct necessary salvage under 
reasonable time constraints, given the after-effects of the 
Rodeo-Chediski fire?
    Mr. Leaverton. Given the Department of Agriculture Forest 
Service's authorities, it is a little bit harder for us. I know 
the local forest, the Apache Sitgreaves, is currently doing two 
abbreviated NEPA decisions, which we call categorical 
exclusions, to take care of those areas that are of some safety 
concern, in terms of getting the dead trees down where there 
may be a safety issue.
    Concurrently, they are also working on a larger 
environmental impact statement to take care of the remainder of 
the area. But that is going to take some time because our laws 
and authorities require us to look at consequences and effects 
to almost everything.
    Mr. Hayworth. The environmental impact statement--it seems 
to the Chair this is the irony we confront, we want to work to 
save the environment, but it seems that over the course of the 
last decade, we have had a terrible predicament where some 
folks cannot seem to see the forest for the trees. And overall 
forest health has been placed in jeopardy.
    With the environmental impact statement, under the best 
scenario, what is the time involved to complete that?
    Mr. Leaverton. I believe the Forest is working on a time 
line right now to have the EIS done by next May.
    Mr. Hayworth. Next May.
    For the entire panel, based on your knowledge of forests 
and forest health, when does the insect infestation and the 
disease take effect with the dead and decaying timber, is that 
going on right now?
    Mr. Leaverton. Yeah, that is ongoing as we speak. Mr. 
Hayworth, I have spent a lot of years on the Apache Sitgreaves 
as a forester and I can tell you that probably in Ponderosa 
pine, within probably 12 to 18 months, you can pretty well 
forget about anything under about 12 inches in diameter. It 
will be too badly affected by bugs and blue stain fungus to be 
of any value.
    Mr. Hayworth. So the fungus, the insects, the disease and 
the aftermath of catastrophic fire, by the time a study is 
complete, you are sending the ambulance when it is a 1-year 
anniversary of a funeral.
    Mr. Leaverton. Yeah, we are sending the ambulance toward 
the end of the accident, but we are hopeful that there will 
still be some recoverable valuable timber in the larger 
diameter classes by the time we get there.
    Mr. Hayworth. You are a policy implementer. We have the 
administration that works obviously through Executive Order at 
times of urgency. The Congress of the United States tries to 
move legislation and perhaps it is not your venue, any of you, 
to answer this question, but it would seem from the venue of 
the Chair, we are going to have to redouble our efforts to let 
folks in Washington understand the urgency of salvage right 
now. Not next May, not in the year 2525, but right now.
    [Applause.]
    Mr. Leaverton. If I may, you know, we have a second 
emergency facing us also, beyond salvage. And that is thinning 
the green forest, particularly around the communities at risk. 
You know, we are not going to get out of this drought this 
winter, we are going to be back in it next summer. What we do 
now could save homes next year, but we need to be busy doing 
that right now.
    Mr. Hayworth. Thank you. Congressman Flake.
    Mr. Flake. Thank you. Just following up on hindsight I 
guess and to help guide us in the future.
    I mentioned in my opening testimony that there were a lot 
of complaints at the time when I was here about kind of the 
deployment of resources with regard to the incident management. 
It seemed that there were Heber hotshot crews, for example, 
near Cibecue on the Rodeo fire, when obviously they know best 
the area around Heber-Overgaard. There was a question as to why 
they were not pulled back sooner. The failure to use local 
resources was a complaint that we still hear.
    Do you want to comment on that and comment on what could 
have been done differently and how that will guide us in the 
future?
    Mr. Leaverton. I think there has been a lot of good things 
happen in this area in the past. Unfortunately, you know, I 
agree with Mr. Hayworth, when you have something bad like this 
happen, as severe as the Rodeo-Chediski fire was, I understand 
after the fact the frustration and the anguish and the wishing 
we could have done something different, I think that is normal 
human reaction.
    Quite frankly, in order to do better next time, we need to 
work better together in the off season. I think that has been 
happening along the rim. You know, you have the Association of 
Fire Chiefs, you have the Rim Fire Group. There are a lot of 
good things that have happened along the Mogollon Rim with the 
rural fire departments over the years. We need to strengthen 
and bolster those efforts, we need to get our rural fire 
department personnel the proper training and qualifications so 
that they can participate and be mobilized with Federal and 
state and tribal firefighters when a wildland fire starts.
    This all has to do with safety. It is like waging a war. If 
you are waging a war, you have got to have one general and you 
have got to listen to the general and all bits of the army have 
to be following the orders of the general. Otherwise, you put 
other people at risk. I think through the incident command 
system, we can all do that. The incident command system 
provides for that. I think we just need to pay more attention 
to the use of unified command, we need to pay attention to the 
Federal money available for the volunteer fire departments, for 
safety clothing, equipment and training, and we need to have 
winter exercises like they have done in the past on the Rim so 
that we get used to working together before the accident 
happens.
    Mr. Flake. Back to my initial question. Does the Forest 
Service recognize that there was a problem? Safety is certainly 
of utmost importance, but you have to consider also the safety 
concerns if you do not stop a fire. Is there a recognition that 
maybe the Forest Service was a little too reticent to employ 
local resources? Is that a fair assessment?
    Mr. Leaverton. No, I do not believe that is true. I think 
the incident command system and the dispatch system worked 
perfectly well. I think what you end up with though, in the 
time of the incident is there is always some bit of confusion 
and chaos because of just what is going on at the time. And I 
think that is prevalent throughout, the incident command system 
tries to straighten that out in a relatively short period of 
time where it tries to unify all the firefighters in the 
effort, according to one strategy and tactic. But it takes time 
to do that, and I think that leaves the perception of maybe 
confusion after the fact, when in fact it is just part of 
getting organized.
    Mr. Flake. Would you concede that there was at least a 
problem of information? Those, particularly in the Heber-
Overgaard area, simply were not getting the information they 
needed. There was an incident management team here, daily 
briefings, virtually nothing there until after, in many cases, 
it was too late.
    Mr. Leaverton. I do understand that there was a large 
effort to save the town of Show Low and it was a few days later 
before an incident command team was placed over on the west 
side, and I think that did contribute to maybe some lack of 
information over there.
    Mr. Flake. Back to the salvage operation, I have 
legislation, J.D. has something similar, called the Federal 
Disaster Declaration Exemption Act, which would allow--after 
declaration of a Federal disaster area, it would allow us to 
expedite NEPA processes and some of the other issues.
    Now working through Congress, as you can understand, we 
have 435 very individualist members, I will put it that way. We 
have the east versus west thing going on and all that. You are 
in one agency--it is going to take us awhile to move that 
legislation through is what I am saying.
    Mr. Leaverton. Right.
    Mr. Flake. It would seem that in 1 year--not 1 year, just 
less than 1 year, to put together a plan that will weather the 
scrutiny that might come from environmentalists or others is a 
bit too long in an agency where you are in control of your 
members, you are in control of the process.
    Mr. Leaverton. Right.
    Mr. Flake. Is there any way--what can be done? Do we need 
more prodding from the outside? How can we speed that process 
up? Because I agree with everyone here and with Congressman 
Hayworth, that that is completely unacceptable. When you have, 
as I understand it, depending on the products you are trying to 
get out of the forest, in a period of 6 months after the fire, 
some of it is useless; within 2 years, it is all useless.
    Mr. Leaverton. Right.
    Mr. Flake. And within a year most of it is useless.
    Mr. Leaverton. Right.
    Mr. Flake. What can we do? Is that as fast as we can move?
    Mr. Leaverton. Well, I think nationally--I understand your 
concern. I think nationally, the process needs to be looked at 
in terms of salvage in emergency situations where public safety 
could be at stake. The process needs to be looked at and 
straightened out. I have full faith that the Apache Sitgreaves 
National Forest is moving forward as fast as they can on the 
EIS. I know a lot of the people that are working on it and they 
are top notch people, they are not dallying around, they are 
expediting it as fast as they can. The worst thing we could do 
though at this point in time is put out a shabby document, be 
taken to task on it through a court or appeal and lose. None of 
us are going to gain anything by that. So I do think they are 
trying to do a thorough job, I do think they are trying to 
expedite the process and I am confident that will happen.
    I understand what you are saying is true, but I think it 
just needs to be looked at nationally in terms of the current 
policy and authorities that we have to do this in a faster 
fashion.
    Mr. Flake. I might suggest, if I might, the Forest Service 
comes from a different perspective. We have people here whose 
livelihoods depend on it. My guess is--and you say you do not 
want to put forth a shabby document and lose it all. If we put 
forward a concise document, one that will weather scrutiny and 
we take a year to do it, all is lost anyway. There has to be 
some recognition you have got to move a little faster, I would 
think, and people need to put themselves in the position of 
those who are here who have lost much of it already and have 
the prospect of losing it all.
    Mr. Leaverton. I understand.
    Mr. Flake. John.
    Mr. Philbin. That is a problem and it is one that we have 
experienced frequently also, is that even if you take the time 
to prepare a decent document, if some group sues you, no matter 
how good that document is, there is a certain amount of time 
that is going to be taken up in the litigation, which will push 
it beyond the time period that you can successfully salvage 
this material.
    We have got an even probably more pressing difficulty and I 
know Congressman Hayworth is very familiar with it. That is the 
trust responsibility of the tribes. If we comply--it puts us in 
a box. If we comply with the Federal requirements to do the 
NEPA process and that delays the salvage of this material, then 
that trust resource is lost. It puts us literally in a box--do 
we meet our trust responsibility to the tribe by salvaging that 
timber and making as much money as we can for the tribe off 
that damaged resource, or do we comply with the letter of the 
Federal law as it presently exists and allow that resource to 
be lost. It puts us in a real conundrum.
    Mr. Hayworth. We thank you all for the testimony and you 
point out in conclusion, Wayne, again, with the challenges 
confronting the Federal Government, at times the right hand and 
the left hand--it is not necessarily a case of the right hand 
and the left hand not knowing what one or the other is doing, 
but in fact it seems at times working at cross purposes. And so 
either administratively or legislatively or through Executive 
Order, we are going to have to untangle that knot, to 
prioritize what is most important here.
    As I recall discussions with those who say they champion 
biological diversity, the ultimate irony is where is your 
biological diversity if everything is incinerated and the 
watershed is hopelessly polluted and the particulates from the 
air pollution are such that you do grave damage by the very 
occurrence of the fire.
    We thank you for your testimony. We should point out this 
caveat, as is often the case, your testimony raises many 
questions that during the time and the nature of this forum, we 
will not be have a chance to answer. We reserve the right to 
contact you in writing to have more thoughts passed along to be 
made part of the official record.
    And with that, you have our thanks and we hope you will be 
able to stay around and hear the rest of the testimony. Thank 
you very much.
    Again, we thank the witnesses on our first panel for their 
time and we should point out also a matter of housekeeping. The 
hearing record will be held open 10 days for your responses 
once we get to you in writing.
    Our second panel, let me just list all who we have invited 
and some may not yet be here with us, but we will continue to 
try and work to make this as flexible as possible within the 
constraints and the protocol of a Congressional field hearing.
    On panel two, we have invited Vice Chairman Frank Endfield 
of the White Mountain Apache Tribe; Mr. David Behrens, Fire 
Management Officer, Arizona State Land Department, Fire 
Management Division; Vice Chairman of the Board Pete Shumway of 
the Navajo County--he is the Navajo County District Supervisor 
from District 4; Fire Chief Ben Owens of the Show Low Fire 
Department and Fire Chief Mell Epps of the Heber-Overgaard Fire 
Department.
    So as we bring those gentlemen up, we thank those who have 
joined us now and we will make accommodations for those who 
have been invited who may not yet have joined us. And again, 
the point I want to make, those who join us here at this 
hearing, who may not have been here for earlier comments, if 
you have a copy of our agenda, the thing that I would like to 
point out to all who join us here today, on the back, there is 
an address where you are able to mail, fax or e-mail your own 
perspective on what has transpired, your own testimony of what 
this fire has done to you, of what you think we can do to make 
the situation better and what we can do to look ahead. I will 
continue to mention that because I think it is so vital as we 
try to--it typifies why we bring Washington to the White 
Mountains.
    Mr. Flake. Would the gentleman yield?
    Mr. Hayworth. I am glad to yield to my friend from the 
First District.
    Mr. Flake. Also, Congressman Hayworth mentioned that the 
hearing record is open for a few days. Many of you have 
questions that you would have liked to ask the panelists. If 
you want to submit those and have us ask those in writing--
therefore the letters will come from us and may have a better 
likelihood of being answered in a timely fashion--if you want 
to do that, please contact our office and do that. Our staffs 
are here and please contact us afterward or e-mail them with 
the indication that you would like those questions submitted on 
your behalf.
    Mr. Hayworth. Thank you, Congressman Flake. And now we 
officially welcome panel two and we will begin with David 
Behrens of the Arizona State Land Department. David, welcome, 
we appreciate you joining us.

 STATEMENT OF DAVID BEHRENS, FIRE MANAGEMENT OFFICER, ARIZONA 
        STATE LAND DEPARTMENT, FIRE MANAGEMENT DIVISION

    Mr. Behrens. Honorable Representative Hayworth, Committee 
Chair--
    Mr. Hayworth. If you will just suspend for a second, we 
will try to get the mic working for you here.
    Mr. Behrens. There we go. Thank you for the opportunity to 
testify before your Committee. My testimony will be on how the 
State Land Department, Fire Management Division, operates with 
rural fire departments, Federal agencies, in suppressing wild 
fires in the state of Arizona.
    The State Land Department provides for prevention, 
suppression of wildfires on state and private lands, which are 
located outside incorporated municipalities. It accomplishes 
this mostly through the use of cooperative agreements with 
local fire departments, other state agencies, Federal agencies 
and persons organized to prevent and suppress wildfires.
    The Division also maintains in-house overhead fire fighting 
capability through qualifications of its own employees. Through 
this program, we protect about 22.4 million acres of state and 
private land.
    The Division has in place four very important cooperative 
agreements to facilitate the cooperative effort in fire 
suppression. These agreements are the inter-governmental 
cooperative agreement with rural fire departments and 
cooperative agreements with volunteer fire departments, the 
joint powers agreement with the Federal agencies and the FEMA-
State fire management assistance grant.
    The joint powers agreement is the one I will talk about 
first. It is an agreement between the state and the Federal 
agencies that allow wildland fire suppression assistance and 
cooperation between the state and Federal agencies involved in 
wildland fire suppression. There are three important functions 
of this agreement. First, the agreement provides for a means 
for coordinating initial attack on each other's jurisdiction, 
the initial response may or may not be reimbursable. Second, it 
provides for reimbursement of costs when requested to assist a 
cooperating agency in suppression action. And third, it 
establishes a method for reimbursement of both agencies, the 
state and the Fed, if the fire burns on both parties. There are 
several other provisions that provide for annual operating 
plans and mobilization plans and we will talk about those a 
little later.
    The next two agreements are probably some of the most 
important to rural fire communities, rural fire departments and 
communities in Arizona. The two agreements, the cooperative 
inter-governmental agreement and the cooperative agreement with 
volunteer fire departments. These are considered legal 
subdivisions of the state of Arizona and therefore, they are 
considered to be state agencies.
    There are five important provisions to this agreement that 
supply benefits to fire departments. They are training, 
technical assistance, equipment, reimbursement and suppression 
assistance.
    The training provides for the opportunity to receive basic, 
intermediate and advanced training in wildland fire 
suppression. This training allows them to participate in 
suppression requests and other advanced fire assignments.
    The second important provision allows the state to provide 
technical assistance. And for example, we could provide fuel 
hazard treatment, which we have done in several communities in 
and along the rim, and we provide funds that are supplied to us 
through the Federal Government.
    The third provisions provides the Department an opportunity 
to obtain fire suppression equipment from the Division. The 
Division obtains a lot of Federal excess property, military 
trucks and recondition those into fire engines and loan those 
to the fire departments. If you were at the parade this 
morning, Lakeside just received one of our new type 3 engines, 
which we are kind of proud of and I think they are too.
    And then we also allow, through special contracts that we 
have for rural fire departments to buy fire suppression tools. 
Over this last year, the fire departments have spent in excess 
of about $300,000 buying wildland fire suppression equipment 
and clothing.
    The fourth provision allows the departments to be 
reimbursed. This is how the State of Arizona protects its 2.4 
million acres, we contract rural fire departments to do it. 
They are very efficient, they are located all over the state. 
They report the fire, we send them out and they get paid.
    The last provision is really important, especially with the 
Rodeo fire, is the fact the these rural fire departments 
requested assistance from the state and we provided that to 
them, either through the incident management team or several 
communities called us directly and we supplied additional 
resources.
    A couple of things happened in the White Mountains area and 
in the Coconino area in the Northern Arizona Zone and the White 
Mountain Zone. Our state resource, which is rural fire 
departments, are mobilized and dispatched by the local zone 
offices. The Apache Sitgreaves and the Coconino National 
Forest.
    We also, during this particular dry season, have a severity 
fund, which the Governor allows us to spend up to about a 
million dollars and we bring on additional resources. This 
year, we had several single engine air tankers, some severity 
patrols, our local crews were trained and brought up to full 
strength.
    And with these agreements that we talked about, we mobilize 
about 230 rural fire departments. Now whether they can come 
outside their boundary very far or not, they are part of the 
State Land Department's fire management suppression force. And 
with these forces, we also under the joint powers agreement 
provide those to the Federal agencies when they need further 
assistance.
    The last agreement is one, it is kind of a fiscal one, it 
is with FEMA, which allows us to request assistance financially 
when we think we are going to be in trouble, and this fire was 
no exception. On the 19th, I formally applied for a fire 
management assistance grant which gave us an advance of about 
$20 million to help pay for the suppression costs that were 
encumbered by the state and the counties in the process.
    Again, I would like to thank you for the opportunity to 
speak and I also had a couple of things that we have thought 
about in the past since the fire. One is just for information 
purposes, 151 pieces of state, local resource in the form of 
equipment was sent to this area, probably 50 of that was in the 
area already with local fire departments. We sent 102 overhead 
to assist the teams in various functions. These included not 
only our personnel, which is only about 24 of us that are in 
the Land Department Division. These other individuals are 
trained rural fire department people and some seasonal 
employees that we hire. And it looks like, from our records, 
about 53 different rural fire departments participated in the 
control of the fire.
    We have been talking about some things we can do. One of 
the things is we need to continue the Federal funding through 
the Forest Service for the volunteer fire assistance. It 
provides needed money to equip and train rural fire 
departments. And again, I echo it for the Department of 
Interior, we handle their rural fire assistance grant in this 
state. And over the last 2 years we have probably given rural 
fire departments through this system about a million and a half 
dollars for equipment and training.
    And then the state fire assistance grants, which is the 
last one, talking about doing hazard treatment in communities 
and on private lands. The state has been the recipient of 
about, in 2001 and 2002--2001 was $1.3 million; 2002 was about 
$2 million.
    And again, I thank you for the opportunity.
    Mr. Hayworth. We thank you very much for your testimony, 
David. Now we will call on Vice Chairman Shumway of Navajo 
County. Welcome, Mr. Vice Chairman, we appreciate you coming. 
It goes without saying, but we will repeat it. Everyone's full 
testimony will be submitted for the record but we invite you to 
summarize it now with the relevant points you would like to 
share with us in this open hearing. Welcome.
    [The prepared statement of Mr. Behrens follows:]

Statement of David Behrens, Fire Management Officer, Arizona State Land 
                               Department

    Honorable Representative Hayworth, Committee Chairperson, and 
Committee members:
    Thank you for the opportunity to testify before your committee.
    My testimony will be on how the Arizona State Land Department, Fire 
Management Division, operates with rural fire departments and federal 
agencies in the suppression of wildfires in this state.
    The Arizona State Land Department, Fire Management Division, 
provides for the prevention and suppression of wildfires on state and 
private lands which are located outside incorporated municipalities. It 
accomplishes this mostly through the use of cooperative agreement with 
local fire departments, other state agencies, federal agencies, and 
persons organized to prevent and suppress wildfires. The division also 
maintains in-house overhead and firefighting capabilities through the 
qualifications of its own employees. Through this program we protect 
22,400,000 acres of state and private land (see exhibit A for more 
information on the division). The Division has in place four (4) very 
important cooperative agreements to help facilitate this cooperative 
effort in fire suppression. These agreements are the Joint Powers 
Agreement, Cooperative Intergovernmental Agreements with rural fire 
departments, Cooperative Agreements with volunteer fire departments, 
and FEMA-State Fire Management Assistance Grant.
    The Joint Power Agreement (Exhibit B) is an agreement between the 
state and federal agencies that allows for mutual wildland fire 
suppression assistance and cooperation between the state and federal 
agencies involved in wildland fire suppression. There are three 
important functions of this agreement. First, the agreement provides 
for coordinated initial attack of wildfires on each other's 
jurisdiction. This initial response may or may not be reimbursable. 
Secondly, it provides for reimbursement of costs when requested to 
assist cooperating agencies in suppression action. Thirdly, it 
establishes a method of allocating suppression costs when the fire 
burns on lands of both parties. There are several other provisions that 
provide for annual operating plans and mobilization plans.
    The next two agreements, the Cooperative Intergovernmental 
Agreements with rural fire departments and the Cooperative Agreements 
with volunteer fire departments(Exhibit C & D), deal with the 
subdivision of state government and volunteer associations. (Rural Fire 
Districts vs Volunteer Fire Department) There are five important 
provisions in this agreement that supply important benefits to fire 
departments. They are training, technical assistance, equipment, 
reimbursement, and suppression assistance. The training provision 
provides for the opportunity to receive basic, intermediate, and 
advanced training in wildland fire suppression. This training will 
allow them to participate in suppression requests and other advanced 
fire assignments. The second important provision allows the state to 
provide technical assistance to the department.
    For example, the state could provide fuel hazard reduction planning 
or grant applications for equipment. The third provision provides the 
department with the opportunity to obtain fire suppression equipment 
from the Division. The Division has the ability to obtain federal 
excess property vehicles which are then reconditioned into fire 
engines. The Fire Management Division loans these engines to fire 
departments, along with the ability to purchase suppression tools at 
reduced cost. The fourth provision allow for the fire departments to be 
reimbursed for suppression action outside their response area when it 
is requested by the state. The fifth provision provides for additional 
suppression resources inside the fire department's response area when 
requested by the fire department.
    Initial and extended suppression action for wildland fires in the 
State of Arizona are based on these three agreements plus annual 
operating plans for the four Area Zones in Arizona. In the White 
Mountain and Northern Arizona Zones, state resources are dispatched by 
agreement through the Apache-Sitgreaves and Coconino National Forest 
(Exhibit E & E-1). The other two Zones are dispatched out of the state 
dispatch center in Phoenix. During severe fire seasons, the Land 
Department, through the Fire Management Division, provides additional 
suppression and prevention resources through a special funding process 
of up to $1,000,000. The system of agreements and operating plans is 
used to mobilize approximately 230 rural and city fire departments to 
assist the State Forester in suppressing wildland fires on 22.4 million 
acres (Exhibit F). This system also allows the state to assist our 
federal cooperators with additional suppression resources.
    The last agreement is between the State and the Federal Emergency 
Management Agency (FEMA), which allows the State to request the 
financial assistance in hopes of mitigating a disaster. This helps the 
state mobilize additional suppression and emergency response resources 
without the fear of being unable to pay for the added expenses (Exhibit 
G).
    Again, I would like to thank the committee for this opportunity.
    [NOTE: Exhibits A through G have been retained in the Committee's 
official files.]
                                 ______
                                 

STATEMENT OF PETE SHUMWAY, COUNTY SUPERVISOR, DISTRICT 4, VICE 
              CHAIRMAN OF THE BOARD, NAVAJO COUNTY

    Mr. Shumway. Mr. Chairman, on behalf of Show Low, Navajo 
County, welcome. Mr. Flake, welcome home, it is a pleasure to 
be with you today.
    The western forest health issue represents a crisis of 
massive proportions. I come before this Committee today 
harboring a great deal of frustration over the inability of our 
Federal Government to fulfill its obligation in implementing 
effective strategies to resolve western forest health issues. I 
believe, as does Congress, that strong partnerships between 
Federal, state, county and local governments are absolutely 
necessary to make meaningful progress on this issue.
    The southwestern United States contains one of the largest 
Ponderosa pine forests. Presently these pine forests are at 
extreme risk of loss from catastrophic fire, insects and 
disease and drought mortality due to the tree densities far in 
excess of historic levels. The present realization of such a 
risk has occurred in Navajo County where we experienced this 
upwards of 500,000 acres of lost property and upwards of 500 
homes. Failure to implement effective strategies has not only 
resulted in a catastrophic fire, but is also resulting in 
sediment-choked streams, lakes, floods and now a multi-million 
dollar emergency program of restoration.
    In 2001, the area of the present Rodeo-Chediski fire was 
proposed for aggressive restoration under the CPR, which is the 
Forest Service-county partnership restoration program. The CPR 
program is designed to prevent this very kind of catastrophic 
tragedy.
    In our view, the only acceptable management response to 
preventing these types of emergency situations is implementing 
aggressive restoration programs. I am here today to request 
your assistance in making sure actions are taken immediately to 
fully launch the national-county partnership restoration 
program and a stewardship program to restore the area of the 
Rodeo-Chediski fire. The national forest-county partnership 
restoration program, a national pilot restoration program 
developed for the Apache Sitgreaves National Forest, the 
Lincoln in New Mexico and the Grand Mesa in Colorado, is 
designed to prevent such tragedies as seen in 2002. This 
program restores areas of these forests determined to be high 
risk and it accomplishes in a 10-year period up to 40,000 acres 
per forest per year. Under Secretary of Agriculture Mark Gray 
and southwest Congressional delegation has endorsed this 
program for inclusion in the National Fire Plan.
    The CPR program that I am outlining is based on sound 
scientific principles developed from continuing research 
efforts.
    It is designed as a pilot to permit redesign of adaption 
across the west if desired.
    It is co-managed by the Forest Service and local county 
government representing states' interests and has extensive 
local community input.
    It follows alternative approaches that are compatible with 
existing laws and regulations to provided needed flexibility 
for resource assessment, NEPA process, budgeting and et cetera.
    Will reduce catastrophic fire risk near communities and 
creates healthy forest landscapes and watersheds.
    Creates an assured annual supply of sufficient restoration 
raw materials to encourage new industry and reduce the public 
expenditures on the program.
    Most critical to the State of Arizona and its people is the 
need for immediate action to cope with the emergency created by 
the Rodeo-Chediski fire. The counties of the Apache Sitgreaves 
National Forest CPR program have worked with our Governor, 
legislators and communities to petition the Council on 
Environmental Quality and the Office of the President to 
declare this an emergency area and provide aid for rapid 
restoration to prevent further impacts of health, welfare, 
safety of our people and communities. We have submitted in 
excess of 5000 petitions and letters from our communities' 
citizens, mayors, county commissioners, legislators and others 
and the Governor. In short, the people of Arizona know the 
present post-fire condition represents a critical emergency. We 
will make available to a national forest CPR program plan and 
the co-partnership stewardship plan to resolve the post-fire 
emergency.
    The stewardship plan includes the following:
    The national forest restoration plan developed by the 
Apache Sitgreaves National Forest Supervisor presents needs for 
dead tree and other material removal, stream corridor and 
riparian restoration, plant reseeding and replanting of trees, 
wildlife improvements and watershed improvements.
    The economic development activity plan includes the 
following:
    Programs for assessing equipment for removal of dead 
standing or down materials and other materials throughout the 
fire regimen.
    A program of contracted and volunteer labor pools for 
replanting of trees, rehabilitation and restoration of riparian 
zones and wildlife niches.
    A program for developing wood processing, paper building at 
a Navajo County, Arizona facility as well as in the adjacent 
New Mexico counties.
    School educational programs in natural resource stewardship 
and economic aspects of management and constructive use of 
natural resources.
    Now in conclusion, here today we request two programs, 
request that the CEQ director and the staff meet with 
representatives of the southwestern delegation, the Arizona 
Governor's staff and Apache Sitgreaves National Forest CPR 
partners to quickly resolve this emergency condition.
    We request the southwestern Congressional delegation to 
implant a proposed stewardship plan so that we can utilize 
damaged trees to offset public costs of restoration, properly 
restore our watersheds and resolve the immediate emergency 
condition.
    We request the support of the National Forest CPR program 
so that we can take a proactive role with our Federal partners 
to prevent another Rodeo-Chediski fire.
    We also recognize the importance of supporting youth 
programs to augment the national resource stewardship programs 
in our schools.
    I appreciate the opportunity to present this and we will be 
happy to answer questions relative to the program.
    Mr. Hayworth. Vice Chairman Shumway, we thank you for your 
testimony. We entertain your requests very seriously. We 
appreciate the fact that in Washington, we have taken steps to 
try and begin those things and the emergency designation of 
which you speak, of course, would expedite the process so 
vital, as we heard from the previous panel. We thank you for 
the testimony, we will have questions in a moment.
    We also welcome Fire Chief Mell Epps. Chief Epps, welcome, 
we appreciate your testimony and the chance to ask you some 
questions. Thank you for coming.
    [The prepared statement of Mr. Shumway follows:]

   Statement of Mr. Pete Shumway, Supervisor, Navajo County Board of 
                              Supervisors

    The western forest health issue represents a crisis in massive 
proportions. I come before this committee today harboring a great deal 
of frustration over the inability of our federal government to fulfill 
its obligations in implementing effective strategies to resolve western 
forest health issues. I believe, as does Congress, that strong 
partnerships between federal, state, county and local governments are 
absolutely necessary to make meaningful progress on this issue.
    The southwestern United States contains one of the world's largest 
Ponderosa Pine Forests. Presently these pine forests are at extreme 
risk of loss from catastrophic fire, insect and disease, and drought 
mortality due to tree densities far in excess of historic levels. The 
present realization of such a risk has occurred in Navajo County, where 
469,000 acres of this pine forest has been destroyed in the Rodeo-
Chediski Fire. Failure to implement effective strategies has not only 
resulted in a catastrophic fire, but is also resulting in sediment 
choked streams and lakes, floods, and now a multi-million dollar 
emergency program for restoration.
    In 2001, the area of the present Rodeo-Chediski Fire was proposed 
for aggressive restoration under our CPR Program. The CPR Program is 
designed to prevent this very kind of catastrophic tragedy.
    In our view, the only acceptable management response to preventing 
these types of emergency situations is implementing aggressive 
restoration programs. I am here today to request your assistance in 
making sure actions are taken immediately to fully launch the National 
Forest County Partnership Restoration Program (CPR) and a Stewardship 
Program to restore the area of the Rodeo-Chediski Fire.
    The National Forest County Partnership Restoration Program, a 
national pilot restoration program developed for the Apache-Sitgreaves 
(AZ), Lincoln (NM), and Grand Mesa, Uncompahgre, Gunnison (CO) National 
Forests, is designed to prevent such tragedies as seen in 2002. This 
program restores areas of these forests determined to be at high risk, 
and it accomplishes it in 10 years (up to 40,000 acres per forest). 
Under-Secretary of Agriculture, Mark Rey, and the Southwest 
Congressional Delegation has endorsed this program for inclusion in the 
National Fire Plan.
    The CPR Program:
    <bullet> Is based on sound scientific principles, developed from 
continuing research efforts,
    <bullet> Is designed as a pilot, to permit redesign for adaptation 
across the West if desired,
    <bullet> Is co-managed by the Forest Service and local County 
Government representing state interests, and has extensive local 
community involvement,
    <bullet> Follows alternative approaches that are compatible with 
existing law and regulations, to provide needed flexibility for 
resource assessments, NEPA processes, budgeting, etc,
    <bullet> Will reduce catastrophic fire risk near communities, and 
create healthy forest landscapes and watersheds and,
    <bullet> Creates sufficient restoration raw materials to encourage 
new industry investments and reduce public expenditures on the program.
    Most critical to the State of Arizona and its people is the need 
for immediate action to cope with the emergency created by the Rodeo-
Chediski Fire. The Counties of the Apache Sitgreaves National Forest 
CPR Program have worked with our Governor, legislators and communities 
to petition the Council on Environmental Quality and the Office of the 
President to declare this an emergency area and provide aid for rapid 
restoration to prevent further impacts to the health, welfare, and 
safety of our people and communities. Before you are over 5000 
petitions and letters from our community citizens, mayors, county 
commissioners, legislators and our Governor. In short, the people of 
Arizona know the present post-fire conditions represent a critical 
emergency.
    We will make available to you the National Forest CPR Program Plan, 
and the Co-Partnership Stewardship Plan to resolve the post-fire 
emergency conditions.
    The Stewardship Plan includes the following:
    1. LThe Natural Resource Restoration Plan developed by the Apache 
Sitgreaves Forest Supervisor, presents needs for dead tree and other 
material removal, stream corridor and riparian restoration, plant 
reseeding and replanting of trees, wildlife improvements and watershed 
improvements.
    2. LThe Economic Development Activity Plan includes the following:
        <bullet> Programs for accessing equipment for removal of dead 
        standing or down material and other material throughout the 
        fire regime,
        <bullet> A program of contracted and volunteer labor pools for 
        replanting of grasses and trees, rehabilitation and restoration 
        of riparian zones and wildlife niches,
        <bullet> A program for developing wood processing capability 
        at a Navajo County, Arizona facility and at a Catron County, 
        New Mexico owned facility proposed for refitting for milling 
        small trees by county cooperators in the CPR Program.
    In closing I would like to ask today that you offer the assistance 
of your staff to help the State of Arizona move those two Programs 
forward by doing the following:
        <bullet> Request that the CEQ Director and staff meet with 
        representatives of the Southwestern Delegation, the Arizona 
        Governor's Staff and Apache Sitgreaves National Forest CPR 
        Partners, to quickly resolve this emergency condition,
        <bullet> Request the Southwest Congressional Delegation to 
        implement a proposed Stewardship Plan so that we can utilize 
        damaged trees to offset public costs of restoration, properly 
        restore our watersheds, and resolve the emergency conditions 
        and,
        <bullet> Support our proposed National Forest CPR Program so 
        that we can take a proactive role with our federal partners to 
        prevent another Rodeo-Chediski Fire.
                                 ______
                                 

    STATEMENT OF FIRE CHIEF MELL EPPS, HEBER-OVERGAARD FIRE 
                           DEPARTMENT

    Mr. Epps. Mr. Hayworth and Mr. Flake, I want to thank you 
for the opportunity to come and testify before this Committee. 
I would like to just read my statement.
    Let me begin by stating I have no ill feelings or animosity 
toward any individual or groups as a result of these tragic 
fires. I believe I came away from this incident with a far 
better idea of what we as individuals and organizations can do 
to make these types of situations a lesser threat and possibly 
eliminate much of their destruction. I can assure all of you 
this fire could have been prevented. I am not interested in 
discussing or commenting to a great degree on how the fires got 
started. I am convinced they would have got started 
regardless--careless smoking, unattended campfires, motorized 
vehicles or even lightning strikes.
    It is clear there are two factors which made this fire the 
largest in Arizona's history--over 450,000 acres--the incident 
that it was. One is the very dry conditions of the forest. We 
are in a drought which causes conditions to be far more 
critical than normal. We have known for some time of these 
extreme hazardous and try conditions, all of us, both local and 
national agencies. These severe dry conditions made ignition 
and combustion inevitable. No. 2, over the past several 
decades, cleaning the combustible debris out of the forests has 
become the exception instead of the rule. Our local forest is a 
prime example. We had an average of 25 tons of fuel per acre, 
which should, for the safety of the communities such as ours 
and the health of the national forests, be eliminated or at 
least reduced to an acceptable level.
    This fire had entirely too much fuel in its path from its 
beginning until its arrival in our community. The fire fronts 
were in excess of 200 feet in height with temperatures in 
excess of 2000 degrees. I sincerely believe it is unfair for 
any community to be subjected to these kinds of unnecessary 
exposures and risks, especially when they could have been 
eliminated. Somewhere, at some date in time, some government 
body decided the U.S. Forest Service would be the stewards over 
our forests. For a lot of reasons, some I am sure are totally 
out of their control, they kind of dropped the ball. I have 
been in forests all across the state of Arizona and I have yet 
to find one where the condition places it in the safe zones. I 
am told there are some, I have just not been able to visit 
them.
    I would like to give this group a description of the events 
which occurred after the fire was started and discovered. On 
June 20, 2002, very early in the morning, I believe it was 
about 8:30, I was notified there was a fire southeast of 
Overgaard-Heber. The Rodeo fire had been burning for about 2 
days. At this point we were all a little jumpy. I made contact 
with a local resident, Mr. Pat McLeod at our local air park. We 
flew down to the location of the fire near Chediski on the Fort 
Apache Indian Reservation. We were under some flight 
restrictions and we were unable to get any closer than about 
10,000 feet to the fire. These conditions made viewing a little 
difficult, which required us to stay above the 10,000 foot 
levels, however, we got what I felt was a fairly good look at 
the fire and the area it had consumed to this point.
    I saw a helicopter with a drop bucket. I assumed he was 
working to control the fire. It appeared it was working what I 
thought to be the leading edge of the fire, the uphill side. We 
estimated the fire had consumed approximately 150 to 200 acres. 
I commented to Mr. McLeod, I felt as though this fire could be 
no real big threat to us in our area. Mr. McLeod agreed and we 
returned to the air park located in Overgaard. At this point in 
time, our primary concern of course was the Rodeo fire, which 
our neighbors in the communities to the east of us were 
experiencing.
    We had three of our units assigned to this fire, to a team 
in Clay Springs and Pinedale, our closest neighbors to the 
east. The were recalled home a little later in the day as 
conditions in our community appeared to worsen. Approximately 
1.5 hours after returning to my office, I received a telephone 
call from the Forest Service dispatch center. They informed me 
that the Chediski fire had increased to over 2000 acres. I 
realized we were in some serious danger. I notified the county 
sheriff's office and informed them that we were setting up a 
command center in our fire station. I expressed my desire to 
prepare for evacuation of the community, as these messages were 
going out over the air for Show Low, Pine Top and Lakeside. We 
established our command center in the fire station. The 
sheriff's department joined us. Just after noon, the sheriff's 
officers, with assistance from our personnel, made a street-by-
street, house-by-house notification of all to be prepared to 
evacuate within 1 hour after notification. This, as well as the 
actual evacuation, was accomplished by our using vehicle public 
address systems and door-to-door notification. There is no 
other means in our community.
    We began to contact suppliers and request special supplies 
and equipment such as tools, bottled water, Gatorade, Class A 
foam and food. At around half past two, some support services 
began to arrive. We had earlier called the State Land 
Department and told them of our situation. They in turn had 
told us that they were watching the fire and that they did 
think that we were probably in some trouble. Several structure 
teams and crews began to arrive, as did a structural protection 
box. Just before 4 p.m., I made the decision to evacuate the 
residents of the community. My decision was based on the 
reports I received regarding the fire behavior. Heavy smoke and 
tremendous amounts of ash had begun to enter the community. The 
vast majority of the residents offered no resistance to the 
request to evacuate. Conditions within the community were 
rapidly changing. Community members could see we were most 
likely in the past of the approaching fire. By early afternoon, 
television stations had discovered the second fire, the 
Chediski fire, and began reporting its rapid encroachment on 
the communities of Heber-Overgaard and Forest Lakes. I believe 
that had some effect on the residents of our community. I 
believe it assisted us in our evacuation efforts.
    Manpower, equipment and supplies continued to arrive. The 
next couple of days were spent triaging properties throughout 
the communities' neighborhoods and homes. The triage was being 
performed by fire crews which had current red cards and 
approved equipment.
    There were literally dozens and dozens of pieces of 
equipment staged in and around the Heber-Overgaard fire 
station. There was also many operators. They were very upset we 
would not give them permission to enter the forest. We learned, 
as many of these folks checked in, they could not produce any 
documentation of their equipment passing inspection or their 
having any personal red cards. The absence of either of these 
documents will disqualify them from working in wildland fires.
    In the first 3 days of the incident, we did not have the 
expertise nor the capability to inspect their equipment. The 
equipment consisted of bulldozers, log skidders, backhoes, 
water trucks and a large variety of fire apparatus as well as 
support vehicles.
    The purpose of these inspections and the red card is, of 
course, to not only qualify the equipment and the individual, 
but also to let us know with what and whom we are dealing with. 
Our posture on this subject stirred a lot of discontent and 
anger with many of these individuals. I stood firm on my 
decision to exclude these pieces of equipment and individuals 
for safety reasons. We relaxed our policy only to those we knew 
to be qualified. My feeling on this decision was to err on the 
side of caution, especially when human life is in the equation.
    We found another problem on Thursday. We had well over 150 
people to feed in our fire station. We made contact with the 
Salvation Army camp within our community and we asked them if 
they would remain on the site and assist with food and food 
preparation. That proved to be a very vital decision to our 
entire operation.
    By mid-morning Saturday, we were dealing with well over 500 
people. Although many of these people were unable to work, they 
still had to be fed. We were receiving a tremendous amount of 
supplies, some of which we ordered and some we still do not 
have any clue where they came from or why they were sent. We 
had seven apparatus bays in our station, four of which were 
used for feeding the crews. The remaining three bays as well as 
numerous rooms throughout the station were used to store a wide 
variety of supplies. We are still dealing with a great deal of 
these items.
    Saturday afternoon around 5 p.m., the fire storm hit at 
least seven neighborhoods in the Overgaard area. Most of our 
resources were directed to these neighborhoods and at the end 
of the night we suffered over 230 structures lost to the fast-
paced fire.
    As I visited with many of the front line firefighters, many 
of which were veterans of literally hundreds and hundreds of 
fires, the comments were pretty much the same, ``I have never 
witnessed anything like this in my entire career.'' I have to 
echo that statement. At midnight I met with the local Forest 
Service group. We mapped out a plan to cut a fire line through 
the very volatile section of our community. It was all our fear 
this would be the next target of the fire. The fire seemed to 
take a breather during the early morning Sunday hours. This, of 
course, gave us the opportunity to complete that fire line and 
it worked. We were successful in diverting the fire within this 
particular section. I am convinced we were divinely favored. If 
the fire had came through that section, I am sure we would not 
have had any success in stopping it. We would have lost several 
hundred additional structures, including our fire station. In 
fact, we cut over 30 mature Ponderosa pines adjacent to the 
fire station as a prevention and protection measure.
    Sunday morning, we found ourselves with the responsibility 
to feed over 800 hungry people three times a day. We were now 
using forcible entry into some of the businesses in our 
community to obtain necessary essentials to keep this operation 
up and running. We were confiscating food, auto parts, tools 
and equipment. I would like to add at this point, there was no 
one in our operation that had ever worked in an incident of 
this magnitude. Most of them being volunteers that had never 
served on any kind of an incident command system. We were all 
on virgin turf. However, we were pulling it off and doing a 
pretty good job.
    The reason I say that is because late Sunday morning, a 
Type II team arrived from Alaska. Up to this point, we local 
Arizona firefighters had been working on our own. There were a 
dozen or so that came to our command center. The team leader 
was a fellow named Kato Howard--I think that is correct, but I 
am not sure, I am not real clear on his name. He and his staff 
looked our operation over, he said he wanted to leave 
everything as it was. He said he was impressed with our 
operation and our command structure. I remained as the incident 
commander and Kato would stop in for briefings in the morning 
and a couple of times throughout the day. He was working to a 
great degree to the west of us in the Forest Lakes area. Some 
of his people met with out staff. They said they could be of 
great assistance to our efforts and they wanted to support our 
system. The following is not a criticism but merely a report of 
what took place.
    A fellow from this group said that they would take over the 
food. He convinced us that he was better equipped to handle the 
job than our folks were. We welcomed the assistance. The 
assistance he offered was coming from Cibecue, approximately 70 
miles away from our location. The food was late, cold and 
certainly of lesser quality than that that our shift crews had 
prepared and served. Several times when meals were 
unexplainably late, our crews prepared meals themselves. Many 
of the fire crews were vocally unpleased with our newfound 
assistance. On occasion, the food they supplied us with was 
thrown away due to the poor quality, cold or late.
    A lady met with our financial chief and took several days' 
sign-in sheets. These sheets were lost in the system for 
several days. That caused a great deal of distress in our 
staff. We had hammered them from the onset of this incident of 
the importance of accurate recordkeeping.
    An inspection team was now inspecting some of the 
equipment, which had been standing idle for up to 4 days. The 
problem we found with this process was too little too late. 
Seems the vast numbers of equipment and only one or two 
inspectors hampered the process, making it very slow. Tempers 
had a tendency to blow up very frequently.
    If the infractions that kept a piece of equipment out of 
service were minor such as fire extinguishers or something of 
that nature, our personnel made those things available to those 
crews.
    On Sunday, we lost one structure. Now that is pretty bad in 
Heber-Overgaard, but compared to what we lost the previous day, 
we felt really blessed. Fire crews spent the day Sunday 
battling spot fires over a wide area, which included over a 
dozen neighborhoods. Hot shot crews were deployed throughout 
the forest. They were desperately trying to build fire lines by 
hand in an effort to control the fire.
    There were dozens of dozers building fire lines in attempts 
to stop the fire's rapid spread. Some of their efforts paid 
off, but much too often, there was too much fire to stop.
    Monday arrived with its own set of problems. The fire was 
making an assault on another section of our community, west of 
its previous attack.
    We deployed most of our structure crews, hot shot crews and 
slurry attack bombers. When the fire made its assault, it came 
through at least five fronts. Each of these fronts came via 
small canyons or draws, all of which contained some very 
expensive homes. At the end of the siege, we lost over 30 
additional structures. This brought our grand total of 268 
structures. That was the end of our structure loss, however we 
did not realize that for about a week after that was over, 
because we kept expecting the fire to come back.
    On Monday evening about 9:00, I received a visit from a 
gentleman by the name of Kim Martin. Mr. Martin was a Type I 
team leader. He had several people on his staff with him. He 
informed me he was taking command of the fire. He was very 
courteous and polite, he asked if I would work with him in a 
unified command structure. After our experience with the Type 
II team, I was a little skeptical. He said he would assume 
command the following evening, and that was on Tuesday, at 6 
p.m.
    He moved the entire command and operation center to a large 
local Salvation Army camp. A visit to the new command center 
removed any skepticism on my part. A very large transformation 
was taking place, and I believe it was the best thing for us. 
The problem fire was a continual threat to our community for 
well over a week after the Type I team arrived.
    I have been in the fire service since 1968 and I have faced 
some pretty traumatic and volatile situations. I have, however, 
never been in a situation so intense, and pardon the 
expression, stressful, in my entire career. I remember on 
several occasions in the early morning hours, 2 or 3 a.m., just 
sitting down and thinking ``will this ever go away.'' What can 
be done to prevent some other poor, unsuspecting slob and his 
community from experiencing what we lived with for over 2 
weeks?
    First and foremost, clean up the forest. We have gone from 
an acceptable condition to the far extreme. As I earlier 
stated, the Forest Service is the organization selected to be 
the stewards over our forest lands. I am not 100 percent 
convinced that they do all they should and could to prevent the 
kind of thing that we have recently experienced. I almost 
believe their excuse of the blockage by special interest groups 
has become more an of an excuse than a legitimate reason. It 
seems that is a pretty standard answer by all levels of Forest 
Service employees without even a hint of hesitation or 
research.
    I believe a very aggressive attempt, with some backing from 
lawmakers, could go a long way toward eliminating this problem. 
It is not over. The same thing could and probably under current 
conditions will happen again very soon. After what our 
community has experienced and the destruction we are dealing 
with, I am convinced if we do not repair our broken forest 
system, it is a crime and someone or something should have to 
be punished for it. It is allegations problem, it is broken and 
it does need to be fixed. And I am not exactly sure what it is 
going to take for that to happen. I do not know that it is my 
job to figure that out. I think there are some powers above me 
that need to take care of that. I honestly believe that the 
beginning of the end came when the logging and the cattle 
industry were eliminated from the equation of our recipe for a 
healthy forest. Cattle grazing can be and, from what I know, is 
easily controlled. The fast burning grass-like fuels can be 
controlled by a well-managed grazing system.
    The lumber industry has at least proven to me that they are 
pretty darned good as forest managers. The lumber forests that 
they currently control do not look anything like what we are 
surrounded by. The forests are healthy and beautiful, the trees 
are properly spaced and harvested in acceptable intervals. They 
are not overly stressed, competing for the little amounts of 
moisture that they receive or the insect infestation. These 
forest produce a usable product and serve all the other 
purposes as well, and in most cases look and feel better than 
those that we have around us. How is it private industry can 
and does make this work and we just cannot seem to get the hang 
of it?
    I am not a logger, nor am I a cattleman and I do not have 
any special ties with anyone or any organization in this 
industry. However, I do know things were not in the state that 
we are currently experiencing when these industries were a part 
of the solution. I am aware of most of what has brought us to 
this point. In simple terms, it is called the tail wagging the 
dog.
    The result of this catastrophic incident has not only left 
some ugly visual scars on our community and surrounding area; 
it has a long-lasting financial depression on it as well. A 
dollar loss of over $40 million has been estimated for the 
Heber-Overgaard area alone. That estimate is structural damage 
only. The forest has its own price tag. Our fire department 
budget will be affected for many years as a result of this 
catastrophic fire.
    This small unincorporated community was not at fault for 
this incident. However, we will be required in one way or 
another to pick up the tab for something or someone else's 
shortcomings.
    I am not implying the government picks up any additional 
costs. I am aware these fires have cost more millions than I 
can count. That is specifically why I believe we must practice 
proactivity instead of reactivity.
    During the initial stages of the Chediski fire, as it 
seemed to be growing in astronomical leaps, I remember 
wondering several whys:
    A. Why did we not take the fire serious before it got 
totally out of control? They were dealing with the Rodeo fire--
same fuel, same terrain, same weather conditions and same 
direction.
    B. Why did those in charge believe the Chediski fire would 
be slower, smaller or less devastating than the Rodeo fire?
    C. Why must a fire reach a certain size or meet certain 
criteria before the big guys take it serious and take steps to 
extinguish it?
    [Applause.]
    Mr. Epps. Why were we left to fend four ourselves for so 
long before we got that much-needed assistance? Had our side of 
the fire been taken as serious as the Rodeo fire, our losses 
could have been kept at a minimum. It has become very clear to 
me, fires of the nature we experienced, with the volume of fuel 
present in our forests, especially when the conditions are as 
dry as they currently are, should be extinguished at all costs 
as soon as possible, regardless of their location, be it public 
lands, private lands or reservation.
    [Applause.]
    Mr. Epps. When a fire or similar incident of this size is 
in progress, it generates a lot of problems for local agencies. 
I am referring mostly to financial problems, some of which are 
long-term. We have come to refer to this as the ``Second 
Disaster.''
    We realized very early into this operation that we needed 
to maintain some records on just about everything and anyone 
that we dealt with. We appointed a finance officer to attempt 
to track our financial trail. This individual is our full time 
administrative assistant. She is totally familiar with our 
department and our day-to-day activities and practices. 
Unfortunately, we, like most, were not familiar with how 
incidents on this level are run. We did not know all of the 
procedures required in retrieving payment from all the 
different government agencies. I am relatively sure most 
organizations in our situation would have had similar 
difficulties. I am positive, based on what we have experienced 
with the financial side of this incident, we will be dealing 
with some of this for several years to come.
    We were told when we were dealing with this fire that we 
should have done this and we should have done that. Our 
response to them was next time we are going to have a fire like 
this, please contact us 2 weeks ahead of time with a brochure 
telling us what we are supposed to do.
    [Laughter and applause.]
    Mr. Epps. When an incident begins to look as though it has 
a chance to escalate into a major event, especially when a 
number of different agencies will be involved, I make the 
following request and recommendation. Dispatch a financial 
consultant familiar with all the different agencies' policies. 
We are currently searching for agencies which will pay some of 
the expenses we incurred as a result of this fire. The 
following is a list of categories of agencies which we are 
currently dealing with:
    Arizona State Land Department
    Federal Emergency Management Agency
    Bureau of Indian Affairs
    Arizona Department of Emergency Management
    Navajo County Emergency Services
    United States Forest Service, Sitgreaves and Tonto
    Fort Apache Indian Reservation
    Arizona State Governor's Office
    And Bureau of Land Management.
    We are a small department with 10 full time employees and 
25 volunteers. This is out of our realm of expertise.
    Each of these agencies had their own set of rules and there 
is a wide variation from one to another. It becomes one more 
area where organizations such as ours are loaded down with 
rules and regulations we are unfamiliar with. They bog us down 
with their red tape and their bureaucracy. We spend hours, 
days, weeks and months attempting to identify the proper agency 
for the right payment.
    Another situation which reared its ugly little head was 
wage disparity--two individuals working side by side, doing the 
same job, drawing different scales--$14.00 an hour as opposed 
to $26.00 an hour. The only difference we have been able to 
find is the agency they are working through. Arizona State Land 
is $14.00 an hour and the Federal Government is $26.00 an hour.
    The best we can figure, all the money comes from FEMA, so 
why the disparity? This factor has created some very serious 
problems in our agency. I am of the believe all would have been 
fine with the wages established in contracts by the Arizona 
State Land Department of $14.00 an hour if FEMA had not come 
and paid twice that amount. Seems they should do whatever is 
necessary to make sure to stay on the same pace with the 
locals.
    I certainly do not profess to be any kind of an expert on 
this and have all the answers and know what the Forest Service 
is supposed to do. We obviously do have a serious shortcoming 
in our forest management skills. The problems should be 
determined and a solution should be conceived. Anything less 
will keep things as they are and as far as I am concerned, that 
is totally unacceptable.
    [Applause.]
    Mr. Epps. I submit this testimony to you, gentlemen, and 
just want to express again my thanks to you for allowing me to 
come here. I have no bad feelings toward anyone or any 
organization, I just think it is like Kevin Hooney said when he 
was taken away as the trainer for Mike Tyson, ``If it ain't 
broke, don't fix it.'' This is broke and it does need to be 
fixed.
    I want to say this too, for the first four or 5 days of 
this fire, if it had not been for Mr. Behrens and his 
organization, there would be no Heber-Overgaard here today. 
Those things would not have happened, we would not have been 
able to stop this fire. I do not know where they came up with 
these things. I know that they have got a magic wand someplace 
and they pulled this stuff out of a hat because everybody was 
sent over to the east of us and there was a big fire going on 
there, yet they found some people to send to us and they send 
some good people over there. That is the only reason that 
Heber-Overgaard is there today.
    Thank you very much.
    [Applause.]
    Mr. Hayworth. Chief, thank you.
    [Applause.]
    [The prepared statement of Mr. Epps follows:]

    Statement of Mell Epps, Chief, Herber-Overgaard Fire Department

    Let me begin by stating; I have no ill feelings or animosity toward 
any individual or groups as a result of these tragic fires. I believe I 
came away from this incident with a far better idea of what we as 
individuals and organizations can do to make these types of situations 
a lesser threat and possibly eliminate much of their destruction. I can 
assure all of you this fire could have been prevented. I'm not 
interested in discussing or commenting a great degree on how the fires 
(Rodeo-Chediski) got started. I'm convinced they would have gotten 
started regardless: careless smoking, unattended campfires, motorized 
vehicles or even lighting strikes.
    It's clear, there were two factors, which made this fire, the 
largest in Arizona history, (over 450,000 acres), the incident it was: 
1.) The very dry conditions of the forest. We are in a drought, which 
causes conditions to be far more critical than normal. We have known 
for some time of these extremely hazardous and dry conditions, all of 
us, both local and national agencies. These severe dry conditions made 
ignition and combustion inevitable 2.) Over the past several decades 
cleaning the combustible debris out of the forest has become the 
exception instead of the rule. Our local forest is a prime example. We 
had an average of 25 tons of fuel per acre, which should for the safety 
of communities' such as ours and the health of the forest itself, be 
eliminated or at least reduced to an acceptable level.
    This fire had entirely too much fuel in its path from its beginning 
until its arrival in our community. The fire fronts were in excess of 
two hundred (200) feet in height with temperatures in excess of two 
thousand (2000) degrees. I sincerely believe it's unfair for any 
community to be subjected to these kinds of unnecessary exposures and 
risks. Especially when they could have been eliminated. Somewhere at 
some date in time, some government body decided the US Forest Service 
would be the stewards for our forests. For a lot of reasons, some I'm 
sure are totally out of their control, they've kind of dropped the 
ball. I've been in forests all across the state of Arizona. I've yet to 
find one where the condition places it in the safe zones. I'm told 
there are some, I've just not viewed them.
    I would like to give this group a description of the events, which 
occurred after the fire was started and discovered. On June 20, 2002 
very early in the morning (I believe about 8:30 am) I was notified a 
fire was Southwest of Heber-Overgaard. The Rodeo fire had been burning 
for two days at this point so we were all a little jumpy. I made 
contact with a local resident Mr. Pat Mcleod at our local Air Park. We 
flew to the fire location near Chediski, on the Fort Apache Indian 
Reservation. We were under some flight restrictions; these conditions 
made viewing the fire difficult, which required us to stay above the 
ten thousand-foot levels. However, we got what I felt was a fairly good 
look at the fire and the area it had to this point consumed.
    I saw a helicopter with a drop bucket. I assumed he was working to 
control the fire. It appeared he was working what I thought to the 
leading edge of the fire (uphill side). We estimated the fire had 
consumed approximately one hundred fifty to two hundred (150-200) 
acres. I commented to Mr. Mcleod, I felt as though this fire should not 
be a big threat to our area. Mr. Mcleod agreed and we returned to the 
Air Port located at the Air Park in Overgaard. At this point in time 
our primary concern was the Rodeo Fire which our neighbors in the 
communities east of us were experiencing.
    We had three (3) of our units assigned to the fire team in Clay 
Springs and Pinedale, our closest neighbors on the east. They were 
recalled home a little later in the day, as conditions in our community 
appeared to worsen. Approximately one and one half-hour after I 
returned to my office, I received a telephone call from the Forest 
Service dispatch center. They informed me the Chediski Fire had 
increased to over two thousand (2000) acres. I realized we were in 
serious danger. I notified the County Sheriffs Office and informed them 
we were setting up a command center in our fire station. I expressed my 
desire to prepare for evacuation of the community, which was their 
responsibility. I requested all our off duty folks both career and 
volunteer be summoned to the Fire Station for assignment. I notified 
the State Land Department we were in harms way and would need 
assistance. Once my staff was in place we made some very quick and 
complex assignments. We established our command center in the Fire 
Station. The Sheriffs Department joined us. Just after noon the 
Sheriffs Officers with assistance from our personnel made a street by 
street, house by house notification to all ``to be prepared to evacuate 
within one hour after notification. This as well as the actual 
evacuation was accomplished by our using vehicle public address systems 
and door to door notification. There is no other means within our 
community.
    We began to contact suppliers and request special supplies and 
equipment such as; tools, bottled water, Gatorade, Class ``A'' Foam and 
food. At around half past two (2:30) p.m. some support services began 
to arrive. Several structural protection crews arrived, as did a 
structural protection boss. Just before four (4:00) p.m. I made the 
decision to evacuate the residents of the community. My decision was 
based on reports I received regarding the fire behavior. Heavy smoke 
and tremendous amounts of ash began to enter the community. The vast 
majority of residents offered no resistance to the request to evacuate. 
Conditions within the community were rapidly changing. Community 
members could see we were most likely in the path of the approaching 
fire. By early afternoon television stations had discovered the second 
fire (Chediski) and began reporting its rapid encroachment on the 
communities of Heber-Overgaard and Forest Lakes. I believe that had 
some effect on residents in our communities. I believe it assisted us 
in our evacuation efforts.
    Manpower, equipment and supplies continued to arrive. The next 
couple of days were spent triaging properties throughout our 
communities' neighborhoods. The triage was being performed by fire 
crews, which had current red cards and approved equipment (apparatus).
    There were literally dozens and dozens of pieces of equipment 
staged in and around the Heber-Overgaard Fire Station. There were also 
as many operators. They were very upset we would not give them 
permission to enter the forest. We learned, as many of these folks 
checked in, they could not produce any documentation of their equipment 
passing inspection or their having personal Red Cards. The absence of 
either of these documents will disqualify them from working a Wild Land 
Fire.
    In the first three days of the incident we did not have the 
expertise or the capability to inspect their equipment. The equipment 
consisted of bulldozers, log skidders, backhoes, water trucks, and a 
large variety of fire apparatus as well as support vehicles.
    The purpose of these inspections and the red card is of course to 
not only qualify the equipment and the individual but also let us know 
what and whom we are dealing with. Our posture on this subject stirred 
a lot of discontent and anger with many of these individuals. I stood 
firm on the decision to exclude these pieces of equipment and 
individuals for safety reasons. We relaxed our policy only to those we 
knew to be qualified. My feeling on this decision was to ``error on the 
side of caution'' especially when human life is in the equation.
    We found another problem on Thursday. We had well over one hundred 
fifty people to feed. We made contact with the Salvation Army camp 
within our community. We asked them if they would remain on their site 
and assist with food and food preparation. That proved to be a very 
vital decision to our entire operation.
    By mid morning Saturday we were dealing with well over five hundred 
(500) people. Although many of these individuals were unable to work, 
they still had to be fed. We were receiving a tremendous amount of 
supplies. Some of which we ordered and some we still don't have a clue 
where it came from or why they sent it. We have seven (7) apparatus 
bays in our station, four (4) of which were used for feeding the crews. 
The remaining three (3) bays as well as numerous rooms throughout the 
station were used to store a wide variety of supplies. We are still 
dealing with a great deal of those items.
    Saturday afternoon around five (5) p.m. the fire storm hit at least 
seven (7) neighborhoods in the Overgaard area. Most of our resources 
were directed to those neighborhoods and at the end of the night we 
suffered over two hundred thirty (230) structures lost to the fast 
paced fire.
    As I visited with many of the front line firefighters many of which 
were veterans of literally hundreds and hundreds of fires, the comments 
were pretty much the same; ``I've never witnessed anything like this in 
my entire career''. I have to echo that statement. At midnight I met 
with the local Forest Service group. We mapped out a plan to cut a fire 
line through a very volatile section in our community. It was all our 
fear this would be the next target of the fire. The fire seemed to take 
a breather during the very early Sunday morning hours. This of course 
gave us the opportunity to complete the planned fire line, It worked. 
We were successful in diverting the fire within this particular 
section. I'm convinced we were divinely favored. If the fire had came 
through that section, I'm sure we would not have been successful in 
stopping it. We would have lost several hundred additional structures 
including our Fire Station. In fact we cut over thirty Ponderosas Pine 
trees adjacent to our Fire Station, as a fire prevention and protection 
measure.
    Sunday morning we found ourselves with the responsibility to feed 
over eight hundred- (800) hungry people three (3) times a day. We were 
now using forcible entry into many of the businesses in our community 
to obtain the necessary essentials to keep this operation up and 
running. We were confiscating food, auto parts, tools, and equipment. I 
would like to add at this point there was no one in our operation that 
ever worked in an incident of this magnitude. We were all on virgin 
turf. Somehow we were pulling it off and not doing a half-bad job.
    The reason I say that is because late Sunday morning a type II team 
arrived from Alaska. Up to this point we (local Arizona fire fighters) 
had been working on our own. There was a dozen or so that came to our 
command center. The team leader was a fellow named Kato Howard (I 
believe that's correct). He and his staff looked our operation over. He 
said he wanted to leave everything as it was. He said he was impressed 
with our operation and our command structure. I remained as the 
incident commander and Kato would stop in for briefings in the morning 
and a couple of times throughout the day. He was working to a great 
degree to the west of us, in the Forest Lakes area. Some of his people 
met with our staff. They said they could be of great assistance to our 
efforts, and they wanted to support our system. The following is not a 
criticism but merely a report of what took place:
    1.) LA fellow from this group said he would take over the food. He 
convinced us he was better equipped to handle the job than our folks 
were. We welcomed the assistance. The assistance he offered was coming 
from Cibique. Approximately seventy (70) miles away. The food was late, 
cold and certainly of lesser quality than that our shift crews prepared 
and served. Several times when meals were unexplainably late our crew 
prepared meals. Many of the fire crews were vocally unpleased with our 
newfound assistance. On occasion the food they supplied was thrown away 
due to the poor quality and/or because it was late and cold.
    2.) LA lady met with our financial chief and took several days sign 
in sheets. These sheets were lost in the system for several days. That 
caused a great deal of distress to our staff. We had hammered them from 
the onset of this incident of the importance of accurate record 
keeping.
    3.) LAn inspection team was now inspecting some of the equipment, 
which had been standing idle for up to four (4) days. The problem we 
found with this process was too little too late. Seems the vast numbers 
of equipment and only one or two inspectors hampered this process 
making it slow. Tempers had a tendency to blow up very frequently.
    If the infractions that kept a piece of equipment out of service 
was minor i.e. ``no fire extinguisher'' our personnel made 
extinguishers available.
    On Sunday we lost one structure, which is bad enough, but compared 
to the previous day we felt really blessed. Fire crews spent all day 
Sunday battling spot fires over a very wide area. Which included over a 
dozen neighborhoods. Hot Shot Crews were deployed throughout the 
forest. They were desperately trying to build fire lines by hand in an 
effort to control the fire.
    There were dozens of bulldozers building fire lines in attempts to 
stop the fires rapid spread. Some of their efforts paid off but much 
too often, there was just too much fire to stop.
    Monday arrived with it's own set of problems. The fire was making 
an assault on another section of our community, west of its previous 
attack.
    We deployed most of our structure crews, hot shot crews and slurry 
attack (air tankers) bombers. When the fire made its assault, it came 
on at least five (5) fronts. Each of these fronts came via small 
canyons and draws. All of which contained very expensive homes. At the 
end of the siege we lost over thirty (30) additional structures. This 
brought our grand total of loss to two hundred sixty eight (268) 
structures. That was the end of our structure loss, however, we did not 
realize our major losses were over. That knowledge did not come for 
over a week.
    On Monday evening at about nine (9) p.m. I received a visit from a 
gentleman by the name of Kim Martin. Mr. Martin is a type I team 
leader. He had several people of his staff with him. He informed me he 
was taking command of the fire. He was very courteous and polite. He 
asked if I would work with him in a unified command structure. After 
our experience with the type II team, I was a little skeptical. He said 
he would assume command the following evening (Tuesday) at six (6) p.m.
    He moved the entire command and operation center to a large local 
Salvation Army Camp. A visit to the new command center removed any 
skepticism on my part. It became very clear to me this team came to 
resolve the problem at any cost. A very large transformation was taking 
place, and I believe it was the best thing for us. The problem fire was 
a continual threat to our community for well over a week after the type 
I team arrived.
    I have been in the fire service since 1968. I faced some very 
traumatic and volatile situations. I have however, never been in a 
situation so intense. (Pardon the use of a very over used term) and 
stressful in my career. I remember on several occasions in the early 
morning hours (2 or 3 am) just sitting down and thinking: ``will this 
ever go away ? What can be done to prevent some other poor unsuspecting 
slob and his community from experiencing what we lived with for over 
two weeks?
    1.) LFirst and foremost, clean up the forest. We've gone from an 
acceptable condition to the far extreme. As I earlier stated, the US 
Forest Service is the organization selected to be the stewards over our 
forestlands. I'm not 100% convinced they do all they should and could 
to prevent the kind of thing we've recently experienced. I almost 
believe their excuse of the blockage by ``special interest groups'' has 
become more an excuse than a legitimate reason. Seems that's a pretty 
standard answer by all levels of Forest Service employees without even 
a hint of hesitation or research.
    I believe a very aggressive attempt with some backing from 
lawmakers could go a long way toward eliminating the problem. It's not 
over. The same thing could and probably under our current conditions, 
will happen again very soon. After what our community has experienced 
and the destruction we are dealing with, I'm convinced if we do not 
repair our broken forest system, it's a crime and someone or something 
should be punished. It is broken so we need to fix it. I'm not exactly 
clear on what its going to take or how we need to go about correcting 
it. I honestly believe the beginning of the end came about when the 
logging and the cattle industry were eliminated from the equation of 
our recipe for a healthy forest. Cattle grazing can be and from what I 
know is easily controlled. The fast burning grass like fuels can be 
controlled by well managed grazing programs.
    The lumber industry has at least proven to me, they are pretty darn 
good forest managers. The lumber forests they currently control do not 
look anything like what we are surrounded by. Those forests are healthy 
and beautiful. The trees are properly spaced and harvested at 
acceptable intervals. They are not overly stressed competing for the 
little amounts of moisture they receive or insect infestation. Those 
forests produce a useable product and serve all the other purposes as 
well, and in most cases look and feel better than those managed by the 
Forest Service. How is it private industry can and does make this work 
and we just can't seem to get the hang of it?
    I'm not a logger or a cattleman nor do I have any special ties to 
anyone in those industries. However, I do know things were not in the 
state we are currently experiencing when these industries were a part 
of the solution. I am aware of most of what has brought us to this 
point. In simple terms it's called the ``tail wagging the dog''.
    The result of this catastrophic incident has not only left some 
ugly visual scars on our community and surrounding area. It has a long 
lasting financial depression on it as well. A dollar loss of over forty 
million ($40,000,000.00) dollars has been estimated for the Heber-
Overgaard area alone. That estimate is structural damage only. The 
surrounding forest has it's own problems. Our Fire Department budget 
will be affected for an undetermined amount of time.
    This small-unincorporated community was not at fault for this 
incident, however; they will be required in one way or another to pick 
up the tab for something or someone else's shortcomings.
    I'm not implying the government picks up any additional costs. I'm 
aware these fires have cost more millions than I care to think about. 
That is specifically why I believe we must be proactive instead of 
reactive.
    1.) LDuring the initial stages of the Chediski Fire, as it seemed 
to be growing in astronomical leaps, I remember wondering several whys:
        A. LWhy did they not take the fire serious before it got 
        totally out of control? They were dealing with the Rodeo Fire. 
        Same fuel, same terrain, same weather conditions, and same 
        direction.
        B. LWhy did those in charge believe the Chediski Fire would be 
        slower, smaller or less devastating than the Rodeo Fire?
        C. LWhy must a fire reach a certain size or meet certain 
        criteria before the big guys take it serious and take steps to 
        extinguish it?
        D. LWhy were we left to fend for ourselves for so long before 
        we got that much-needed assistance. Had our side of the fire 
        been taken as serious as the Rodeo Fire, our losses could have 
        been as small as those experienced by our neighbors to the 
        east. It's become very clear to me fires of the nature we 
        experienced, with the volume of fuel present in our forest, 
        especially when conditions are as dry as they currently are 
        should be extinguished at all costs as soon as possible. 
        Regardless of their location be it: public lands, private lands 
        or reservation.
    2.) LWhen a fire or similar incident of this size is in progress, 
it generates a lot of problems for local agencies. I'm referring to 
mostly financial problems. Some of which is long term. We have come to 
refer to this as the ``Second Disaster''.
    We realized very early (day one) we would need to maintain a record 
of just about everything and everybody we dealt with. We appointed a 
finance officer to attempt to track our financial trail. This 
individual is our full time administrative assistant. She is totally 
familiar with our department or our day to day practices. Unfortunately 
we like most was not familiar with how incidents on this level are run. 
We did not know all the procedures required in retrieving payment from 
all the different government agencies. I'm relatively sure most 
organization in our situation would have similar difficulties. I'm 
positive, based on what we've experienced, with the financial side of 
this incident, we will be dealing with some of this for several years 
to come.
    When an incident begins to look as though it has a chance to 
escalate into a major event; especially when a number of different 
agencies will be involved, I make the following request and 
recommendation. Dispatch a financial consultant familiar with all the 
different agency policies. We are currently searching for agencies, 
which will pay some of the expenses we incurred as a result of the 
fire. The following is a list of agencies we have and are currently 
dealing with:
    1. Arizona State Land Department
    2. Federal Emergency Management Agency
    3. Bureau of Indian Affairs
    4. Arizona Department of Emergency Management
    5. Navajo County Emergency Services
    6. U.S. Forest Service (Apache Sitgreaves) (Tonto)
    7. Fort Apache Indian Reservation
    8. Arizona State Governors Office
    9. Bureau of Land Management
    Each of these Agencies has their own set of rules and there is a 
wide variation from one to another. It becomes one more area where 
organizations such as ours are loaded with rules and regulations were 
unfamiliar with. They bog us down with the red tape of their 
bureaucracy. As we spend hours, days, weeks and months attempting to 
identify the proper agency for the right payment.
    10. LAnother situation, which reared its ugly little head, was 
``Wage Disparity''. Two individuals working side by side doing the same 
job, drawing different wage scales. $14.00 per hour opposed to $26.00 
per hour. The only difference we've been able to find is; the agency 
they are working through. Arizona State Land Department $14.00 per hour 
Federal Government (FEMA) $26.00.
    The best we can figure, all the money comes from FEMA so why the 
disparity? This factor has created some very serious problems for our 
agency. I'm of the belief, all would have been fine with the wages 
established in contracts by the Arizona State Land Department ($14.00 
per hour) if FEMA had not came and paid over twice that. Seems they 
should do whatever is necessary to make sure there on the same pace 
with locals.
    I certainly don't profess to have all the answers to correct our 
current forest management problems. We obviously do have a serious 
shortcoming in our forest management skills. The problem should be 
determined and a solution should be conceived. Anything less will keep 
things as they are and to me that's unacceptable.
    It's also unacceptable to me for legislation dealing with our 
forest in the west be rubber stamped by a legislator in the east. 
Especially if he/she has never walked or even seen what he's/she's 
voting for.
    I submit this testimony to you and will try to answer your 
questions and/or assist in a reasonable solution to a problem I believe 
can destroy our forest system, as we know it.
                                 ______
                                 
    Mr. Hayworth. We thank you for all the testimony from all 
three of you gentlemen. Chief Epps, very compelling testimony 
about the nature of what you confronted. As we look through 
your eight pages of testimony, toward the end, you tell us you 
are dealing with nine different agencies, you extol the virtues 
of our friends from the State Land Department and we duly note 
that in the record.
    I guess the simplest way to say it, maybe it is easier said 
than done. We need to streamline those with whom you deal.
    Mr. Epps. Yeah. What is stopping us, let us do it.
    Mr. Hayworth. Yeah, we have got to get that done.
    You talk about a financial consultant and you have had a 
situation where you were trying to keep very careful records of 
all that went on so you could know which way you are headed. At 
what point should a financial assistance team arrive during the 
course of one of these crises or should they be on staff ahead 
of time? What should happen with the whole notion of financial 
consultants keeping an eye on the money?
    Mr. Epps. It seems to me--there was a fire going on 2 days 
before ours ever started and it seems to me those people should 
have been onsite long before they were. It was Sunday before 
anybody showed up. Our fire hit on Saturday--excuse me, our 
fire was discovered on Thursday. Our fire was never taken 
serious until it got completely out of control. Once it was out 
of control, it was out of control. We certainly were not going 
to control it. But I think those people should have been here, 
they should have realized--I mean we are not dealing with 
novices here, these people have been through all this before. 
They know what is going on a lot more so than we do. We are 
just a bunch of poor dumb hicks that only get to come to town 
about every 30 days. So we do not know much. But we do know 
that it is broke and it is not going to fix itself, we are 
going to have to fix it.
    Mr. Hayworth. Vice Chairman Shumway, you talked about CPR, 
community partnership--county partnership--we talked about 
working to make this happen. When you look at your goals for 
the county partnership restoration program, in reducing fire 
risk near communities, do you have an estimate of the number of 
acres that could be treated in Arizona, New Mexico and 
Colorado, as you all work together in terms of taking a look at 
the county partnership program? What kind of area are we 
talking about here?
    Mr. Shumway. We initiated the CPR program, the county 
partnership program, to address all of the national forests 
across the west. We initially got together with the Apache 
Sitgreaves, the Lincoln in New Mexico and the Gemot in Colorado 
because we felt we had some similar interests. We did this a 
number of years ago. This is not something that we have done 
since the fire. We have been to Washington in the last year 
five times prior to the Chediski fire. We worked with you, Mr. 
Chairman, we appreciate your input, Mr. Kyl of the Senate side, 
we worked with the Senators in New Mexico and Colorado. We 
recognize that all of the forests in the western United States 
need attention. We initiated in these three states a pilot 
program to gain support from the Department of Agriculture, 
following the recommendation of the Congressional delegation, 
the western Governors, knowing that we need to do something and 
we need to do it now.
    The answer is all of the forests need attention. Yes, there 
are some areas where we have done treatment and we know the 
value of treatment. We do not have to go back and reinvent the 
wheel, we know how to do it. We just need the permission to 
move forward.
    Mr. Hayworth. Thank you, Mr. Vice Chairman.
    And again, David, I want to note your presence, thank you 
for your testimony. You have received the highest praise you 
can receive right here from Chief Epps. So we thank you for the 
efforts you have made and the equipment you have had and the 
challenges that you confront.
    I would turn the questions over to my colleague from the 
First District now.
    Mr. Flake. Thank you.
    Mr. Shumway, you have collected a number of signatures, I 
hear lately, on a petition. How many have you got so far?
    Mr. Shumway. We have in excess of 5000 petitions that we 
have delivered to the President through CEQ in Washington, to 
the Chief of the U.S. Forest, to the Secretary of Agriculture, 
to the Under Secretary, and to Senator Jon Kyl.
    [Applause.]
    Mr. Flake. That is commendable. I think that is why you 
have so many on board at this point. Thank you for that effort, 
that really helps us with our colleagues and others as we try 
to move forward.
    Do you see any other way moving forward without a Federal 
disaster declaration? You have dealt with this process for a 
number of years now. Is there any way we can have a good 
resolution to this or moving forward without a disaster 
declaration which will short circuit or expedite NEPA and some 
of the other processes?
    Mr. Shumway. We have two efforts ongoing as we sit here 
today.
    Mr. Flake. Speak about the CPR project first.
    Mr. Shumway. One is the CPR program. And the reason for the 
forest county partnership program, county government receives a 
large portion of their revenues from the Federal lands that 
exist within our county--national forest properties, BLM type 
properties. And we also receive from the State Land Department 
to our schools. But we receive these dollars through forest 
fees and payments in lieu of taxes because they are Federal 
lands. Recognizing not the right for counties to be involved 
with national forests, but the responsibility, we believe in 
implementing the CPR program that we are recognizing the 
responsibility of county governments across the west. And 
frankly, folks, I believe that we have not supported the U.S. 
Forest Service from a local community, from county, from state 
and from the Federal Government, maybe through Congress, 
western Governors. We should have been more proactive a long 
time ago. And that is the reason we have implemented this 
county forest partnership program, to fulfill our local 
responsibility in support of the Forest Service. So that is 
where we are going.
    Mr. Flake. OK. Mr. Epps, it seems that the equipment 
verification process and red card verification process were 
obstacles around the Heber-Overgaard area. How should that be 
done differently, if you were in charge of that completely?
    Mr. Epps. I would not want to be in charge of that 
completely.
    [Laughter.]
    Mr. Flake. I did not ask you that.
    Mr. Epps. I think that--I am not sure how we could handle 
that with the exception that if we--most of this equipment is 
placed in an acceptable state before we ever see it. A lot of 
the people that showed up on our doorstep were people I did not 
know, I had no idea who they were, I did not have any idea 
where they came from or who sent them. And a lot of them were 
private people, they were not associated with any department or 
any district.
    Mr. Flake. Is there any central point that collects who has 
red cards, who is certified, at this point? Should that be the 
county or should that be local fire departments?
    Mr. Epps. It would not be the county, it would probably be 
some--Dave, who would do that?
    Mr. Flake. Mr. Behrens, can you speak to that?
    Mr. Behrens. The red card system, the National NWCG 
training qualification system adopted by Federal partners and 
state partners, county and rural fire departments. And in this 
state, the fire department has the ability to card and give 
training up to what we call a strike team leader.
    Mr. Flake. Are those lists then provided--
    Mr. Behrens. The fire department maintains its list of its 
own qualified people at that level. Once above that level, 
those cards are held by the state.
    Mr. Flake. One follow up. You talked a lot in your 
testimony about dealing with the Type I and Type II management 
teams and there was a lot of frustration in that they do not 
understand local conditions and the area. How should that 
structure and that I guess organizational chart be done 
differently? Should a local individual have more input there or 
be in a position to actually question some calls? What would 
you recommend?
    Mr. Epps. Well, based on my experience, it would be hard to 
determine that. And let me explain that. I have only dealt with 
one Type I team and I have only dealt with one Type II team, 
and that is this fire that we just got through, the one we are 
discussing today. I saw some big shortcomings in the Type II 
team and I saw--I did not see anything that was lacking in the 
Type I team. When I went out and visited that camp, I realized 
that these guys were ready, they come to go to work, they come 
to do some things. They had a lot of jurisdiction, they had a 
lot of expertise. They came to us and they took over a 
situation that we were way under matched and they took this 
situation over and they handled it very well.
    I have heard rumors, as you have, that some of the other 
teams were not quite as good as that, they did not do quite 
that good a job. I do not know about that, that is rumors and I 
cannot really comment on rumors. I just know that my experience 
with these gentlemen and these people was very good.
    Mr. Flake. Thank you.
    Mr. Hayworth. Thank you, Congressman Flake.
    Just one other question before we dismiss the panel. David, 
you mentioned the cards are kept by the state. Now how do local 
communities get access to the knowledge of who has the cards? 
Is there a--
    Mr. Epps. Well, first and foremost, they will not send 
anybody that is not carded. They are not going to send me 
people that are not qualified to go out in the field. A lot of 
the people that we were dealing with have never been through 
this agency or been through our agency. They were people we 
were totally unfamiliar with. Some of our locals we are 
familiar with and we know what they can and cannot do and we 
are willing to give them some leeway. As my testimony 
indicated, we only relaxed our posture on that when we were 
familiar with the people we were dealing with. Some of those 
people we did not know. We had no idea about their equipment or 
anything else.
    Mr. Hayworth. I just did not know if the state, David, had 
a list it sent out or access to a data base, to have a roster 
of people who checked out so that it could be available to 
local departments again when time is of the essence.
    Mr. Behrens. We could give that, we do have a list. But 
most of the cooperating fire departments we are on a first name 
basis with and they recognize if they request help from the 
state, they are only going to get the best.
    Mr. Epps. That is right.
    Mr. Behrens. And they will come carded.
    Mr. Hayworth. Well, gentlemen, we appreciate your 
testimony. There will be more questions we will have that we 
will put in writing to you and we want to thank you for coming 
and being part of this today and we invite you to stay and hear 
the other gentlemen and their points of view. Thank you all 
very much.
    [Applause.]
    Mr. Hayworth. Again for the record, so the others will 
know, the questions we send to the witnesses for written 
response will be forthcoming and we will hold the hearing 
record open 10 days to receive those appropriate responses.
    Panel three, we welcome Mr. Lon Porter, who is the owner of 
Precision Pine and Timber and Dr. Wally Covington of the School 
of Forestry from Northern Arizona University.
    As we bring you up, we thank you and again appreciate the 
fact that you are part of this. Lon, welcome, we are glad to 
have you here. We know Wally is making his way up from the 
audience here and we appreciate him making the trip over from 
Flagstaff.
    Lon, for all those times you have come to Washington, we 
wanted to bring Washington to you here, it is a little bit 
easier we hope right here in the backyard.
    Again, we would like you, if possible, to try and limit 
your oral statements to 5 minutes. Your entire statements will 
appear in the record, but as you have seen this afternoon, 
given the gravity of the testimony and the format and the 
importance to those who joined us here, we have not held 
strictly to those time limits. But they are strong suggestions.
    With that, we welcome you both and Mr. Porter, please, your 
testimony, sir.

   STATEMENTS OF LON PORTER, OWNER, PRECISION PINE AND TIMBER

    Mr. Porter. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here, Mr. Flake, Mr. Hayworth, for the 
opportunity to testify in this Congressional hearing.
    In the beginning, I have lived here in northern Arizona for 
over 50 years and have been associated with the lumber 
manufacturing business in the same region for 25 years. I have 
hiked, camped, hunted in the forests in northern Arizona for 
over 40 years. I have loved these forests, I have fought fires 
in these forests, I have helped manage these forests. 
Therefore, I hope I have something that I might add here that 
will be worthwhile.
    My father, who was born in northeastern Arizona in 1909, 
worked in and owned lumber manufacturing facilities for over 50 
of his 88 years. He told me that when he was a young man, you 
could pick up a rock and throw it in the forest--you know, 
close your eyes, throw it in the forest and almost would never 
hit a tree. Today, if you closed your eyes and threw a rock in 
our forests, it would probably ricochet off several small 
diameter trees before it hit the ground.
    The Southwest Region of the U.S. Forest Service explains 
the reason for the present fire-hazard conditions of the Apache 
Sitgreaves and Tonto National Forests. And this came from their 
scoping document that we received. It says ``As reduction in 
fire frequency over the last century, early Forest Service fire 
suppression policies and high levels of livestock grazing, 
combined with an unusual period of increased precipitation in 
the southwest between 1960 and 1988, has resulted in tree 
densities and are above historic levels of fuel loading 
throughout much of northern Arizona. Insects, disease and 
prolonged drought have combined to create extremely volatile 
fuels over large areas.''
    The fire danger is not new. It has been evolving over a 
long period of time and has existed for years. While tree 
densities, heavy fuel loads and competition of trees for 
groundwater were increasing, thinning and logging were 
decreasing due to frivolous lawsuits filed by pseudo-
environmental groups against the Forest Service. The suspension 
of virtually all Forest Service timber sales--even salvage 
sales--led to the demise of the forest products industry in 
northern Arizona, which was dependent upon raw materials from 
public lands, including a pulp mill between Heber and 
Snowflake, which was really the only real outlet for small 
diameter roundwood. The allowable cut of timber, not including 
roundwood, on the Apache Sitgreaves National Forest, for 
example, in 1992, was approximately 89 million board feet. At 
present, the allowable cut is approximately five million board 
feet and that includes roundwood, firewood and possibly even 
Aunt Agatha's Christmas tree. While many are led by the pseudo-
environmental movement to believe that to save a few trees is 
to save a forest, the wise by now have learned, recently by sad 
experience, the paradox that to cut a few trees is to save a 
forest.
    Until the capitulation of the Forest Service to the pseudo-
environmental forces, the forests of northern Arizona were 
being managed by sustained yield, selective cut--virtually 
never clear-cut--process. Roundwood removal was feasible 
because of the nearby pulp mill. Prescribed burns were employed 
but were less extensive with the regular removal of roundwood 
and the completion of erosion control and brush disposal 
required by every timber sale. Huge strides had been made to 
amend damages from errant practices of the past. Optimal forest 
health conditions were a foreseeable goal of the Forest Service 
and the people and industries dependent upon our forests. 
However, impatient with the process and espousing the nature 
should do the job, the pseudo-environmental movement wreaked 
havoc with their endless appeals and lawsuits.
    Nature, left to itself, will eventually reach a balance, 
but will the end result be desirable? How long will it take? Is 
the process worth it? The damage from the Rodeo-Chediski fire 
and the extensive destruction in our forests from drought, 
disease and insects should give us a glimpse of nature's 
processes and the timeframe of positive change following 
catastrophe. Nature has no conscience. Humanity has the 
intellect and capability to work with nature to manage forests 
for recreation, wildlife, flora, endangered species, community 
stability and human condition. And man has a conscience. Only a 
pseudo-environmentalist perceives nature and humanity as 
enemies.
    And only a hypocrite denies that we need what a forest 
provides for us, and which we demand to have. If the 100 
percent biodegradable, renewable and recyclable paper and wood 
products, which we all use, do not come from a managed forest, 
I ask from what source will we obtain them. When the raw 
material of a forest is not harvested, there is no utilization 
of readily available and necessary natural resources. When that 
unused material is from public lands, there is no recovery of 
stumpage fees to the national treasury. That unused material 
instead becomes something even worse than a wasted resource. It 
becomes fuel for devastating fires. When costs of fighting the 
Rodeo-Chediski fire and rehabilitating the land are weighed 
against the potential revenue the timber would have yielded had 
it been harvested indefinitely with sustained-yield, selective-
cut management practices, it is obvious that the losses are 
incalculable.
    The letter I received from the House of Representatives 
Committee on Resources states that the purpose of this hearing 
is to assess the role of local and Federal agencies in the 
interagency incident management system when battling wildland 
fire. I have never really been exposed to what the interagency 
incident management system is. With the confusion that ensued 
during the fire, I have to wonder if the local and Federal 
agencies know any more than I do about the interagency incident 
management system, particularly about the jurisdiction within 
incorporated towns.
    However--and I added this--I personally fought the Chediski 
fire. The incident team in Heber-Overgaard for the first few 
days seemed to be indecisive and much of the equipment and 
resources were not used to any degree of effectiveness. We 
literally lost homes because of this lack of effectiveness. I 
do not point fingers at any individual, because I was not in 
their shoes. But it could have and should have been organized 
and implemented better in the first few days of the Chediski 
fire.
    I would like to echo what Mr. Epps said, to the credit of 
the agency after the Type I incident team arrived and was set 
up, it seemed to take on a faster, more firm stance.
    I have addressed only minimally this issue of which I have 
little knowledge. I have instead addressed the issue of 
wildlands, which should be managed to prevent catastrophic 
fire. The agency whose motto is ``Caring for the land and 
serving the people'' needs to return to caring for the land and 
serving the people, abiding by the laws and regulations by 
which they are bound, but without the obstruction of 
irresponsible and frivolous lawsuits and appeals which prevent 
them from honoring their stewardship to the land and its 
people.
    Thank you, Mr. Chairman.
    [Applause.]
    Mr. Hayworth. Thank you, Mr. Porter, for your testimony.
    And now we are pleased to welcome Dr. Wally Covington for 
his testimony this afternoon. Dr. Covington, thank you very 
much.
    [The prepared statement of Mr. Porter follows:]

 Statement of Lorin D. Porter, President, Precision Pine & Timber, Inc.

    I was asked if I would testify in this congressional hearing. I 
have lived in northeastern Arizona for over 50 years and have been 
associated with the lumber manufacturing business in this same region 
for over 25 years. I have hiked, camped, and hunted in the forests of 
northern Arizona for over 40 years. I have loved these forests, fought 
fires in these forests, and helped manage these forests. Therefore, I 
felt that I might add something worthwhile.
    My father who was born in northeastern Arizona in 1909, worked in 
and owned lumber manufacturing facilities for over 50 of his 88 years. 
He told me that when he was a young man, you could pick up a rock in 
the forest, close your eyes and throw it, and you would almost never 
hit a tree. But today, a rock thrown in our forests will likely 
ricochet off several small diameter trees before it hits the ground.
    The Southwestern Region of the USDA Forest Service explains the 
reasons for the present fire-hazard conditions of the Apache-Sitgreaves 
and Tonto National Forests. (This would apply as well to the other 
forests in northern Arizona):
        A reduction in fire frequency over the last century, early 
        Forest Service fire suppression policies and high levels of 
        livestock grazing, combined with an unusual period of increased 
        precipitation in the southwest between 1960 and 1988, has 
        resulted in tree densities and [sic] are above historic levels 
        of fuel loading throughout much of northern Arizona. Insects, 
        disease, and a prolonged drought have combined to create 
        extremely volatile fuels over large areas. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ USDA Forest Service, ``Scoping Request,'' Rodeo/Chediski Fire 
Salvage and Rehabilitation Project, p. 1.
---------------------------------------------------------------------------
    The fire danger is not new; it has been evolving over a long period 
of time and has existed for years. While tree densities, heavy fuel 
loads, and competition of trees for groundwater were increasing, 
thinning and logging were decreasing due to frivolous lawsuits filed by 
pseudo-environmental groups against the Forest Service. The suspension 
of virtually all Forest Service timber sales'' even salvage sales'' led 
to the demise of the forest products industry in northern Arizona 
(which was dependent upon raw materials from public lands), including a 
pulp mill between Heber and Snowflake, the only real outlet for small 
diameter wood (roundwood). The allowable cut of timber (not including 
roundwood) on the Apache-Sitgreaves Forest in 1992, was approximately 
89 million board feet. At present, the allowable cut is approximately 5 
million board feet and includes roundwood, firewood, and possibly Aunt 
Agatha's Christmas tree. While many are led by the pseudo-environmental 
movement to believe that to save a few trees is to save a forest, the 
wise by now have learned'' recently by sad experience'' the paradox 
that to cut a few trees is to save a forest.
    Until the capitulation of the Forest Service to the pseudo-
environmental forces, the forests of northern Arizona were being 
managed by a sustained-yield, selective-cut (never clear-cut) process. 
Roundwood removal was feasible because of the nearby pulp mill. 
Prescribed burns were employed but were less extensive with the regular 
removal of roundwood and the completion of erosion control and brush 
disposal required by every timber sale. Huge strides had been made to 
amend damages from errant practices of the past. Optimal forest health 
conditions was a foreseeable goal of the Forest Service and the people 
and industries dependent upon our forests. However, impatient with the 
process and espousing that Nature should do the job, the pseudo-
environmental movement wreaked havoc with their endless appeals and 
lawsuits.
    Nature, left to itself will eventually reach a balance, but will 
the end result be desirable? How long will it take? Is the process 
worth it? The damage from the Rodeo/Chediski fire and the extensive 
destruction in our forests from drought, disease, and insects should 
give us a glimpse of Nature's processes and the time frame of positive 
change following catastrophe. Nature has no conscience. Humanity has 
the intellect and capability to work with nature to manage forests for 
recreation, wildlife, flora, endangered species, community stability, 
and the human condition. And man has a conscience. Only a pseudo-
environmentalist perceives Nature and Humanity as enemies.
    And only a hypocrite denies that we need what a forest provides for 
us'' and which we demand to have. If the 100% biodegradable, renewable, 
and recyclable paper and wood products'' which we ALL use'' do not come 
from a managed forest, from what source will we obtain them? When the 
raw material of a forest is not harvested, there is no utilization of a 
readily available and necessary natural resource. When that unused 
material is from public lands, there is no recovery in stumpage fees to 
the national treasury. That unused material, instead, becomes something 
even worse than a wasted resource. It becomes fuel for devastating 
fires. When costs of fighting the Rodeo/Chediski fire and 
rehabilitating the land are weighed against the potential revenue the 
timber would have yielded had it been harvested indefinitely with 
sustained-yield, selective-cut management practices, it is obvious that 
the losses are incalculable.
    The letter I received from the U.S. House of Representatives 
Committee on Resources states that the purpose of this hearing is to 
``assess the role of local and federal agencies in the interagency 
incident management system when battling wildland fire.'' I have never 
been exposed to what the ``interagency incident management system'' is. 
With the confusion that ensued during the fire, I have to wonder if 
local and federal agencies know any more than I do about the 
interagency incident management system, particularly about jurisdiction 
within unincorporated towns. I have not addressed this issue of which I 
have little knowledge; I have instead addressed the issue of wildlands 
which should be managed to prevent catastrophic wildfires. The agency 
whose motto is ``Caring for the land and serving the people'' needs to 
return to caring for the land and serving the people, abiding by the 
laws and regulations by which they are bound, but without the 
obstruction of irresponsible and frivolous lawsuits and appeals which 
prevent them from honoring their stewardship to the land and its 
people.
                                 ______
                                 

   STATEMENT OF WALLY COVINGTON, PH.D., SCHOOL OF FORESTRY, 
                  NORTHERN ARIZONA UNIVERSITY

    Mr. Covington. Thanks, J.D.
    Thanks Chairman Hayworth and Congressman Flake, for 
inviting me here to give this presentation. I am going to just 
hit the high points. You know, I have got a lot of ideas and a 
lot of stuff to say, but I am not going to say it all at once 
here. It is in the printed testimony that I have submitted and 
I know it will be in the record.
    My name is Wally Covington, I am Regents' Professor of 
Forest Ecology and I direct the Ecological Restoration 
Institute at Northern Arizona University. I have been there for 
27 years. I teach fire ecology and management and restoration 
and just about everything under the sun at the university over 
that period of time. And during that time period, my students 
and I and my colleagues have conducted fire and restoration 
research throughout the western United States, from South 
Dakota, eastern Washington on to Colville Indian Reservation, 
California, Utah, Colorado, New Mexico, down in old Mexico in 
Chihuahua, Sonora and Durango. And of course, here in Arizona, 
which is my home and will be forever more, I hope.
    First, I would like to take a little bit of--I do not know 
if I am taking exception with some of the criticisms of the 
incident command system and its application, but this is 
something that I am somewhat of an expert in, I have been 
teaching it for quite awhile and observed it on quite a few 
fires throughout the western United States over the past 30 
years or so and I really do think, despite the shortcomings--
there are always shortcomings when you are doing anything in a 
crisis mode. The incident command system, as I followed it here 
on the Rodeo-Chediski fire, really was a textbook case of how 
it is supposed to work. There are always mistakes, there are 
always problems getting material from point A to point B. You 
always--at the end of most days, you look back and you say 
gosh, if we had only known that, we would have done this 
differently. The problem is, you do not really know that until 
after it happens.
    So I would just like to take a second to recognize the 
outstanding community support, the interagency coordination and 
the dedication of local leaders and of the professional 
firefighters and all of the support folks in the incident 
command system. They really did a good job. This fire should 
easily have gone a million to a million and a half acres, it 
should have burned up 1000 houses and it could very likely have 
killed hundreds of civilians. And the reason it did not do that 
is because of the dedicated work, not just of the agency folks, 
but of the local leaders in the community that worked together 
to get people out of harm's way quickly and efficiently. So I 
am using this in my teaching as an example of how the incident 
command system is supposed to work.
    So with that, I am going to move on then to the rest of my 
remarks. I am going to take off my jacket if you do not mind.
    I start out my testimony with some of the historical 
background. I talked a little bit about this when we were in 
Washington last--the fifth of September when I presented 
testimony before the Committee, and in this testimony that I 
have submitted, I fleshed that out a little bit more. And 
basically what that testimony does is to--what my testimony 
does in that context is just talk about the historical 
background of some of the ideological wars that have occurred 
starting in about 1889 in the United States, about how do we 
manage our forests.
    In 1889, John Wesley Powell and Gifford Pinchot got 
together with then Secretary of the Interior Noble to talk 
about what we should do with our western forests, and basically 
Powell, who learned all of his forest management and fire 
policy from the Paiute Indians of northern Arizona and southern 
Utah, was advocating for working with fire in the landscapes in 
our western forests. Pinchot was not educated in the west, he 
was educated actually in western Europe in French and German 
forestry, and under those conditions, you know, French and 
German forestry was really oriented toward producing wood from 
wet hardwood forests and wet, cold spruce forests. And there, 
fire was clearly the enemy of the forests.
    Well, these two individuals went at loggerheads over how to 
do this stuff. Powell actually, in his meeting with Secretary 
Noble, recounted how he had personally sat with his Paiute 
friends a fire that burned over 600,000 acres. Of course, it 
was a surface fire, it was not the kind of crown fires that we 
have seen today. Pinchot called it an act of vandalism and 
advocated really behind the scenes that he thought Powell, who 
was head of the Geological Survey, should be arrested for doing 
that sort of stuff.
    Well, Powell lost that argument. Powell was not as well-
connected as Pinchot. Pinchot was one of the Boston Brahmans 
and very wealthy. In fact, his family endowed the School of 
Forestry at Yale University, the first school of forestry in 
the United States.
    So anyway, then I traced in my testimony going on through 
Aldo Leopold, who showed up here as soon as he graduated from 
the Yale School of Forestry, showed up here as a forester with 
Region III, with the Southwestern Region, in 1909. Immediately 
he looked at the landscape and said everything is going to heck 
in a hand basket and something needs to be done about it.
    Next came Harold Weaver onto the scene. Harold Weaver 
worked on the Colville Reservation up in eastern Washington 
first. He was a BIA forester. In the 1930's he saw the future, 
he saw what we have got today and he started saying we have got 
to do something about it, he actually started prescribed 
burning in 1943 on the Colville Indian Reservation with tribal 
members. Those plots are still being burned. After Weaver did 
his last fire, one of our alumnae Robin Boyce started burning 
them in 1976 and then Kathy Covington, a tribal member there, 
continued working with the tribe to keep that project going.
    The next point in time that I bring up is Weaver came here 
to Arizona. He was forester with the Bureau of Indian Affairs 
in Phoenix and immediately started working with the White 
Mountain Apaches to try to start giving an opportunity for fire 
to return to the land. The Fort Apache Reservation especially 
and San Carlos as well had a good fire program going on until 
about the time I came here in 1975. They still have a good fire 
program but I remember it very well and those of you that have 
been here that long remember it too, when they had a little 
over 100,000 acres on fire. I believe it was 1977 and the wind 
changed directions sort of like the smoke that got down from 
the Rodeo-Chediski fire into Phoenix, and all of a sudden we 
are more concerned about air quality than we are the health of 
the land. And we started implementing some policies that 
restricted fire.
    So anyway, that chain of events up through Weaver, the next 
thing was Cooper, also a BIA forester, clearly identified--he 
published a seminal paper in 1960 based on his doctoral 
dissertation work at Duke, in which he described the changes in 
forest conditions since white settlement. He interviewed in the 
1950's some tribal elders and elders of settlers, you know, the 
grandparents, all of whom are gone now, and also looked at 
stand structure, and concluded the same thing that we have 
concluded with out studies today, that the forests have changed 
radically, they are not sustainable, something has to be done.
    I do want to just quote a couple of things here. In 1976, 
there was a report called ``Ponderosa Fire Management: A Task 
Force Evaluation of Controlled Burning in Ponderosa pine 
forests of central Arizona,'' it was actually conducted in 
1973. I came out on a field trip out here on the Apache 
reservation in 1977 with the Tall Timbers Group.
    But anyway, Weaver, along with Harold Biswell and Harry 
Kallender, Roy Komarek and Dick Vogl have this quote in their 
document, and this is real telling. I will just read it to you.
    ``Between 1947 and 1956 in the national forests of New 
Mexico and Arizona, 115,000 acres of timber were burned...with 
most trees kills or heavily damaged. In 1948, 1950 and 1954, 
three wildfires on the Fort Apache Reservation in Arizona 
covered 8,100 acres in which nearly all timber was killed.''
    This was an alarm back then when in a 9-year period, you 
burned 156,000 total acres. Man, we wish we had those problems 
today. So this recognition is not new that the problem exists.
    I also want to just quote briefly from Cooper's paper, from 
his doctoral dissertation in the 1950's and then published in 
Ecological Monographs in 1960. This is what Cooper says:
    It is doubtful if, after 40 years of [fire exclusion], use 
of prescribed fire can now reverse the trend toward excessively 
dense pine thickets. Silvicultural possibilities [that is, 
thinning] of planned fire can probably only be realized in 
young stands originating after timber harvest. Some practical 
and economic means must be found for thinning young pine stands 
and for reducing the amount of hazardous fuel.''
    At the time he wrote that, these were small trees, they 
were only about three or four inches in diameter. Those trees 
are now bumping up to and exceeding 16 inches in diameter and 
we still have not solved this problem over most of the western 
United States.
    At For Apache, the White Mountain Apache Tribe, working 
with BIA has done a lot to go forward with active fire 
management and with thinning of the forest and that is why we 
have still got some green patches in the Rodeo-Chediski fire 
area. For the most part, that is where we see ecosystems that 
are not completely burned all to heck.
    The next point that I want to make is--and I will try to 
hit this real quickly--is that we do need to move forward and 
we need to move forward swiftly. There are some things that we 
can do to meet the demands that are placed upon our generation, 
but we have to move forward and we have to move forward in a 
systematic way.
    Now I think that one way that we can do this is use as the 
model the incident command system. Let me just do a little bit, 
I have got this in the testimony in greater detail but I will 
just hit it real quickly here.
    Just imagine--let us just imagine that we are time 
travelers. We go back to 1997, 7 years ago, something like 
that, and we say OK, now we know that this area is going to 
burn, Rodeo-Chediski fire area is going to burn and it is going 
to burn hot. Well, what do we do? Well, we put together an 
interagency multi-level group of folks that are experts on 
forest restoration and fire management, we get together with 
community leaders, with local, state and Federal elected 
officials and agencies and we put together a plan for 
systematically reducing in the greater ecosystem the threat of 
fire through using restoration treatments. So we start that--we 
are in 1997, by 1998, we have got a plan in place and we start 
doing large strategically located restoration fuel treatments.
    You know, it kind of galls me a little bit when people talk 
about oh, we might get as much as 30,000 acres treated per 
year. Well, nonsense, we need to treat hundreds of thousands of 
acres per year. But again, if we attack this problem in the 
same way that we attack an active fire, the inevitable 
landscape fire, then we can do this. So now we are in 1998, we 
have got 1999, we have got 2000, we have got 2001 and then we 
hit the drought and then two fires start near Rodeo area and 
Chediski, but now the fires are burning through a landscape 
where about a third of it has restoration-based fuel 
treatments. We catch the fires before they burn a single house. 
That could have happened.
    Now let us come to the present. Here we are today. We can 
do this throughout the western United States and we have to do 
this. There is absolutely no question where these forests are 
headed. It has been known since the 1960's, the 1950's, the 
1940's, and Leopold wrote about it in the late--by 1914 through 
1924. So we do have to move forward.
    Now, what do we do to move forward? What I advocate for is 
that we need to move forward with thorough knowledge and 
carefully reasoned analysis, systematically checked against 
factual evidence, not a lot of intuitive, kind of subjective, 
oh gosh, oh golly, we ought to do this. But we need to build on 
the knowledge that we have, come up with effective plans and 
get after it. Now clear thinking is essential for this. We need 
to define our problems carefully, we need to understand the 
context for our degraded forest health problems, we need to 
determine what the sustainable carrying capacity of the land is 
for trees and for other organisms on the landscape, including 
human beings. Then we need to assemble practical field data 
that is readily available and useful for designing these 
treatments, analyze the information, develop restoration-
oriented side boards and then implement these treatments.
    We need to implement the treatments though before we know 
everything. We will never know everything. What we have to do 
is we have to do a learning by doing approach and I am not 
talking about tinkering here, you know, about just messing 
around and kind of seeing what works and what does not. This is 
a formal procedure that has been well in place since the early 
1960's. It is called adaptive environmental assessment or 
adaptive management. And in that procedure, what you do is that 
you use the best information that is available, you bring 
together professional resource managers, you bring together 
interested members of the public, stakeholders, you bring 
together technical experts in conservation and fire management 
and so on in intensive workshops in which you develop sort of 
hypotheses, scientific hypotheses, which then you test 
operationally. These are not little 1000 or 200-acre 
treatments, these are 20,000, 100,000-acre treatments. And then 
you have to go, as you implement those treatments, you have to 
see which ones are superior, so we have to monitor them, we 
have to invest some money in finding out which ones are 
superior, and then it is pretty simple. Those that are doing a 
better job, you do more of that. Those that are not doing so 
good a job, you do not do that any more. So that is all 
adaptive management is.
    Now I am going to wrap this up pretty quickly. I have some 
other stuff in the testimony which you have read or will read. 
There is a subhead that says ``Love of the land is good but it 
is not enough.'' And basically what I am saying there--that is 
on page 8--I am saying look, we all love the land, it is in our 
genetic makeup to love the land, it is in our genetic makeup to 
want to leave the land in a better condition than we received 
it. But that is not enough. Good--you know, the road to hell is 
paved with good intentions. Bertrand Russell has a great story 
about this in his writings about the plague in the Middle Ages 
when church leaders told everybody to get together in the 
churches and pray for deliverance from this awful visitation on 
the land. Now the plague was worse in Christian countries where 
the church leaders had people get together in the churches to 
pray because that is how the disease was spread. In other 
areas, it did not spread nearly so fast, nor were so many 
people killed.
    Now the church leaders, there is no question they loved 
their flock, you know, they loved their people. They were not 
trying to get them into harm's way, but nonetheless, they did 
not have the knowledge about how the plague was spread. So that 
is what got them in so much trouble.
    My last point is pretty straight-forward. We have got to 
think big and we have got to act big and we have got to do it 
immediately. Had we done this in 1997 or in 1993 or in 1960, we 
would not have what we have got today out there. We would not 
have all the homes burned down, we would not have spent the 
millions and millions of dollars that we are now spending on 
the Rodeo-Chediski fire area. And how many areas do we have 
like this? We have not even burned 5 percent of it yet 
nationally.
    So it makes sense, it makes economic sense and not only 
that, it is our ethical responsibility to care for the land and 
to prevent these kind of disasters from happening.
    The last point--I have some comments there about what 
Congress can do and you have both heard this from me before, so 
I will not belabor the point there. There is one additional 
point that I made in the September 5 hearings there in D.C., 
that I really feel like we have got to move forward on the 
synthesis of knowledge reports. We have got to get groups of 
experts together to lay out in short, readable documents and on 
the web, the biophysical basis or the ecological basis for 
restoration and fuel treatments at the greater ecosystem scale, 
the social, political and economic aspects of it, and then a 
practical here is how we can move forward document as well. We 
have got to do that quickly. We should have this done within 12 
months. If we have got that done within 12 months, then you 
will see EAs slicking through the system quickly because the 
people will have at their hands the resources that they need to 
design projects and to support them so that they will readily 
withstand the appeal process and judicial review.
    So I guess in conclusion what I am saying here is that we 
need to get moving, we need to do it in a scientifically 
rigorous way and that I think that incident command system is a 
good model where we have local collaboration of local 
governmental leaders, public leaders, civic minded corporations 
and businesses and local to Federal agencies, local to Federal 
elected officials. And we can do this. We can do it in a big 
way and we have got to do it.
    That concludes my formal remarks. I had some photos here 
which maybe after we let these good people go, I will go over 
with you later on.
    Thank you very much.
    [The prepared statement of Dr. Covington follows:]


  Statement of Dr. William Wallace Covington, Regents' Professor and 
  Director of the Ecological Restoration Institute, Northern Arizona 
                               University

    Chairman McInnis, and members of the subcommittee, thank you for 
this opportunity to testify on a subject of personal importance to me 
and of critical importance to the health of our nation's forests and 
the people and communities that live within them.
    My name is Wally Covington. I am Regents' Professor of Forest 
Ecology at Northern Arizona University and Director of the Ecological 
Restoration Institute. I have been a professor at NAU for just over 27 
years. My colleagues, graduate students and I have conducted research 
into ponderosa pine and related frequent fire types in South Dakota, 
Eastern Washington, California, Utah, Colorado, New Mexico, Chihuahua, 
Sonora, and Durango (Mexico), and, of course, Arizona since I arrived 
in Arizona in 1975.
    In addition to my publications on fire ecology and management, 
ecosystem health and forest restoration, I have co-authored scientific 
papers on a broad variety of topics in forest ecology and resource 
management including research on fire effects, prescribed burning, 
thinning, operations research, silviculture, range management, wildlife 
effects, multiresource management, forest health, and natural resource 
conservation. I am senior author of the Ecosystem Restoration and 
Management Principles chapter of the interagency publication on 
Ecological Stewardship published in 1999.
    I am a member of numerous professional societies including the 
Ecological Society of America, the International Society for Ecosystem 
Health, the Society for Conservation Biology, and the Society of 
American Foresters. I am also a member of the Society for Ecological 
Restoration and was chair of its Science and Policy Working Group from 
its inception through 2000 when I vacated that position to take a 
sabbatical year at Duke University. In addition to publishing in the 
scientific literature I have been actively involved in outreach efforts 
to natural resource professionals, community leaders, the general 
public, and local to national policy makers on issues related to forest 
ecosystem management.
A Textbook Example of How to Do it Right
    Before I begin my formal remarks I want to take a minute to 
recognize the outstanding community support and interagency 
coordination, dedication, and firefighting expertise demonstrated by 
those who worked so long and diligently to keep the Rodeo-Chediski fire 
from being even more devastating than it was. Were it not for the great 
skill, team work, and creativity of firefighters, federal, state, and 
local governments and community leaders working together for a common 
goal, it is likely that hundreds more houses would have burned, and 
worse yet civilian and firefighter lives would have been lost. We now 
need to develop and apply that same approach to implementing 
preventative restoration based hazard reduction and ecosystem health 
treatments at similar scales so that a disaster of this magnitude never 
happens again.
My Approach in this Testimony
    Although the general principles that I will discuss apply broadly 
to the vast majority of the West's dry frequent fire forest types, I 
will focus my testimony on ponderosa pine forests. As the GAO has 
pointed out in 1999 over 90 percent of the severe crown fire damage 
nationally is in this forest type.
    In my remarks I will give a brief overview of the historical 
context for federal fire management policies, discuss some ideological 
barriers to achieving consensus about how to proceed, and recommend a 
set of actions designed to help overcome these limitations.
Historical Background: Ideology and Land Management Rivalry 1889-
        Present
    Ideological warfare over how to manage western forests is not new. 
The roots of this crisis in western forest management go deep. Fire 
historian Stephen Pyne is undoubtedly our best modern day chronicler of 
the history of our failure to work with fire in forests of the West. In 
his book, Paiute Forestry: A History of the Light-burning Controversy, 
Pyne describes the historic meeting between then Secretary of Interior 
John Noble and John Wesley Powell, then director of Interior's 
Geological Service. The meeting had been set up by Gifford Pinchot, 
director of the government's new Forestry Department, then in the 
Department of Interior also.
    It was obvious to Aldo Leopold shortly after he graduated from the 
Yale School of Forestry arrived in the Southwest in 1909. Having just 
graduated with a Master of Forestry degree from Yale University, 
Leopold was trained as a keen observer of land conditions. He wrote a 
series of reports and essays, perhaps the most notable of which was his 
1924 paper in the Journal of Forestry entitled, ``Grass, brush, timber 
and fire in southern Arizona.'' In that paper he noted that south of 
the US-Mexico border, frequent fires and absence of overgrazing had 
maintained diverse, productive, sustainable watersheds, but that north 
of the border, assiduously protected from fire but mercilessly 
overgrazed, watersheds were degrading rapidly and woody vegetation was 
encroaching everywhere.
    Bureau of Indian Affairs forester, Harold Weaver, recognized the 
coming forest health crisis in the 1930s raising the alarm that because 
of the disruption of the natural frequent, low intensity fire regime 
ponderosa forests were becoming overstocked with dense sapling 
thickets, unprecedented tree disease and insect attacks were occurring, 
and fire behavior was intensifying. He warned that unless something was 
done, these symptoms of degrading forest health would only get worse 
(H. Weaver. 1943. Fire as an ecological and silvicultural factor in the 
ponderosa pine region of the Pacific slope. Journal of Forestry 41:7-
14. Working with tribal members, Weaver started a prescribed burning 
research program on the Colville Indian Reservation in 1942, designed 
to be re-burned on an approximate 10 yr interval. Those plots continue 
to be burned regularly today.
    It is interesting to note that in a 1976 report entitled, 
``Ponderosa fire management: a task force evaluation of controlled 
burning in ponderosa pine forests of central Arizona'', Harold Weaver 
along with Harold Biswell, Harry Kallendar, Roy Komarek, Richard Vogl 
noted that:
        ``Between 1947 and 1956 in the National Forests of New Mexico 
        and Arizona, 115,000 acres of timber were burned in six fires 
        with most trees killed or heavily damaged. In 1948, 1950, and 
        1954, three wildfires on the Fort Apache Reservation in Arizona 
        covered 8,100 acres in which nearly all timber was killed.
    We only wish we had that problem today.
    Weaver became BIA Area Forester in Phoenix, Arizona, in March, 
1948. Weaver began working with Fort Apache tribal members to restore 
periodic burning to reservation lands. Despite periodic setbacks due to 
restrictions related to air quality concerns dating from the late 
1970s, prescribed burning coupled with active forest management have 
continued, and as you have heard helped to prevent severe crownfire in 
several stands within reservation lands.
    In the late 1950s, Charles Cooper, also a BIA forester, conducted a 
sweeping analysis that constituted his doctoral dissertation from Duke 
University. In that dissertation and in subsequent publications (see 
Charles F. Cooper. 1960. Changes in vegetation, structure, and growth 
of southwestern pine forests since white settlement. Ecological 
Monographs 30:129-164) Cooper described the population irruption of 
pine trees, the increase in fuel loads, and the degradation of forest 
health. In his concluding paragraphs on page 162 of his monograph, 
Cooper states:
        ``It is doubtful if, after 40 yrs of protection, use of 
        prescribed fire can now reverse the trend toward excessively 
        dense pine thickets. Silvicultural possibilities of planned 
        fire can probably only be realized in young stands originating 
        after timber harvest. Some practical and economic means must be 
        found for thinning young pine stands and for reducing the 
        amount of hazardous fuel.
    By the late 1970s it became obvious to me that ponderosa pine 
dominated landscapes were filling in so quickly with overly dense stand 
level fuel loadings such that by early on in the 21st century we would 
see very large, landscape scale fires that were essentially 
uncontrollable.
    My warnings became more strident as I saw both the size and the 
severity of crownfires increase throughout the 1980s. In fact in a 
recently discovered video tape of a presentation Silver City, NM, on 
February 23, 1993, I forecast that if we failed to implement large 
restoration-based hazardous fuel reduction treatments, by 2010 we would 
witness greater ecosystem scale fires in excess of 100,000 acre and 
that we would have to evacuate communities along the Mogollon Rim 
rapidly and efficiently or risk losing 100s of civilian lives. It is 
not a prediction that I wanted to come true, but, of course it did.
    In 1994 I was senior author on a review paper (Attachment One) in 
which I stated that we could anticipate exponential increases in the 
severity and extent of catastrophic fire. It is not a prediction I ever 
wanted to come true. In that same paper, I also suggested that we have 
a narrow window of opportunity to take preventative actions to restore 
forest health and minimize the losses of civilian and firefighter lives 
as well as the mounting damage to our nation's natural resources.
How We Can Meet the Demands Placed upon Our Generation
    Recognizing that unnatural crownfires and other symptoms of 
ecosystem stress are signals that these ecosystems are falling apart, 
we must act and we must act quickly. A ``learning by doing'' approach 
known as active adaptive management is a well established procedure 
that we know will work. No one is talking about tinkering here and this 
isn't just some new fangled academic idea. Adaptive management is 
rooted deep in theory and practice, having sprung from the evolutionary 
operations approach long used in optimizing complex chemical 
engineering problems. Crawford S. Holling (University of Florida) and 
Carl Walters (University of British Columbia) and their intellectual 
``offspring'' have developed this approach as a tried and true 
procedure for solving complex resource management problems, monitoring 
and evaluating a range of policy options, and then feeding resulting 
knowledge back into the ongoing resource management endeavor.
    A soft systems approach to adaptive management might be most 
appropriate for restoration of ponderosa pine and related frequent fire 
landscapes. In such a situation collaborative groups consisting of 
policy makers, stakeholders, technical specialists and land managers 
develop well informed alternative working hypotheses about reasonable 
ways to simultaneously work toward restoring ecosystem health while 
probing for deeper understanding of greater ecosystem structure and 
function.
We Need Thorough Knowledge and Carefully Reasoned Analysis, 
        Systematically Checked Against Factual Evidence.
    In applying this approach, clear thinking, objective acquisition 
and interpretation of information, and open dialogue among 
collaborators is essential. Following are some steps to implement this 
approach
    Define the problem
    Describe the pathology of degradation
    1. LAre there unnatural population dynamics--irruptions of some, 
crashes of others?
    2. LAre there deleterious changes in nutrient cycling and 
hydrology?
    3. LAre there decreases in diversity and net productivity of 
herbaceous food webs?
    4. LAre there losses of tree vigor, especially of old-growth?
    5. LAre there unnatural insect and disease outbreaks?
    6. LAre fuels steadily accumulating on the forest floor and in the 
tree canopies?
    7. LHas there been a shift away from presettlement fire regimes?
    Describe the contexts for the ecological restoration issues.
    1. LWhat are reference conditions for different hierarchies?
    2. LWhat is the cause of degradation?
    3. LWhat are the temporal and spatial patterns of post-disruption 
changes?
    4. LTo what extent, and at what rate, do current disturbances (e.g. 
wildfire, bark beetle irruptions) and conventional management practices 
(e.g., thinning alone, prescribed fire alone) restore ecosystem 
structure and function?
    5. LWhat ecological, social, and political factors affect recovery?
    6. LHow can humans speed recovery to fully functioning ecosystems?
    7. LHow can we do this while providing for continued use by humans?
    Determine changes in reference conditions over time.
    1. LWhat was the natural fire regime?
    2. LWhen was the fire regime disrupted?
    3. LHow have ecosystem structures/processes changed over time?
    4. LHow have ecosystem functions/processes
    Assemble practical field data readily available or easy to acquire 
to inform treatment, monitoring, and evaluation design. Examples of 
such data are:
    1. LFire scars
    2. LTree structure, species composition, age, vigor
    3. LHerbaceous density and composition
    4. LForest floor fuels and dead biomass
    Use practical analysis techniques to provide useful information for 
designing and comparing proposed treatments. Examples of such analysis 
are:
    1. LReconstruction of presettlement forest structure
    2. LIntersecting lines of evidence
    3. LDendrochronology / fire history
    4. LEcological simulation
    5. LFire behavior analysis
    Develop restoration-based sideboards for designing alternative 
prescriptions. Examples of such sideboards are:
    1. LRetain all trees which predate settlement
    2. LRetain postsettlement trees needed to re-establish 
presettlement structure
    3. LThin and remove excess trees
    4. LRake heavy fuels from base of trees
    5. LBurn to emulate natural disturbance regime
    6. LSeed with natives/control exotics
    Determine how alternative restoration treatments will be tested. A 
multi-scaled approach might make sense, with pre/post measurements, 
replication, and random assignment of treatments where possible. One 
such approach that we have developed in concert with collaborators in 
federal, state and local agencies, nongovernmental organizations, and 
interested volunteers consists of:
    1. LSpot treatments (.01-.03 acres) around old-growth trees
    2. LMicro treatments (1 - 40 acres)
    3. LInitial large-scale treatments (500 - 1000 acres)
    4. LMonitoring and feedback of results from these treatments
    5. LAdaptive management approach at the scale of 10-50 thousand 
acres
Overcoming Barriers to Implementing Restoration at the Greater 
        Ecosystem Scale
    There are some challenges to getting operational scale adaptive 
ecosystem restoration and management on the ground.
    1. LFuzzy thinking about the problem.
    2. LReverse logic: prejudging the conclusion then selectively 
finding facts and arguments that support that conclusion
    3. LScientific, social, and political perfectionism; let's not do 
anything until all uncertainties are removed
    4. LCultural differences and distrust among policymakers, 
practitioners, researchers, interest groups, and the public
    5. LFunding problems
    There is much wailing and gnashing of teeth by activists, members 
of the lay public, and even some within the academic community about 
the scientific basis of forest restoration. Some of the arguments are 
founded on differences of opinion about desirable ecological conditions 
for western forestlands. Others stem from differences of opinion about 
whether public lands should be used for consumptive resource use, 
especially by wood products or grazing interests, or for individual 
uses and/or non-consumptive uses. Some differences of opinion are 
ideological. At times individuals use what might best be described as 
pseudoscientific arguments to try to advance a particular cause.
    By pseudoscience, I mean a set of theories, assumptions, and 
methods erroneously advanced as science. Pseudoscience stands in 
contrast to science, which is based on attempts to objectively discover 
the truth about a natural system. The scientific method has been 
developed as a systematic way to discover truth, or more specifically 
to avoid being fooled by biases about how we imagine that things might 
be. A.D. Bradshaw of the University of Liverpool in England has often 
presented a particularly cogent discussion of the need for objectivity 
in ecological restoration work. Otherwise, he fears that arguments over 
restoration objectives and approaches will tend to degenerate in to 
decisions and actions based on intuition and impressions instead of the 
best knowledge available. He goes on to state that, ``With this goes 
the belief that good restoration is intuitive, stemming from feelings 
rather than logical understanding, and that because of this it is only 
learned by experience'' Certainly nobody should ever decry the 
importance of intuition.'' Yet applied to the exclusion of other 
principles, these beliefs will destroy the efficiency and effectiveness 
of restoration ecology''.
    Restoration ecology, he posits, must be based on six cardinal 
points:
    1. LAwareness of other work.
    2. LPreparedness to carry out proper experiments to test ideas.
    3. LPreparedness to monitor fundamental parameters in a restoration 
scheme.
    4. LFurther tests and experiments suggested by these monitoring 
observations.
    5. LThe restoration of functioning ecosystems in which a whole 
variety of species is involved.
    6. LPublished results.
    We must seek to follow such a science-based approach if we are to 
resolve the forest ecosystem health and crownfire problems we are 
confronted with today.
Love of the Land is Good, But not Enough
    We all love the land. It's in our genetic makeup. Although love of 
the land is important, it is not sufficient. Actions based on love 
alone without adequate knowledge can be devastating. The philosopher 
Bertrand Russell used a teaching story to illustrate this point. In the 
Middle Ages when the plague was rampant in Europe, religious leaders 
urged the population to assemble in churches to pray for deliverance. 
As a result of so many people being gathered in overcrowded conditions, 
the plague spread with accelerated rapidity throughout Europe. No one 
questions the love of the religious leaders for their congregations, 
but without scientifically based knowledge of how the plague spread, 
their advice had consequences that were the opposite of their desires 
for their congregations. This is an example of love without knowledge 
of the consequences of uninformed action. Today there are many examples 
of individuals inspired by love of the land, but without sufficient 
knowledge or time for critical and comprehensive thought who are 
obstructing meaningful action to restore forest ecosystem health and 
protect the land and people of the West.
Restoration has Many Benefits
    If we overcome these challenges, the benefits of ecological 
restoration and diligent land stewardship in ponderosa pine and related 
ecosystems are many and they are sustainable indefinitely
    1. LIt eliminates unnatural forest insect and disease outbreaks
    2. LIt enhances native plant and animal biodiversity
    3. LIt protects critical habitats for threatened or endangered 
species
    4. LIt improves watershed function and sustainability
    5. LIt enhances natural beauty of the land
    6. LIt improves resource values for humans, not just for current, 
but also for future generations
    7. LIn cases where a road system is in place and small wood 
processing facilities are available, the trees removed can often help 
defray the cost of restoration treatments and provide jobs and income 
for local communities
We Must Think and Act Big and Start Immediately
    We can restore ecosystems but we must act on large scales and act 
immediately.
    1. LTo restore these degraded ecosystems, it is essential that we 
restore entire greater landscapes, and do so quickly--time is clearly 
not our ally.
    2. LWe must do so in a systematic, scientifically rigorous fashion.
    3. LFor protection of structures such as houses, the science seems 
pretty clear: use fire resistant materials, fire resistant landscaping 
and don't build too close to heavily fueled landscapes.
    4. LFor protection of watersheds, critical habitat for humans and 
other animals and plants we have to think much bigger. Here we need to 
think and act at the scale of greater ecosystems--large chunks of the 
landscape that include not only wildlands but also embedded human 
communities. These greater ecosystems typically occur on a scale of 
100,000 to 1,000,000 acres.
What Congress Can Do
    There are several constructive steps Congress and the federal 
agencies can take to improve our current situation.
    1. LTreatments to reduce fire threat and restore the ecological 
integrity of forests should become the single biggest priority of 
forest management policy and the land management agencies working in 
the Intermountain West.
    2. LCongress should provide adequate resources to the agencies to 
maximize comprehensive restoration treatments, not just thinning and 
burning, but also restoration and rehabilitation of seeps, springs and 
riparian areas, closure and rehabilitation of unwanted roads, 
improvement of existing roads to minimize watershed impacts, control of 
aggressive exotic species and reintroduction of missing native plants 
and animals.
    3. LWhere ever possible, Congress and the land management agencies 
should support the collaboration of forest communities to design 
ecologically based restoration treatments. This includes: producing 
high quality, timely environmental review documents; elevating the 
production of the review documents to a top priority; assisting 
communities to develop economically viable opportunities for 
restoration jobs and where feasible restoration products; and, 
assisting to develop new employment opportunities related to 
restoration.
    4. LSupport the development of science-based restoration 
treatments.
Conclusion
    In conclusion, I suggest that those participating in restoration 
efforts follow a holistic, systematic approach characterized by clear 
thinking, local collaboration, and solid knowledge, both of the 
biophysical system and of the sociopolitical system. Then we need to 
develop clear objectives for desired resource uses and ecosystem 
conditions coupled with practical plans for implementing and testing 
alternative treatments at operational scales. Otherwise, decisions 
regarding restoration-based fuel treatments will continue to degenerate 
into ill informed speculation, subjective judgment, bias, ideology, and 
personal policy preferences.
    We are at a fork in the road. Down one fork lies burned out, 
depauperate landscapes--landscapes that are a liability for future 
generations. Down the other fork lies healthy, diverse, sustaining 
landscapes'landscapes that will bring multiple benefits for generations 
to come. Inaction is taking, and will continue to take, us down the 
path to unhealthy landscapes, costly to manage. Scientifically-based 
forest restoration treatments, including thinning and prescribed 
burning, will set us on the path to healthy landscapes, landscapes like 
the early settlers and explorers saw in the late 1800s.
    Knowing what we now know, it would be grossly negligent for our 
generation not to move forward with large-scale restoration based fuel 
treatments in the dry forests of the West. Inaction is clearly the 
greatest threat to the long-term sustainability of these western 
ecosystems.
    Thank you very much for asking me to appear before the 
Subcommittee.
                                 ______
                                 
    Mr. Hayworth. Dr. Covington, we thank you; Mr. Porter, we 
thank you for your testimony.
    Dr. Covington, on two occasions now, you have reiterated, 
and it is important as we are taking a look going ahead, you 
are a strong proponent of the incident command system model 
that is used. In fact, you are saying now that even with the 
challenges confronted, in retrospect, looking back at Rodeo-
Chediski, this on balance is a textbook operation, from your 
perspective.
    Mr. Covington. That is correct.
    Mr. Hayworth. And the reason--obviously we are thankful 
there was no loss of life.
    Mr. Covington. It is a miracle in a way.
    Mr. Hayworth. And when you think about it, especially in 
contrast to the Dude fire, and I remember saying on occasions, 
we had the Dude fire, the next fire we ought to name for the 
devil himself, with the accumulation of fuel and everything 
else that we have seen in our forests, but still, there was no 
loss of human life.
    We are so thankful for that, but it is so difficult--I know 
there are those with us here who have had immense personal 
losses.
    Mr. Covington. Oh, sure.
    Mr. Hayworth. I guess the conundrum is this--and what we 
are trying to understand is--we often hear about the fog of war 
and what happens in military operations. And in essence, there 
is the smoke and the fog that comes with trying to deal with a 
massive conflagration like we had here.
    But the ICS you say can be a model now to work 
prospectively. We are moving almost into the range of 
predictive models and an aggressive approach is what you are 
advocating now, correct?
    Mr. Covington. Right, preventative medicine essentially. I 
mean what we are doing right now is we are getting these 
ecosystems into the emergency room and that is the most 
expensive medicine you can practice, and that is exactly what 
we have seen here today. If just 7 years ago we had gotten a 
little bit of a start on this, we would not have seen the 
incredible losses that we have seen.
    The incident command system, by the way, is a worldwide 
model for how to handle crises. You know, you have been in 
emergency situations, there is always, you know, gosh, if I had 
known this, I would have done things differently. But it is the 
system that responded to September 11 and that worked very 
well, despite the tremendous loss of life. It is that kind of a 
model. We cannot get into it right now, but it is a modular 
system, it is integrative hierarchy across different 
governmental levels and it is designed to provide for 
logistical support for planning, for public information, for 
all that sort of stuff. It really is a good system. I wish it 
had worked better at the Rodeo-Chediski fire, but I would have 
predicted 99 times out of 100, that it would have worked a lot 
worse than it did. It worked very well.
    Every big incident like this has some snafus in it, it is 
just the way it is. It is a terrible problem.
    Mr. Hayworth. There has been talk, and the distinction was 
made, and we talked about catastrophe management, some have 
likened these situations to chaos management. In other words, 
every 15 minutes a set of presumptions you had is rendered 
invalid and you have to work from an entirely different 
situation and that is the nature of this beast we confronted.
    Lon, you have lived on this land a long time, I have come 
to respect the common sense perspective you bring here. What 
about the model that Dr. Covington lays out, in your mind. On 
your knowledge of loving the land and working it, do you concur 
with Dr. Covington's analysis?
    Mr. Porter. I concur 100 percent that something has got to 
be done and we need to come up with a plan and move forward 
with it. And the challenge that I see that the Forest Service 
has and that I hope that legislation can correct is 
streamlining that process. The Forest Service I believe has 
some idea of what they want to do and Dr. Covington can add to 
that and give them some better direction there, especially as 
it deals with restoring the health of these forests.
    But I think that it does not matter to a person that does 
not understand. And I call them pseudo-environmentalists or 
thorny environmentalists because they do not understand what 
really needs to be done. And unless something is done to 
streamline that and make it less available to them, then we are 
going to have a hard time getting the work done that needs to 
be done.
    Mr. Hayworth. We have tried to take some steps in that 
direction, working with the administration and I know that 
Congressman Flake had the chance to be with the President last 
night and I can recall our visit up to the Round Valley to 
visit with some who may be in this room right now. The 
President's last remark to me that day was that real 
environmentalists want to see effective forest management.
    Congressman Flake.
    Mr. Flake. Thank you. Mr. Porter, you talked narrowly about 
the recovery efforts in your experience, your industry. We are 
hearing different numbers as far as at what point the wood is 
useless. Small diameter, maybe 6 months, large diameter later 
than that. Can you give us kind of a rundown of the reality 
here?
    Mr. Porter. I can tell you that in the past we tried to 
utilize a timber sale that was brought up by the Forest 
Service, it was called the Kendrick Saddle Toll Project up by 
Flagstaff. Those projects were approximately 2 years old when 
we--we attempted it, we actually purchased that timber sale 
contract from the Forest Service to cut that volume. And it was 
small to intermediate size and some larger size trees. When we 
started cutting that material at our mills, I had never seen so 
many different colors in my life. There was orange, there was 
black, there was blue, there was white. It was as hard as oak 
to cut and it was virtually worthless. It was falling apart, it 
had cracks all through it and was falling apart in our 
equipment. In fact, I will tell you I think that is what caused 
our fire at our sawmill at Winslow is that material. Later the 
Forest Service backed out of that and said we see--we had them 
come to the mill, we ran a study for them, showed it to them. 
And that was 2 years, and I can tell you it was virtually 
worthless.
    So my personal feeling is you have about a year, you have 
about a year and maybe a 6-month window after that to really 
get anything of any value out of those trees. The smaller trees 
first are going to go and then the larger trees behind that.
    Mr. Flake. So from the earlier testimony, then it will take 
almost a year to get the plan together before any contracts.
    Mr. Porter. I can tell you, I will not buy timber from the 
government that is--if it is purchased at a year and a half, 
how long is it going to take us to get out there and get the 
work actually done, then you are looking at another 6 months. 
There is no way it can be economically feasible. It has got to 
be done and it has got to be done in a hurry.
    The Fort Apache Tribe has the right idea, you have got to 
get out there and you have got to get started on it right now 
and utilize what you can. Bring that revenue, bring the 
usefulness of that resource to the people.
    Mr. Flake. Congressman Hayworth mentioned the President was 
in the state yesterday and he did, at both stops, push his 
healthy forests initiative very hard.
    I know that with your industry, what you need most is 
certainty moving forward. In order to amortize costs and 
everything else, you have to have certainty that contracts will 
be available over a period of time. The healthy forest 
initiative right now says that contracts will be at least five 
to 10 years. Is that sufficient for a business like yours to 
actually re-enter the market here or actually go forward?
    Mr. Porter. There were at one time 11 or so different mills 
that operated in Arizona. There was a pulp and paper mill here, 
that utilized a great deal of this material, that went to the 
government and said if we could have a long-term contract, we 
will upgrade our facilities and we will go ahead and continue 
to use this volume. And the government basically said we cannot 
guarantee that. And they wanted about 10 years. And when they 
said that, they said well, then we are going to 100 percent 
recycle, we are shutting down this process that could have used 
so many of these small trees.
    So you have to have sufficient time. And I think 10 years 
to 15 years. A pulp mill is like a $200 million investment and 
an OSD plant, a small one is $60 million. So for anyone to go 
into that, they have got to have some long-term contracts and 
understand what they can do for that period of time or they 
will not economically get involved and neither will any 
financial institution.
    Mr. Flake. Dr. Covington, fighting the fire alone, leaving 
aside the property losses and everything, was around $45 
million I believe; is that the numbers?
    Mr. Covington. Uh-huh.
    Mr. Flake. Assuming we move forward with the kind of forest 
restoration that you talk about and assuming that we do not 
have any, you know, politically correct diameter limits of 16 
or whatever, we restore the forest to as close to native 
conditions as we can; how much of the area we are in here, the 
White Mountain area, the Ponderosa pine stand, could we treat 
for $50 million, assuming that we could have commercial 
interests come in and how much per acre? We have talked about 
this in the past.
    Mr. Covington. Yeah.
    Mr. Flake. If we cannot recoup any costs versus having no 
diameter limits but actually doing it as we know we should 
using sound science.
    Mr. Covington. Probably the best information on that is 
some studies done by Carl Fielder and Keegan and others at 
Montana who have been looking at this question exactly. They 
looked at it in Idaho, Montana and they completed one in New 
Mexico. They have not done one in Arizona yet. But in New 
Mexico what they found is that without diameter caps, where you 
are just strictly doing the restoration thinning, that it 
yielded about $8.00 per acre to do the thinning treatments and 
all of the operations with that, about $8.00 per acre. So it 
would not cost anything for just the hazardous fuel reduction 
part, the thinning and removal.
    If you had a--I am going to say a 16-inch cap, it might 
have been 14-inches, I will have to look at it again, it cost 
about $370.00 per acre instead of yielding eight.
    So these caps make a huge difference because the value is 
not linear with tree diameter, there are some real thresholds 
there. It is more exponential in its function's shape.
    So anyway, with the 12-inch diameter, I believe it was 
$370.00--or 14-inch diameter, it was $370.00 per acre--I can 
get this for you instead of me just trying to recall it from my 
feeble mind. And then at nine inches, I think it cost around 
$500.00 per acre to do the treatments. And that was in 
Ponderosa pine and in New Mexico. I would expect similar here.
    Mr. Flake. Are these stands similar to that?
    Mr. Covington. They are similar to the analysis they did in 
New Mexico, although the value might be a little higher here 
because we have larger areas that are pure Ponderosa pine than 
they have in New Mexico.
    Mr. Flake. Thank you. I thank the Chairman.
    Mr. Hayworth. Thank you, Congressman Flake. And I thank our 
witnesses. We point out that stewardship contracting, a pilot 
project that has been in existence, the President's bill, what 
we are trying to do now is get permanent authority to get this 
done from Ag and from Interior, goods for services, best value, 
choose the contractor with the best project proposal, not 
solely based on lowest bid, which reminds me of what the late 
Alan Shephard used to say about the space program, he said you 
are sitting on top of that rocket and you realize everything 
has gone to the lowest bidder.
    [Laughter.]
    Mr. Hayworth. Local preference vitally important to 
businesses, collaborative planning of projects and receipt 
retention on forests--some common sense steps that we welcome 
from the administration. Congressman Flake and I are trying to 
work with colleagues from across the country from both 
political parties to get done.
    Gentlemen, we thank you again for your testimony, Dr. 
Covington and Mr. Porter, the fact that we were able to come 
here but also the number of times you have come to Washington 
to testify there and to work to be proponents for effective 
forest management. Thank you both.
    Ladies and gentlemen, the first three words of our 
Constitution read ``We the people.'' Keeping that in mind and 
thanking you for your indulgence this afternoon, we would 
invite you front and center. We have a microphone right here. 
It is 10 minutes until four and we thank you for your patience 
and forbearance. While we were a bit more indulgent with time 
for our formal witnesses, we will give each of you who wants to 
line up 2 minutes to offer your thoughts to us if you are so 
inclined, if you can encapsulate some thoughts. We do not mean 
to be abrupt, but we will try to be very strict with the time 
limit to get a multiplicity of voices.
    And so it is in that spirit that we invite you front and 
center. If you could state your name for us and offer your 
thoughts succinctly in 2 minutes time, that would be great. The 
other thing that we would again point out to you this afternoon 
is that as you see on the copies of the agenda distributed 
earlier, on the back side of the agenda, there are addresses 
where you can mail, e-mail or fax your own testimony to be a 
part of this record of this public hearing today.
    With that, we open the mic here front and center, as you 
see it right down here in front of the orchestra pit, and we 
welcome you here for your comments. Yes, ma'am.

                   COMMENTS OF VICKY STOCKTON

    Ms. Stockton. My name is Vicky Stockton, I have lived in 
this community for 10 years, I owned a home in Timberland 
Acres. In Timberland Acres, 80 percent of the homes that were 
lost there were primary homes, not secondary, two-thirds of the 
neighborhood is gone.
    I have the following statements:
    I am tired of hearing that no lives were lost. There were 
lives lost--people that died from stroke because of the gestapo 
tactics that were used to evacuate us, people that had heart 
attacks--there are people that died because of this fire.
    I am also tired of being desensitized with the word 
``structure.'' Structures were not lost, homes were lost.
    I think that there should be some question about the delay 
that it took on the Rodeo fire because of an archeological dig. 
That was not mentioned by anybody who spoke today and our 
understanding is that it was several hours.
    Jake Flake, you have said that--were quoted in the paper 
saying that there was no entity in Timberland Acres and that 
you had been offered a lot of money--not offered like that--
offered money to help those people. We have a road board in 
Timberland Acres that has a chairman, a vice chairman and a 
secretary-treasurer and I am sure that they could accommodate 
any of those funds so that it could be disbursed to us in that 
community.
    We are worried about the grasses that are being planted. No 
grazing is said to be done on that land that the grasses are 
being planted, and from the ranchers in my area, they are 
telling me that when that grass gets three foot high, that fire 
is going to come through there quicker and faster than it did 
this time.
    When us in our community called at 8 on Tuesday night when 
the Rodeo fire started, we were told by our local sheriff that 
it was contained. Then we were only given 2 hours to evacuate.
    We were not happy that this fire was fought 9 to 5. When 
they were in there having their meetings every morning, our 
land was burning. That fire started on Tuesday, my home burned 
on Saturday afternoon late.
    Pete Shumway told us that there is four million available 
for our area. We have not seen it. Dumpsters were put out there 
the first couple of weeks, but we could not put metal or 
concrete or anything in there. What were they for? Now 
dumpsters were put out there and all we have got is wood to get 
rid of and we are not allowed to put wood in them. So I do not 
know what that money was used for.
    Now they are telling us that chipper crews are out there. 
However, the logs have to be exactly 36 inches long and cannot 
be any bigger in diameter than whatever the number is.
    [Applause.]
    Ms. Stockton. It is a waste of time and money.
    And last but not least, myself and another individual in 
Timberland Acres observed the fire--the United States Forest 
Service cutting in fire lines on Forest Service property after 
the fire.
    [Applause.]
    Ms. Stockton. Were they doing that to cover their butts? 
Because they were cutting in fire lines after the fire.
    Thank you for your time.
    Mr. Hayworth. Vicky, thank you for your comments. Again, if 
you would put them in writing as well, we would like to have 
them to continue.
    And since your name was mentioned, Congressman Flake, would 
you like to comment?
    Mr. Flake. Just for the record, Vicky, thank you for your 
comments. I am Jeff. Jake is my uncle. It may have been Jake. 
If I do not get back to you, that is why. He is a good guy, I 
am pleased to be confused with him most times.
    Mr. Hayworth. Our very capable staff has given me a chance 
to see that we have microphones on both sides. We turn now a 
recognize the Mayor of Pine Top, our friend Ginny Handorf.

    COMMENTS OF HON. GINNY HANDORF, MAYOR, PINE TOP, ARIZONA

    Mayor Handorf. Thank you, J.D.
    Mr. Hayworth. Mayor, welcome.
    Mayor Handorf. Thank you. And thank you for being here and 
having this hearing.
    I just wanted to probably represent to you, I assume it is 
somewhere in your documentation, but I wanted to draw it to 
your attention. A couple of weeks ago, the League of Arizona 
Cities and Towns passed a special resolution from the entire 
League and I want you all to know this was passed by every city 
and town in the state of Arizona, whether they were an urban 
community, whether they were a desert community, all of them. 
They are supporting the President's forest health initiative. 
This is a lot of whereases and I do not want to take up the 
time for that, but they are supporting Senator Kyl's initiative 
to expedite the procedures for forest thinning and restoration.
    A couple of things I will read:
    ``Whereas, Arizona witnessed firsthand the consequences of 
current policy in the tragic and devastating forest fires 
throughout the summer of 2002, culminating in the Rodeo-
Chediski fire which consumed nearly one-half million acres of 
forest; and
    ``Whereas, fires not only destroy lives, forests, wildlife, 
homes and other structures, but also affect the economy of the 
entire region.''
    This was passed by all the cities and towns and I think it 
shows the severity, the need to get at this immediately. It is 
not just our area, it is not just our towns, it is not just our 
communities, it is the whole state begging and pleading.
    I heard the President yesterday say we have got to get rid 
of some of these rules that are just crazy rules, that are 
stopping us from getting things done.
    Also, on behalf of the towns of Pine Top and Lakeside, I 
would like to express to all of the people that did lose their 
homes or that had bad experiences with this fire, please do not 
hate us because we survived. You know, we were very fortunate, 
we certainly did not wish the fire to go in that direction and 
we are really sorry for all of you that experienced this 
terrible tragedy. We are trying to do our best to help in any 
way that we can and if we are not helping enough, let us know 
because maybe there is more we can do.
    So please, I know it is awful to go through this kind of 
thing, but you know, in your anger and in your traumatic 
experience, do not hate everybody that this did not happen to, 
I beg you of that.
    That is my thing. If you need a copy of this, this is just 
a copy, I think you probably have that documentation, but I can 
submit this.
    Mr. Hayworth. Madam Mayor, we thank you, and we will have 
it submitted for the record and it will become part of our 
record, as your comments will.
    Mayor Handorf. Thank you.
    Mr. Hayworth. To C.D. Nunnally from Timberland Acres. 
Welcome, C.D.
    [The resolution has been retained in the Committee's 
official files.]

                   COMMENTS OF C.D. NUNNALLY

    Mr. Nunnally. Thank you for letting me speak. I am C.D. 
Nunnally from the Linden Fire Department and I also live in 
Timberland Acres.
    The system that they have for managing these fires is 
great, but they need to get more input from the local fire 
departments. They went into Timberland Acres, they had no idea 
of the streets and how they are structured. So they need to get 
the team, the No. 1 team, when they come into these areas, to 
get the locals' input. Without that, they are shooting blind.
    Also, they need to get them more involved in the system. If 
they would get the locals involved, they would have a much 
better way of fighting the fires.
    That is all I have got to say.
    Mr. Hayworth. Thank you very much, C.D., appreciate it.
    Now I believe it is Jeff's old pal from school, if I am not 
mistaken, Kathy Gibson-Boatman.
    Mr. Flake. She did a lot better in school than I did.
    Mr. Hayworth. She did a lot better. The Congressman for 
purposes of the full disclosure law, your academic achievement.
    We welcome you here to the microphone.

                COMMENTS OF KATHY GIBSON-BOATMAN

    Ms. Gibson-Boatman. OK. I had a list of questions that I 
submitted and we sort of chose one that seemed to be one of our 
most burning questions, what we really wanted to know.
    I have heard people state that the incident command system 
worked perfectly. And I beg to disagree with that. I have 
spoken with officials in Washington, people that have worked in 
firefighting for 20-plus years on a Type I team, and I have 
been informed that that system did not work the way that it 
should have worked.
    I am a bit disappointed that we do not have Mr. Humphries 
here today so that maybe we could ask him a few of these 
questions directly. He was the leader, the incident commander, 
of that situation.
    So I have a question for you. What was the outcome of the 
inquiry/investigation and what are agency plans for 
accountability, as discussed at previous Congressional 
hearings? I have been informed that there was an inquiry into 
the way that that situation was handled with the incident 
commander. Can you tell me what is the outcome of the inquiry 
into the way the situation was handled with the Rodeo-Chediski 
fire?
    Mr. Hayworth. Kathy, as you mentioned this, I am not 
familiar with the completion of the inquiry.
    Ms. Gibson-Boatman. Well, I do not know if it is completed, 
but I know that there was an inquiry started and that senior 
officials were sent from Washington to Arizona to speak with 
Mr. Humphries regarding the deployment of resources and things 
of that nature. And for that matter, if you want witnesses in 
that, you may want to check with Chief Bosworth and Under 
Secretary Ray. They have direct knowledge of that incident.
    Mr. Hayworth. I appreciate that.
    Mr. Flake. We can follow up now that we know and see what 
the status of that inquiry is. And we would be glad to do so.
    Ms. Gibson-Boatman. That is a question that we would really 
like to understand. That may help explain why Heber did not get 
help for what is it, 5 days. And I do not think that that is 
acceptable under anybody's guidelines on a fire of this size. 
We heard Chief Epps say he did not have a Type I crew there 
until, what was it, five-six days into that fire. I do not 
think that is acceptable anywhere.
    Mr. Hayworth. Thank you for raising that and we will follow 
up on it. Thank you for raising that, Kathy.
    Ms. Gibson-Boatman. Thank you.
    Mr. Flake. Let me just add to that. As mentioned, Kathy and 
I had a few conversations during the time, the Sunday and 
Monday when a lot of this was going on, and I felt at that time 
and continue to feel that there are legitimate grievances by 
those in the Heber-Overgaard area, particularly in the area of 
information, if nothing else, that they were not given, about 
what was going on. And also from the deployment of resources 
and what-not. I have heard enough from enough people to believe 
that we ought to have more follow up, and so I will be 
interested in the outcome of that inquiry as well.
    Mr. Hayworth. We welcome next, Al Zoellner to the mic. Al, 
welcome.

                    COMMENTS OF AL ZOELLNER

    Mr. Zoellner. I live in Timberland Acres. I was on the--we 
have a special road district there which is kind of unique. We 
have to maintain our own roads. I was on that for approximately 
4 years.
    The thing I am going to address is the environmentalists 
are the ones that are hurting us the most. I know the 
government's hands are tied every time they go to court. Is it 
possible that individuals or groups of individuals could sue 
the environmentalists for all the damage they are doing?
    [Applause.]
    Mr. Zoellner. I figure that is pretty cheap. I figure is we 
sue them for $300 million, that it will be just like a sinking 
ship, watch the rats go off.
    I really agree with Vicky, it is unfortunate of all the 
stuff she went through, being a single mom, she did not know 
about the container program to get cleaned up, so she had to 
come out of her own pocket, made her very poor. I worked on 
that dumpster program, I put on about 700 volunteer hours as a 
volunteer and if Timberland Acres would not have had the 
volunteers from the churches, the Boy Scouts and the Eagle 
Scouts, we would still be 6 months in cleaning up. Right now, 
we have only got two places to clean up yet.
    Thank you.
    [Applause.]
    Mr. Hayworth. Al, thank you.
    Dr. Martin Moore from St. Johns joins us. Dr. Moore, 
welcome.

                  COMMENTS OF DR. MARTIN MOORE

    Dr. Moore. Thank you, Congressman Hayworth, Congressman 
Flake, I appreciate this opportunity.
    First of all, we offer greetings on behalf of Ron 
Christianson from the Heber County Board of Supervisors, who is 
also the Chairman of our Eastern Arizona Counties Organization 
Board of Directors. Mr. Shumway also serves on the Board of 
Directors in addition to being the Vice Chairman and we wanted 
to say we fully concur and appreciate the comments that he has 
made in relationship. All five of the counties have been 
working very diligently and very hard on these types of 
restoration type programs, and fully support the county 
partnership restoration effort.
    And obviously look forward on the Coronado, the Tonto and 
the other national forests, to the successful pilot on the 
Apache Sitgreaves Forest.
    On behalf of Mr. Harrington, our Vice Chairman from Grand 
County, we also extend to you the great concern for Mt. Graham, 
which is a similar issue here. We know we are talking about the 
Rodeo fire here.
    We also extend publicly to all of those who lost homes, all 
of those who lost lives because of health related concerns that 
were tied to smoke and other things with the fire, our deepest 
condolences.
    We also offer to you to continue to work with you and other 
Members of Congress and the administration in the development 
of these programs that will help to bring the forests back to a 
healthy condition and avoid these catastrophic fire 
circumstances.
    And in conjunction with that, we appreciate the opportunity 
to work on the Energy Advisory types of teams and continue to 
work on the West Moreno Energy Initiative that we are working 
on that hopefully can use a lot of the small diameter timber 
that we are trying to struggle so mightily to dispose of.
    Thank you.
    Mr. Hayworth. Thank you very much, Dr. Moore.
    Now I believe more kinfolks, huh, Jeff? There is Sanford 
Flake over at the mic from Snowflake. Welcome, Mr. Flake.

                   COMMENTS OF SANFORD FLAKE

    Mr. Sanford Flake. How are you doing?
    Mr. Hayworth. Fine, sir. Welcome.
    Mr. Sanford Flake. I worked in the woods when I was a young 
married man, that was my employment, for the Porters.
    I have seen this forest situation grow to what it is today, 
a hazard that they just could not corral, they just could not 
corral it. All that fancy equipment that the Bureau of Land 
Management or anybody could bring there, they could not do 
nothing with it, or they were scared of it. There was a lot of 
people so afraid that they did not attack the fire in a timely 
manner.
    I think, however, in order to save those kinds of risks 
again, or those dangers again, we have got to have a plan. 
Contiguous forests breed that thing, especially when we have 
not whipped the drought. It is going to happen again and we 
need to make a grid of clear-cut grids where--you know, they 
used a few roads here that helped contain the fire and if we do 
not have any roads in there, no grids where you can just block 
each grid off where it cannot catch fire onto the next one and 
you can be there to catch it if it blows over. You have got to 
open these forests, you cannot just leave them where you cannot 
get into them and they are a big thing that will take your 
whole town and it should be done over the whole forest.
    I know you have got a lot of problems with people suing you 
because you cannot touch it and you are all afraid to do 
anything because they are going to lodge a complaint and they 
are going to throw it into court and you cannot get at it. But 
we have got to do the right thing, anything that is right, and 
let the consequence fall. You have got to get some kind of a 
document before the President and the legislature or whatever, 
to get the right thing started to be done, and now, to save 
this thing. And then let them sue or do anything they want. 
Worry about them court cases later. I feel that that is what a 
person needs to do.
    Now to quote a little scripture, the second chapter of 
Genesis, the 15th verse said that the Lord took Adam and placed 
him in the Garden of Eden and he told him to dress and take 
care of it.
    Now you have to take care of the thing, even in that day 
before Adam fell, the garden had to be dressed and taken care 
of.
    We have got a wonderful heritage here if we will just dress 
and take care of it.
    I went to Washington, D.C., that is the knock downdest, 
worst place to go today in the mall, there is no grass because 
these guys that have nothing to do stand there and give you 
guys a hassle for doing the right thing, and they march and 
they try to get things for nothing.
    I think we need to instigate something like the WPA, the 
CCC or whatever, and if anybody opens their mouth about they 
need reparations or whatever, well, bring them in this forest 
and clean it up. And try to get a little grass started out 
there on the mall so that we can enjoy our national Capitol 
when we come see it and not let it be tread down by these 
carriers of bad news, lawsuits and people that have nothing 
else to do but complain against our government.
    Thank you.
    Mr. Hayworth. Mr. Flake, thank you for coming.
    Mr. Flake. I have a drawing here by Mr. Flake. Anybody that 
knows Uncle Sanford knows he is a noted artist. This is not his 
best work, but he did put a grid system here which I will be 
glad to pass along.
    Mr. Hayworth. And I believe next to the mic here, if I am 
not mistaken, Janet Gibson joins us from Heber. Hi, Janet, 
welcome.

                    COMMENTS OF JANET GIBSON

    Ms. Gibson. Thank you.
    I just had two points that struck me for quite some time 
now, but No. 1, I know Dr. Covington, he extolled some of the 
advantages of the Type I, Type II teams and I am sure that they 
work and I think we even saw that work in the Show Low area. 
But I think that one of the problems that we ran into was that 
the Chediski fire was never addressed as being a separate 
incident in and of itself. It was lumped in with the Rodeo 
fire, and hence the long delay in getting teams over there and 
getting them working and fighting that fire. It was all lumped 
into one incident, which it was not.
    The other point I just want to bring up in maybe looking at 
the overall situation of forest health is that looking back in 
history, the original commission of the U.S.D.A. Forest Service 
was to manage our public lands for multiple use, and that 
included ranching and logging and recreation and areas that did 
need protection perhaps for particular habitat, et cetera.
    I contend that for numerous years now, the Forest Service 
has lost that mission and a lot of it is due to these special 
interest groups and lawsuits always being lobbied against them. 
And that in fact, some of these special interest people have 
even infiltrated and are employees of the Forest Service so 
that--I mean there are times when the Forest Service is 
actually working against itself because you have people in here 
trying to manage timber and then you have environmentalists 
over here, and within the same agency, the same two interests 
cannot reach an agreement to manage the forests for multiple 
use.
    Mr. Hayworth. Thank you very much for your comments, Janet.
    Now we turn to this mic and--
    [Applause.]
    Mr. Hayworth. --Susan Weidner came all the way from Mesa. 
Welcome, Susan.

                   COMMENTS OF SUSAN WEIDNER

    Ms. Weidner. Yes, sir, thank you. My husband is also here 
in the audience today. I moved to the Valley about 4 years ago. 
He is a geologist who did his graduate work at the University 
of Arizona in Tucson, he loves this state and that is why we 
are here.
    I had previously served as senior commercial officer at two 
U.S. embassies abroad, so one of my particular interests is 
economic development.
    We made a decision to build a home at Bison Ranch in 
Overgaard. We took possession of it in February of 2001, we 
lost that home in its entirety, it burned to the ground in half 
an hour, we are told by people who were there on the ground. We 
were particularly interested in Chief Epps' account of what he 
attempted to do and what resources he had or did not have.
    My comment concerns economic development in the area and 
the fact that we made that choice because we love the state and 
its beauty, we wanted to enjoy that, but we also wanted to help 
promote further economic development. As we sat in our home in 
Mesa and watched the coverage of the Rodeo fire with increasing 
alarm, particularly with the advent of the second fire, we were 
struck--I must say certainly after the Chediski fire was 
underway, we were struck by the very little mention of Heber 
and Overgaard and Bison Ranch, virtually no mention until quite 
late in the scheme of things. We found out only on Tuesday 
because of our next door neighbor who also lost his home at 
Bison Ranch, someone on the ground told him that our homes had 
both burned to the ground. We were at a loss to understand why 
there was so little attention devoted to that particular area.
    It seemed to us that Gary Martin's imminent project at 
Bison Ranch was a significant step forward in the increasing 
economic development of the area. It, by all accounts, at least 
in our opinion, our experience, was quality work and only a 
boon to the local economy, bringing more people and money to be 
spent in the area and illustrating to people what exists and 
what can be further done there.
    Our concern now is whether to rebuild. Our woods are 
ruined, totally blackened behind our former home site. That is 
one break on our possible rebuilding there. Another concern 
would be why that area was so ignored and are we only safer 
building a home further east where there was a lot more 
attention paid, at least judging by the media coverage.
    If our area was neglected for triage reasons, if it was 
because there were inadequate resources to deal with both fires 
at the same time, we wish someone would be honest enough to say 
that, that the was a deliberate decision taken. And we hope 
that that policy will be looked at again in light of the 
specific problems that Chief Epps has mentioned today.
    I was very pleased to learn about these hearings today and 
I thank the Arizona Republic and NPR for making that known, and 
also one of the staff at Bison Ranch first told me about it a 
little bit earlier in the week. I had worked on environmental 
issues for Phillips Petroleum for a few years, so I am very 
pleased to have a chance to participate here today and thank 
you very much for holding this session.
    Mr. Hayworth. Susan, we thank you very much for taking time 
to join us and for your perspective.
    The Executive Director of the White Mountain Youth Corps of 
Show Low and White River, Rob Breen is here. Rob, welcome.

                     COMMENTS OF ROB BREEN

    Mr. Breen. Thank you, Chairman Hayworth and Congressman 
Flake. My name is Rob Breen, I am the Executive Director of the 
White Mountain Youth Corps. We are a youth and young adult 
conservation corps program, an Americorps program, that 
recently moved down to this area to create a youth and young 
adult conservation corps to respond to forest restoration 
issues in response to the Rodeo-Chediski fire.
    What we do is we gather all rural youth from the area, 
including young people from White River on the reservation, and 
we will respond to forest restoration issues and projects over 
this next year.
    But there have been so many critiques that are going on 
here, I wanted to offer you a little bit of hope here and also 
provide perhaps some recommendations of ways that we can 
address the western forest health issues, using youth and young 
adult conservation corps. There are many conservation corps 
around the United States, including many that are in the 
southwest, and we do have three corps right here in Arizona.
    We can respond by doing thinning projects in the forest, 
doing environmental assessments which provide researchers for 
gathering management data that we need to do environmental 
assessments. We can actually respond to fires when they break 
out, do emergency response, particularly initial response in 
fires and do ongoing firefighting. And we can engage in post-
fire restoration with young people, training them to do these 
types of skills, this type of work afterwards. And then we can 
also engage in rural young entrepreneurship in wood utilization 
projects. There is a corps in northern New Mexico that is 
engaged in that using small diameter trees to produce products. 
In this, we are engaging our young rural sons and daughters 
instead of sending them off to the cities, they can stay here, 
do these jobs, learn these skills, perhaps learn 
entrepreneurship skills and stay right here and we can use 
them--we can use WIA youth employment dollars federally, we can 
use Americorps dollars. There are a lot of state dollars that 
we can utilize, and by crossing two different policy issues--
forest health policy and youth and young adult development and 
employment dollars, we can cross those two policy issues and 
respond to these issues in a positive way.
    Thank you.
    Mr. Hayworth. Rob, we thank you very much for offering that 
perspective here today. We will certainly keep that in mind.
    Up from Scottsdale, John McConnell. Welcome, John.

                   COMMENTS OF JOHN MCCONNELL

    Mr. McConnell. Thank you.
    Everyone heard on the program was speaking about the 
future, what can we do for the future.
    I have a program that I have been working on for quite 
sometime, I will give you a couple of clues. I am a former Air 
Force pilot, World War II, did a lot of formation flying. No. 
2, I moved to Phoenix and have been in the swimming pool 
business for about 50 years, so I have a lot of water 
knowledge. These two clues should give you an idea where I am 
coming from.
    I do not know whether I mentioned it or not, but on May 12, 
1945, the U.S. Air Force and the British put 1000 bombers over 
Berlin in a 24-hour period. Just recently, I had four basic 
patents submitted to be able to convert most any cargo plane 
with very little modification to become a vehicle to spray 
water out in order to create a rainstorm. Any firefighter, he 
knows what he prays for, it is rain. Also, the environmental 
people would love this due to the pollution.
    I could go forward with this project if I knew what way to 
go from here. That is why I am speaking to you, Mr. Hayworth. I 
have the patents, I have the time, I need the party to help me 
go forward with this process.
    Thank you.
    Mr. Hayworth. Well, thank you very much, John. To let you 
know, I think we have a chance closer to us, October 22, the 
U.S.D.A. Forest Service and BLM are putting together a fact-
finding panel on aviation to identify some key planning and we 
will be happy to get you those addresses at the end of the time 
here and maybe try to find some other avenues.
    The great thing we learn, ladies and gentlemen, from these 
gatherings and these hearings and this open mic time, like many 
town halls, we understand that all good ideas certainly do not 
emanate from Washington, D.C. And we will be very happy to 
follow up to let you know how to propose that. And we thank you 
for that.
    Now we turn to our friend, His Honor, the Mayor of Show 
Low, Gene Kelley. Gene, welcome, and thank you for being here.

       COMMENTS OF HON. GENE KELLEY, MAYOR, SHOW LOW, AZ

    Mayor. Kelley. Thank you, Chairman Hayworth, and 
Congressman Flake. I want to take this opportunity to welcome 
you to Show Low. As the Mayor of our town, I was told if I were 
to be mayor, I would have an opportunity to welcome people to 
Show Low. The truth of the matter is just days after I accepted 
that responsibility, and indeed I had asked for it, I had the 
very poor job assigned to me to ask everybody to leave Show 
Low. That was no fun. However, it was a joyous day not many 
days after that to welcome them back to a town that never had 
fire in it.
    We felt so badly for our neighbors to the west and I have 
to point out that in all of this, all the records that were set 
by this horrible fire, there is one record that people tell me 
is probably very valid, and that is about people helping 
people. We moved some 30,000 people out of this area, not all 
out of Show Low, and a big, large number of them went over to 
the dome, as you well know. I am told half of those people that 
registered in wound up in people's homes that they did not 
know--people helping people.
    It has been testified that out here at Timberland Acres, it 
is nearly cleaned up--volunteerism, people helping people on a 
scale that is literally unheard of and should be looked at just 
for example's sake.
    You know, I am so discouraged at the continued talk and 
rhetoric that comes about the salvage harvest of this timber. 
And please, understand with all due respect, my blunt comment 
is not directed at you two gentlemen. I did take the hand of 
our President in mine and asked him if he understood what we 
could anticipate in terms of being able to successfully salvage 
this timber and he said he understood it and I asked him if he 
would cooperate in declaring the necessary emergencies to allow 
this to take place. Because it is not only the economic value 
of this timber and the board feet that can be extracted from 
it. The urgency of time has been repeated over and over by the 
experts. But if we leave it there, I am told that we will have 
an insect infestation that is likely to wipe out the green that 
has been left among it, not just the bark beetle, but many, 
many other forms of insect infestation that will be rampant 
because of all the food supply. It is a simple thing that 
forest management knows.
    It would seem to me that if we are collectively unable to 
accomplish permitting salvage harvest to begin within weeks, if 
not months, knowing it can only take place during a dry forest 
surface so we do not tear up the ground, or a frozen surface, 
therefore, we know we only have limited months for this to 
occur.
    I submit to you if we are unable collectively to manage 
this, it is not what would appear to be the behavior of 
intelligent beings. It is foolishness. Every expert agrees on 
what needs to be done for the salvage, and then what needs to 
be done on the thinning.
    You probably know all of the fuels east of 60 and 
immediately south of Show Low are still there, a very present 
danger that we could burn next year. If Show Low burns, all the 
experts tell me, Pine Top and Lakeside will burn, Honda 
homesites will burn, the casino area. You know, they told me in 
those meetings the next place they had a chance at stopping 
this thing, if they did not stop it on 60, was up at the 
junction leading into Sunrise Lake.
    So I just challenge you to redouble your efforts. I know 
they are there already, so please do not be insulted. I was 
told today not to bother coming here, ``Gene, you can effect no 
change at the Federal level.'' I could not accept that, I hope 
we can effect a change. When we continue to perpetuate a 
behavior that causes harm to ourselves--we can watch animals, 
if they harm themselves perpetually, they will stop that 
behavior.
    We know what we are doing is harming ourselves. We must 
stop that behavior.
    And I thank you gentlemen.
    Mr. Hayworth. We thank you, Mr. Mayor, well said.
    [Applause.]
    Mr. Hayworth. Next we will hear from Jerry Smith from 
Snowflake.

                    COMMENTS OF JERRY SMITH

    Mr. Smith. I would like to thank both of you for being here 
today and giving us the opportunity to participate in this. Two 
minutes is not a whole lot of time to say anything, but you 
will be getting a written statement from me.
    Just to give you a little background, I was on the Chediski 
fire for 12 straight days, started the second day after it got 
started. And worked with my brother, Wally Smith, who owns a 
logging company in Overgaard.
    To answer your earlier question about how do you keep track 
of these red cards and equipment that are signed up. Every year 
since I can remember, the Forest Service signs up equipment. My 
brother had signed up his equipment in April and so he was well 
documented before the fire came.
    The thing that interested me was it was on Friday afternoon 
that they finally called us to send equipment out on this fire 
at Overgaard, to try to build a fuel break right there along 
the fence. Of course, the fire hit Overgaard on Saturday. Well, 
we missed about 3 days we could have been doing something, yet 
they did not even call us and we were signed up.
    So I am not quite as proud of the number I team management 
or whatever they call these Forest Service people as Dr. 
Covington is. I think there is a communication problem there. 
Like somebody alluded to said that the first fellow that came 
there was from Alaska. Well, no doubt he is well trained in 
forest management and fires and all that kind of stuff, but I 
think they should have looked more toward the local people and 
had us out there helping more. I mean if you sent me to Alaska, 
I would not know what to do either, I would not know the lay of 
the land or anything else.
    So I think there are some issues that need to be addressed 
on this management team thing. I think the local Forest Service 
people and the local contractors should be asked more for 
input. Mell Epps done the best he could and I praise him for 
doing a good job, but with a little more help and a little more 
organization, we could have been a lot more effective and I 
think we could probably have prevented a lot of loss in 
Overgaard. Had we been able to go out a couple of days earlier, 
which we could have, we were sitting right in the middle of 
Overgaard with all this equipment setting there, and yet they 
did not call us. Now if that is not a break down, I do not know 
what to say.
    Mr. Flake. Would you clarify, you had a read card, you were 
certified, you were on the list?
    Mr. Smith. Uh-huh. We had signed up. My brother had signed 
up all his equipment with the Forest Service way back in April. 
So I don't know, they had plenty of notice there.
    But it was kind of took out of the hands of the locals when 
they send these management teams in and they have no idea who 
the local people are or what they can do. And Heber-Overgaard 
is kind of unique, we still have some local people that were 
loggers. My dad logged there at Overgaard for 30 years and I 
used to be a logger until we kind of became an extinct breed.
    But anyhow, I think there are a lot of improvements that 
could be made in this management team issue. I think they 
should get more local input on what should happen and how it 
should be addressed.
    Thank you.
    [Applause.]
    Mr. Hayworth. Jerry, we thank you very much.
    A lady who splits her time between Heber and Phoenix, Jean 
Farmer. Jean, thank you and welcome.

                    COMMENTS OF JEAN FARMER

    Ms. Farmer. Thank you. I want to thank both of you, first 
of all, for being here and doing this, and caring enough for 
all of these people that are out here and everybody that has 
lot something.
    I think I probably have the most controversial question out 
of all of this, but before I ask it and before I talk about it, 
I would like to tell you where I come from.
    I own a home in Heber, thank goodness it is still standing. 
I am sure that I have a lot of gratefulness to a lot of local 
people that I think really worked hard in the Heber area to 
make that happen. But I do want to let you know that the road 
that I live on, eight of the 13 homes burned down--eight of 
them on our road alone. And when we came in the week after the 
fourth of July when they allowed us in, it looked like somebody 
had dropped a bomb in that area. That is how severe it was.
    And when I look, and I watch the papers, through the summer 
months every year, wildfires are beginning to become an 
everyday word that we are all beginning to use more frequently. 
We have fires burning all over. We have forests that are in 
serious, serious trouble right here in the state of Arizona. 
Obviously that is why everybody has been gathered here, that is 
why all the discussions have occurred. But these forests are 
not going to get healthy quickly and we still have issues that 
we have to deal with next year and the year after that.
    My concern is how do we educate the public that our forests 
are fragile right now and that they have to be diligent and 
they have to be extremely careful when they are there. And the 
reason I ask this question of what we are going to do to 
educate the public is because in the July 2001 oversight 
hearing Committee, quoting Mr. Bosworth from those meeting 
minutes, this is in 2001, responding to a question, what does 
the source of the fire have to do with it. I mentioned arson 
laws, for example, if a person starts a fire, then they have 
some responsibility for what happens when that fire burns. What 
is the situation that we have right now with what occurred with 
the Chediski fire because obviously Mr. Gregg was arrested and 
is being held right now for the Rodeo fire, when we have a law 
on the books that says Federal regulations prohibit setting 
unauthorized fires on public land and do not make exceptions 
for emergencies.
    So my question is why did the attorney for Arizona, the 
U.S. Attorney for Arizona, not find in any set of circumstances 
any way to charge either Ms. Elliott or Mr. Olmstead with any 
personal or civil liability whatsoever for the fire that was 
started. And I guess I could ask that question as well, because 
there have been many other circumstances where people have been 
held accountable, where there have been charges filed against 
them, one of them right here in the state of Arizona, the LaRue 
fire, where they simply left it unattended. There was no 
criminal intent there either.
    So I would like to ask that question and have that 
answered.
    Mr. Hayworth. Jean, we thank you for the question. I should 
point out I am not a lawyer, nor do I play one on TV. As I 
understand it, inherent in every legal determination, 
especially that of a prosecutor, is the term ``prosecutorial 
discretion.'' In other words, they take a look ahead of time to 
applying the law and the context in which it is applied.
    The Congress of the United States, in the separation of 
powers, with the Judicial Branch does not have the ability to 
direct or decree prosecutorial discretion in one way or 
another. It may not be a satisfying answer, but you asked the 
question and I am trying to answer it to the best of my 
ability. And that is the reason why the prosecutor in this case 
has the ability to make such a determination.
    Ms. Farmer. But do we understand why he made that 
determination? I would like something that I could understand.
    Mr. Flake. I think from my perspective--
    Ms. Farmer. I am sorry, Congressman Flake, I think there 
are quite a few people who would like that answer.
    Mr. Flake. I can only say that you would have to take from 
his own comments, he spoke to that, Mr. Charlton, the U.S. 
Attorney. As Congressman Hayworth said, he represents the 
Federal Government but the U.S. Congress has no bearing on 
decisions that he makes.
    Ms. Farmer. OK.
    Mr. Hayworth. Jean, what we can do, and we will be happy to 
do this for you and everybody else, an inquiry can go to the 
U.S. Attorney for Arizona, asking for a more formal 
declaration. It may have been issued that day, I do not have 
that document here. If you would like the complete document and 
their rationale, we would be happy to use our good offices to 
get you that formal statement.
    Ms. Farmer. I would very much appreciate your help with 
that, thank you very, very much.
    Mr. Hayworth. Jean, thank you very much.
    And Bob Applegate. What is the old phrase, last but not 
least? Certainly not least, but the final comment comes from 
you, Bob, we welcome you.

                   COMMENTS OF BOB APPLEGATE

    Mr. Applegate. Well, fine. This old boy is a country boy 
from Arizona and Attica, Indiana.
    I became an inventor when I was five when I took a windup 
train and put a wire on a knife and stuck it in the ironing 
outlet, but the train did not run and neither did the family 
32-volt Delco system. So after they sent me to Purdue to become 
an engineer, I got a little better.
    During the war, I helped design equipment and since my 
family had been farmers in Indiana since 1824 and in the U.S. 
since 1656, I did not have a corporate background. So I 
invented corn dryers and 30 years ago, I invented the first 
commercial working air curtain destructors. We have had them in 
all sorts of states. Bechtel bought two of them and used them 
out at the atomic plant before there was any concrete in sight, 
to burn stuff in the desert and we did not catch the desert on 
fire. And during the hurricane down in Florida, Dr. Ed 
Middleton of the engineering department that was head of that, 
asked me to be his consultant on open burning and that stuff 
was wet and messy. We toured 22 sites and mine was the only 
site that worked properly.
    It appears to me that cleaning the forests is a very simple 
situation, which we have burned tree slash all over the 
countryside and outside the country. It takes a bulldozer with 
forks on the front of it to dig a pit. The air curtain 
destructor with a diesel engine on it, one man on the 
bulldozer, one man keeping--taking care to keep anybody from 
getting into the pit. The smallest unit will burn seven tons an 
hour and it will only take four acres of forest in order to use 
up that CO2.
    Now the other remark--and by the way, I walked these down 
to your office and walked them down to Senator Kyl's office and 
I never got a call from either one of you.
    But I want to tell these people how unhappy this old farm 
boy is that the town of Phoenix does not, after your 400 hours 
up here, just do not act like anything happened up here, 
unfortunately. We farm people, when somebody had a house to 
burn down out here, everybody was pitching in and doing 
something.
    And the other thing I would like to say is that I gave this 
to the Mesa paper and I thought they were going to print it, 
and here is a picture of one operating and I tell people their 
mother in law would look real good across that fire.
    [Laughter.]
    Mr. Applegate. But I do want to tell the people that the 
town of Show Low looks awfully good from 10 to 12,000. I have 
flown by here many times from Attica and told my kids the story 
of your name.
    Have I used up the 2 minutes? If I have not, I will shut up 
anyhow.
    Mr. Hayworth. Very efficient use, Bob. We thank you as an 
alumnus of Purdue and we will be happy--I am glad you brought 
this face to face with me again and we will be happy to try and 
get it in front of the appropriate folks. We thank you for your 
comments.
    One additional comment by the gentleman who was nice enough 
and patient enough to operate the camera. From Pinedale, Marvin 
Peterson steps before the mic.

                  COMMENTS OF MARVIN PETERSON

    Mr. Peterson. Thank both of you. I cannot talk very well 
because I have been sick for a few weeks, probably all the 
smoke I picked up a few weeks ago.
    You know, when I was just a little kid, I would go out in 
Pinedale, out in the woods out there and they would be logging. 
I would not be there when they logged, but I would go out there 
and I remember as a young child counting the rings back to 1776 
on a tree, and that reminded me, and I am sure Mr. Flake knows, 
many people that are Hancocks in this area, and I would say 
direct line--indirect because poor Mr. John Hancock, my direct 
relative or indirect I should say because all of his posterity 
died, worked very hard and stood forward and had courage. And I 
think that is what these people have talked about to you today, 
is to have courage.
    I will tell you what, I also heard another story that is 
very important today. As I recall there was a bus explosion in 
Tel Aviv a few days ago and there was a young man who was about 
19 years old and he was going to be a medical student and he 
decided to go over and do some service over there in 
preparation for him to go into medical school. He lost his 
life. That grieving family--and this is the parallel I am 
getting to, just like we are grieving over the problems that 
have been here--was kind enough to donate an organ to save 
another one's life. I will just tell you, the only thing that 
would make me upset is that if we let this forest--I do not 
care if we do not make any money, I do not care if this 
government does not get any more money--I would rather have a 
tree cut down and made into a toy for a child than to have it 
be eaten up and rotted up by a bug.
    They are being very conservative. Mr. Porter, I know 
would--I think if we all were not with this big mask over our 
face to say that it is going to be 12 months, would tell you 
the truth that the impact of water and the value of lumber once 
water gets in under the bark and it turns brown, goes like 
this, let alone the bugs.
    I think that we need to act, I think we need to act with 
courage, we need to act with the courage that John Hancock had 
and that is what I am asking you to do, both of you to do. 
Maybe get on your knees and pray for the help that you need to 
help people understand that we will truly be wasting the 
resource that has already been pretty much destroyed from an 
ecological standpoint. I pray that you will have courage and I 
will pray for you to have courage to do the right thing, 
because, you know, I guess if we were unorthodox instead of 
nailing nails into the stumps, we would be out there cutting it 
down and hauling it off somewhere so someone could do it, 
because I would rather see a board on a wall. I would rather 
see the boards given away to someone to build a house than to 
see it wasted.
    I thank you for this time and for this day and for the 
opportunity to be an American with you.
    [Applause.]
    Mr. Hayworth. Marvin, thank you.
    You have been wonderful this afternoon. I would yield to my 
friend from the First District for any closing comment he might 
have.
    Mr. Flake. I just want to thank all of you, both witnesses 
and everybody who made comments. I will take back with me and I 
am sure Congressman Hayworth will as well, an added sense of 
urgency to work with our colleagues on this issue.
    And so I thank you for this.
    Mr. Hayworth. Thank you, Congressman Flake.
    Ladies and gentlemen, we wanted to bring Washington to the 
White Mountains because not only was it practical, it is a lot 
easier for folks who encounter difficulties to come a few miles 
to gather here than to go back 2500 miles across the country.
    Your experiences and your perspective will help guide us in 
the days ahead. We do not expect unanimity from a gathering 
like this or 100 percent satisfaction. That is impossible in an 
imperfect world. But the genius of our republic is again found 
in the first three words of our Constitution, ``We the 
people,'' and together, in the aftermath of this tragedy, if 
there is a silver lining to those pyro-cumulus clouds that 
towered above these communities and a good part of this state 
and beyond our borders, it is that no longer is this a 
philosophical abstraction, no longer can people discount the 
severity of fire. Now the challenge comes in working 
prospectively to learn the lessons for effective forest 
management, for more effective interagency cooperation.
    But as Mayor Kelley pointed out a minute ago, in the most 
difficult of times, in the worst of times, the best shows up in 
Americans. And as d'Tocqueville pointed out in the 1820's, 
America is great because America is good. You are good people. 
We are honored to represent you and because of your goodness, 
this nation will remain great.
    Thank you for your ideas, for your input. This Subcommittee 
hearing is adjourned.
    [Whereupon, at 4:46 p.m., the Subcommittee was adjourned.]

</pre></body></html>
